<html>
<title> - EXPANDING CLIMATE SERVICES AT THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA): DEVELOPING THE NATIONAL CLIMATE SERVICE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   EXPANDING CLIMATE SERVICES AT THE
                    NATIONAL OCEANIC AND ATMOSPHERIC
                   ADMINISTRATION (NOAA): DEVELOPING
                      THE NATIONAL CLIMATE SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

                           Serial No. 111-24

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______
                  U.S. GOVERNMENT PRINTING OFFICE
49-451                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                              May 5, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chair, Subcommittee on 
  Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                                Panel I:

Dr. Jane Lubchenco, Under Secretary of Commerce for Oceans and 
  Atmosphere; Administrator, National Oceanic and Atmospheric 
  Administration (NOAA)
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    23

Discussion
  The Structure of a National Climate Service....................    23
  Applications of a National Climate Service.....................    24
  The Size of Federal Government.................................    25
  Monitoring Greenhouse Gases....................................    27
  Potential New Programs.........................................    27
  Observing Climate Change.......................................    28
  Ocean Acidification............................................    30

                               Panel II:

Dr. Arthur DeGaetano, Director, Northeast Regional Climate 
  Center, Cornell University
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    40

Dr. Eric J. Barron, Director, National Center for Atmospheric 
  Research; Chairman, Climate Services Coordinating Committee, 
  Climate Working Group, NOAA Science Advisory Board
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    44

Dr. Philip W. Mote, Director, Oregon Climate Change Research 
  Institute and Oregon Climate Services, Oregon State University; 
  Professor, College of Oceanic and Atmospheric Sciences
    Oral Statement...............................................    45
    Written Statement............................................    46
    Biography....................................................    63

Mr. Richard J. Hirn, General Counsel and Legislative Director, 
  National Weather Service Employees Organization
    Oral Statement...............................................    63
    Written Statement............................................    65
    Biography....................................................    69

Discussion
  Successes of Climate Forecasting...............................    70
  More on Structuring the Climate Service........................    71
  How Existing Climate Offices Coordinate........................    73
  International Cooperation and Disseminating Real Time Climate 
    Information..................................................    74
  Responding to Climate Information..............................    76
  The Model Coordinating Agency..................................    77
  Suggestions for Changes at NOAA................................    78

                               Panel III:

Dr. Michael L. Strobel, Director, National Water and Climate 
  Center, Natural Resources Conservation Service, United States 
  Department of Agriculture
    Oral Statement...............................................    82
    Written Statement............................................    84
    Biography....................................................    94

Mr. David Behar, Deputy to the Assistant General Manager, San 
  Francisco Public Utilities Commission
    Oral Statement...............................................    94
    Written Statement............................................    96
    Biography....................................................   100

Mr. Paul Fleming, Manager, Climate and Sustainability Group, 
  Seattle Public Utilities
    Oral Statement...............................................   101
    Written Statement............................................   102
    Biography....................................................   106

Dr. Nolan J. Doesken, President, American Association of State 
  Climatologists; Colorado State Climatologist, Department of 
  Atmospheric Science, Colorado State University
    Oral Statement...............................................   106
    Written Statement............................................   108
    Biography....................................................   111

Discussion
  More on Structuring a National Climate Service.................   112
  Interagency Coordination.......................................   113
  State Climate Offices..........................................   114
  Mitigating a Duplication of Services...........................   116


  EXPANDING CLIMATE SERVICES AT THE NATIONAL OCEANIC AND ATMOSPHERIC 
     ADMINISTRATION (NOAA): DEVELOPING THE NATIONAL CLIMATE SERVICE

                              ----------                              


                          TUESDAY, MAY 5, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Expanding Climate Services at the

                    National Oceanic and Atmospheric

                   Administration (NOAA): Developing

                      the National Climate Service

                          tuesday, may 5, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, May 5, 2009 the Subcommittee on Energy and Environment 
of the Committee on Science and Technology will hold a hearing on 
Expanding Climate Services at the National Oceanic and Atmospheric 
Administration (NOAA): Developing the National Climate Service.
    The purpose of the hearing is to hear expert testimony on options 
for expanding the delivery of climate services by the National Oceanic 
and Atmospheric Administration (NOAA). The hearing will also explore 
the role of other federal agencies in building a national 
infrastructure to deliver climate information to support the 
development of national, regional and local strategies to adapt to 
climate variability and change.

Witnesses

Panel I

Dr. Jane Lubchenco, Under Secretary, National Oceanic and Atmospheric 
Administration, U.S. Department of Commerce. Dr. Lubchenco will discuss 
the current climate services available through NOAA's various programs 
and offices; the agencies' plan for internally organizing a National 
Climate Service; and how and to whom services are delivered.

Panel II

Dr. Arthur DeGaetano, Director, Northeast Regional Climate Center 
(NRCC). Dr. DeGaetano will discuss the products and services of the 
regional climate centers, specifically the Northeast Regional Climate 
Center. Dr. DeGaetano will also discuss regional data users and give 
examples of how the NRCC services influence regional management and 
climate decisions.

Dr. Eric J. Barron, Director, National Center for Atmospheric Research. 
As Chairman of the Climate Service Tiger Teams Coordinating Committee, 
Dr. Barron will discuss how current climate services are organized and 
the potential impact of a coordinated, national climate service. In 
addition, Dr. Barron will discuss different organizational scenarios 
for a national climate service, as outlined in the Tiger Team 
Coordinating Committee and the National Academy of Sciences (NAS) 
Report.

Dr. Philip Mote, Director, Oregon Climate Change Research Institute and 
Oregon Climate Services and Professor, College of Oceanic and 
Atmospheric Sciences, Oregon State University. Dr. Mote will discuss 
the role of the Regional Integrated Sciences and Assessments (RISAs) in 
delivering climate services. Dr. Mote will also discuss how the RISAs 
interface with NOAA, other agencies, Regional Climate Centers, State 
climatologists, NGOs, and the private sector.

Mr. Richard J. Hirn, General Counsel and Legislative Director, National 
Weather Service Employees Organization. Mr. Hirn will discuss the 
National Weather Services' role in delivering climate service to the 
Nation and how these services are coordinated with other agencies, the 
private sector, Regional Integrated Science and Assessments (RISAs), 
Regional Climate Centers, State climatologists, and NGOs.

Panel III

Dr. Michael L. Strobel, Director, National Water and Climate Center, 
Natural Resources Conservation Service (NRCS), United States Department 
of Agriculture (USDA). Dr. Strobel will discuss NRCSs role in 
delivering climate services and products to the Nation and how this 
interfaces with the services of NOAA and other agencies. Dr. Strobel 
will also discuss the users of the services USDA provides and how a 
national climate service would impact USDAs climate service.

Mr. David Behar, Deputy to the Assistant General Manager, San Francisco 
Public Utilities Commission and Staff Chairman, Water Utility Climate 
Alliance. Mr. Behar will discuss what climate services and products the 
San Francisco Public Utilities Commission utilizes; how these services 
are delivered; and how these climate services and products influence 
the city's operations and management decisions.

Mr. Paul Fleming, Manager, Climate and Sustainability Group, Seattle 
Public Utilities. Mr. Fleming will discuss how the Regional Integrated 
Sciences and Assessments (RISAs) deliver climate services and products 
to the Seattle Public Utilities, and how these climate services and 
products then influence their operations and management decisions.

Dr. Nolan Doesken, State Climatologist for Colorado, and Senior 
Research Associate, Colorado State University. Dr. Doesken will discuss 
the climate services and products produced at State climate offices and 
explain who uses this information. He will also discuss the State 
climate offices' relationship with the Regional Climate Centers, the 
Regional Integrated Sciences and Assessment (RISA) program, and the 
NOAA Climate Program office.

Background

    Multiple actors in society, from individuals to businesses to the 
government, rely on weather and climate information to make decisions. 
The United States recognized that a well-functioning society needed 
this kind information and in 1890, the first law was passed to 
authorize the creation of a weather bureau to track the weather and 
provide warnings and forecasts. Since that time, our ability to monitor 
and forecast the weather and, therefore to understand the climate has 
expanded dramatically, and the need for information about weather and 
climate has also expanded. Satellite-based information, improvements 
and expansion of ground-based and ocean-based observation networks, 
availability of faster, more advanced computers, and improved models of 
climate and weather phenomenon allow the National Weather Service (NWS) 
to provide more accurate weather forecasts, longer lead times for 
severe storms, and more reliable information about fluctuations and 
patterns of weather over intra-annual and inter-annual, decadal and 
longer time scales--or climate.
    Weather is the short-term variation in the state of the atmosphere 
that occurs in periods from minutes to weeks at specific locations. It 
results from the combination of temperature, humidity, precipitation, 
cloud cover, visibility and wind speed. Climate is the average weather 
conditions for a location over a period of decades (30 years, commonly) 
plus statistics of weather extremes.
    Over these decadal periods, scientists look for patterns of 
variability and cycles in climate. One of the best known cycles is 
associated with shifts in the winds and ocean temperatures in the 
equatorial Pacific Ocean that result in the El Nino and La Nina cycles. 
Climate change is discussed in the context of years, decades or 
centuries. Cycles of variability are monitored and studied to determine 
possible shifts in long-term climate that are more permanent.
    Increasing impacts of a changing climate demonstrate the need for 
information to support adaptation decisions. Climate variability and 
change are important for a wide range of human activities and natural 
ecosystems. Federal resource managers, State, local, and tribal 
governments, and the private sectors all recognize that a changing 
climate greatly impacts their ability to plan for tomorrow.
    The National Oceanic and Atmospheric Administration (NOAA) is the 
leading provider of weather and climate information to the Nation and 
the world. Climate sciences have made major advances during the last 
two decades. NOAA has begun to extend climate science to address 
decision-relevant questions and build capacity to anticipate, plan, and 
adapt to climate variability and change. NOAA is providing climate 
forecasts and support for planning and management decisions by other 
federal agencies and by State, local and tribal governments, the 
private sector and the public. Through programs such as the National 
Integrated Drought Information System (NIDIS), NOAA is expanding its 
delivery of climate information. Forecasts of El Nino and La Nina 
cycles, production of seasonal hurricane outlooks, production of 
monthly wildfire outlooks, and projections of snowpack and snow-melt 
are all examples of climate products that different user-groups are 
requesting and relying upon to respond to conditions that impact a wide 
array of economic and social activities including agriculture, the need 
for emergency management resources, resource management, and 
projections of energy demand.
    The Bush Administration announced its intention to create a 
National Climate Service in 2008, and requested the NOAA Science 
Advisory Board (SAB) examine four options for organizing a National 
Service. Two options focused on creating the Service at NOAA and the 
other two options examined other organizational structures with a NOAA 
role, but not a NOAA lead.
    Some of the key issues going forward are: the consideration of how 
services will be provided at the regional, State, and local levels to 
all potential users of climate information; what role will NOAA play in 
a National Climate Service; what type of interagency structure should 
coordinate the development and delivery of climate services by federal 
agencies; what is the role of other climate service providers including 
State and local governments; the private sector; universities; and 
other non-governmental organizations.

Production and Delivery of Climate Services by NOAA
    The current structure at NOAA providing climate services is 
essentially the same structure that provides weather forecasting 
services. As discussed earlier, information about climate is built upon 
repeated, comparable observations of the weather in a given location 
over time. Information about climate has also grown as the number, 
distribution, type and quality of observations have grown. The primary 
line offices at NOAA that support climate services are the National 
Weather Service, the National Environmental Satellite, Data and 
Information Service and the Office of Oceanic and Atmospheric Research. 
Observations and information provided by other NOAA line offices and by 
other federal agencies and the academic community also contributes to 
these efforts. The roles of each of these are described briefly below.

National Weather Service (NWS)

    The National Weather Service (NWS) provides and wide array of 
weather and climate services every day for the U.S. and other nations 
in accordance with its fundamental missions to support: ``the 
forecasting of weather, the issue of storm warnings, . . ., the 
distribution of meteorological information in the interests of 
agriculture and commerce, and the taking of such meteorological 
observations as may be necessary to establish and record the climatic 
conditions of the United States.'' \1\
---------------------------------------------------------------------------
    \1\ 15 U.S. Code Section 313 from the 1890 Organic Act establishing 
the National Weather Service.
---------------------------------------------------------------------------
    NWS operates and maintains a network of observing stations and 
provides operational weather and climate services through its regional 
centers and the 122 Weather Forecast Offices (WFO) and the River 
Forecast Offices (RFO) distributed throughout the Nation. The National 
Center for Environmental Prediction (NCEP) develops weather and climate 
forecast models and tools and is responsible for transitioning new 
models and tools to operations. The Climate Prediction Center (CPC) 
provides weather and climate products that span time scales from days 
(e.g., six- to ten-day Outlook) to months (90-day Outlook). CPC also 
provides the U.S. Hazards Assessment and Drought Assessments and the El 
Nino and La Nina predictions.
    NWS provides information to other federal agencies to support their 
weather and climate-related work and to private sector weather 
providers who develop specialized forecast products for distribution to 
businesses and the public. NWS also interacts with the international 
community through cooperative programs of the World Meteorological 
Organization.

National Environmental Satellite, Data and Information Service (NESDIS)

    The National Environmental Satellite, Data, and Information Service 
(NESDIS) operate the geostationary and polar weather satellites from 
which we obtain a wide array of observations. NESDIS receives data from 
the satellites, analyzes these data, provides the accompanying metadata 
(i.e., supporting information that describes key characteristics of 
data and how they were collected), and distributes data products to NWS 
and other NOAA line offices and non-federal users for use in weather 
and climate models. NESDIS provides data services and support for all 
of NOAA and for other federal agencies. The National Climatic Data 
Center provides for the long-term archiving of weather and climate 
data. NESDIS supports data product development to improve final weather 
and climate forecast products.

Office of Oceanic and Atmospheric Research (OAR)

    The Office of Oceanic and Atmospheric Research (OAR) conducts the 
majority of NOAA's in-house research through its seven laboratories. 
The research is organized under three major categories: weather and air 
quality, climate, and ocean and coastal resources. In addition to their 
in-house research, many of the laboratories work collaboratively with 
universities and other non-governmental research organizations through 
formal agreements. OAR's research supports the operational missions of 
the other line offices at NOAA, and they work cooperatively with other 
federal research agencies. The advanced computational work, model 
development, observations, atmospheric and oceanic research done by OAR 
has enabled NOAA to expand the types and improve the quality of climate 
services they deliver.

Climate Program Office

    The 1978 National Climate Program Act directed the Secretary of 
Commerce to establish a National Climate Program Office. The operation 
and scope of duties of this office have varied since that time. 
Currently, the Climate Program Office (CPO) is located in the Ocean and 
Atmospheric Research line office and it provides strategic guidance and 
oversight of the Agency's climate programs.

NOAA Partnership Programs

    NOAA supports programs in partnership with other governmental and 
non-governmental organizations here in the U.S. and internationally 
that develop and deliver climate services. In addition to NOAA's in-
house research done through OAR and through the other line offices, 
NOAA supports research through grants and cooperative agreements with 
universities. NOAA currently supports 21 Cooperative Institutes in 17 
states. A number of these are engaged in weather and climate research 
(e.g., Cooperative Institute for Climate Studies--Univ. of MD; 
Cooperative Institute for Meteorological Satellite Studies--Univ. of 
WI). Some of the other organizations that are working with NOAA to 
develop and deliver climate services are described briefly below.

Regional Climate Centers

    There are six Regional Climate Centers (RCCs) overseen by the 
National Climate Data Center of NESDIS. The Centers are a federal-State 
partnership to provide climate data and information at the State and 
local level. The RCCs work with NESDIS to maintain the national climate 
data record archive and support regional climate monitoring and applied 
climate research. They maintain and provide access to the Applied 
Climate Information System, a climate data management system that 
facilitates collection and dissemination of climate data. The Centers 
often work with the network of State climatologists to facilitate 
exchange of data and to develop and deliver local and regional climate 
services.

Regional Integrated Sciences and Assessments (RISA) Program

    The Regional Integrated Sciences and Assessments (RISA) Program was 
established by NOAA through OAR about 10 years ago. There are nine RISA 
offices located throughout the country. The offices are based at 
universities and are designed to deliver applied research on climate to 
decision-makers in formats that are readily applicable to regional and 
local situations. They provide assessments of impacts on the 
transportation sector, agriculture, coastal communities and human 
health. Feedback on current products and requests for new products come 
from the stakeholder community to the RISA offices and help to shape 
the research agenda to deliver what is needed.

Other Federal Agency Partnerships

    NOAA is the primary provider of weather and climate information for 
the Nation; however, there are many other federal agencies that provide 
climate services through their own network of field offices. The 
specific climate services provided are developed by these other 
agencies with support from NOAA. The distributed inter-agency system 
that has developed provides a wide array of services delivered at the 
local and regional level. However, the coordination for this system is 
not formalized in a holistic way. Several examples of programs for 
delivering climate services by federal agencies other than NOAA are 
provided below.
    NOAA provides information to many other federal agencies and in 
some cases, receives data and information from the observing equipment 
and stations maintained by other federal agencies. USDA's Natural 
Resource Conservation Service (NRCS) operates the National Water and 
Climate Center to provide support for natural resource management at 
the level of river basins, watersheds and farm fields. NRCS is both a 
recipient of information from NOAA and a provider. They collect data on 
snowpack and soil characteristics through the Snowpack Telemetry and 
Soil Climate Analysis Network that is shared with other federal 
agencies including NOAA. NRCS utilizes data from these sources to 
develop climate services tailored to the needs of their traditional 
constituencies.
    The Joint Agricultural Weather Facility is located in the Chief 
Economists Office at USDA. The World Board on Agriculture and NOAA 
established this Facility in 1977 to monitor the weather and climate 
and to assess the potential impacts on the yield of major crops around 
the world. They provide a number of climate products including a 
monthly review of weather highlights, an annual crop production review, 
and weekly soil temperature maps.
    NOAA also provides support for the National Interagency Fire Center 
(NIFC) in Boise, ID in cooperation with eight other agencies of USDA 
and the Department of Interior (DOI). The NIFC provides support to 
federal agencies, State and local governments and the public in the 
preparation and mobilization of resources to prevent and fight 
wildfires. The Center produces monthly and three-month seasonal trend 
forecasts of fire potential for the U.S. The Center holds workshops 
each year to develop their assessments.

Private Sector Climate Services

    Private Sector weather providers play a vital role in weather and 
climate forecasting. Their extensive radio and television outlets are 
the primary source of weather and climate information for the public. 
Private weather providers also deliver specifically tailored forecast 
products to individual customers using a combination of publicly 
available weather and climate data from NOAA augmented with 
observations and information from their own networks. As in the case of 
current weather and climate forecasting, private sector weather 
providers will continue to play an important role in refining and 
expanding the array of climate services available to specific customers 
and to the public.
    Chair Baird. Good morning and welcome. Our hearing will now 
come to order.
    I want to thank our witnesses and my colleagues and the 
panel, as well as staff, and the folks, other people in the 
audience.
    Our hearing today is on developing a National Climate 
Service. We will discuss the need for climate services, the 
type of services being delivered, and options for meeting the 
increased demand for climate information. As we all know, 
climate affects all of us every day in communities across the 
country. As our ability to understand and recognize climate 
cycles and patterns has grown, so has the demand for more 
climate information.
    This committee passed legislation in the 107th Congress, 
authored by Representative Hall, to expand climate services by 
authorizing the National Integrated Drought Information 
Service, or NIDIS. Droughts have taken an increasing toll on 
individuals, natural resources, and businesses in recent years, 
and these impacts have not been confined to the Western U.S. 
The Southeastern U.S. has experienced persistent drought 
conditions that still have not been completely alleviated in 
all areas. The severe shortage of water drove power plants to 
temporary shutdown, created financial hardships for 
recreational businesses, and loss in crop yields for farmers.
    Without some ability to predict the intensity and duration 
of these climatic events, State and local governments cannot 
develop plans to respond to them. That is why we need climate 
services. There are many examples where climate predictions 
have been useful in making important decisions. In our part of 
the country, the Pacific Northwest, data on snowpack provides 
critical information to decision-makers and water managers 
about the likely availability of water through the spring and 
summer months.
    The long-term data records that we have acquired through 
years of monitoring the weather indicate that climate is 
changing. Whether you believe this is due to greenhouse gases 
or to natural, long-term shifts in climates, we still need to 
understand the phenomenon and adapt to it. Therefore, it is in 
our best interests to structure a service that will utilize 
expertise to develop information that will not only support us 
nationally, but at the regional and local scale, where 
adaptation and response plans can best be implemented.
    Today, we will hear from witnesses who deliver climate 
services, and from those who use them. I look forward to 
hearing their recommendations for refining and expanding 
climate service to better address the needs of communities, 
businesses, and individuals for climate information that will 
reduce their vulnerability to weather and climatic events. I 
also look forward to hearing from the Administrator of NOAA, 
Dr. Lubchenco, about the Administration's plans for improving 
the delivery of climate services to the country. We may not be 
able to control the weather and climate, but we can prepare for 
it and adapt to it, if we know what we are facing.
    With that, I look forward to the testimony we will receive 
today. I want to thank our witnesses, and now recognize the 
distinguished Ranking Member, Mr. Inglis, for his opening 
remarks.
    [The prepared statement of Chair Baird follows:]
                Prepared Statement of Chair Brian Baird
    Good morning and welcome to today's hearing on Developing a 
National Climate Service. Today we will discuss the need for climate 
services, the type of services being delivered, and options for meeting 
the increased demand for climate information.
    Climate affects all of us everyday in communities across the 
country. As our ability to understand and recognize climate cycles and 
patterns has grown, so has the demand for more climate information. 
This committee passed legislation in the 107th Congress authored by 
Representative Hall to expand climate services by authorizing the 
National Integrated Drought Information Service or NIDIS.
    Droughts have taken an increasing toll on individuals, natural 
resources, and businesses in recent years and, these impacts have not 
been confined to the western U.S. The Southeastern U.S. has experienced 
persistent drought conditions that still have not been completely 
alleviated in all areas. The severe shortage of water drove power 
plants to temporarily shut down, created financial hardships for 
recreational businesses, and loss in crop yields for farmers.
    Without some ability to predict the intensity and duration of these 
climatic events, State and local governments cannot develop plans to 
respond to them. That is why we need climate services.
    There are many examples where climate predictions have been useful 
in making important decisions.
    In my part of the country, data on snowpack provides critical 
information to decision-makers and water managers about the likely 
availability of water through the spring and summer months.
    The long-term data records that we have acquired through years of 
monitoring the weather indicate the climate is changing. Whether you 
believe this is due to greenhouse gases or due to natural long-term 
shifts in climate, we need to understand this phenomenon and adapt to 
it. Therefore, it is in our best interest to structure a service that 
will utilize our expertise to deliver information that will not only 
support us nationally, but at the regional and local scale where 
adaptation and response plans can best be implemented.
    Today we will hear from witnesses who deliver climate services and 
from those who use them. I look forward to hearing their 
recommendations for refining and expanding climate services to better 
address the needs of communities, businesses and individuals for 
climate information that will reduce their vulnerability to weather and 
climate events.
    I also look forward to hearing from the Administrator of NOAA, Dr. 
Lubchenco, about the Administration's plans for improving the delivery 
of climate services to the country.
    We cannot control the weather and climate, but we can prepare for 
it and adapt to it if we know what we are facing.
    With that, I look forward to the testimony we are going to receive 
today. I want to thank all of our witnesses for participating in this 
important hearing. I now recognize our distinguished Ranking Member Mr. 
Inglis for his opening remarks.

    Mr. Inglis. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    While Congress continues to debate the right way to reduce 
our greenhouse gas emissions and limit future anthropogenic 
changes to our climate, farmers, water managers, land use 
planners, and other decision-makers are trying to plan for the 
impacts of climate change that we can expect over the next few 
decades.
    We have a lot of work to do to provide them with the 
information they need. NOAA has done a good job of identifying 
existing capabilities and launching the process of constructing 
a National Climate Service at the federal level. In addition, 
the Science Advisory Board's Report, ``Options for Developing a 
National Climate Service,'' highlight the challenge of 
coordinating the unique roles of several federal agencies.
    I am interested in learning more about how we can marry 
federal services with research universities and State 
climatology offices, to keep the focus on local users. Existing 
climate information services aim to provide tools for seasonal 
and yearly planning. In South Carolina, we use this information 
to decide what crops to plant, how to manage our water supply, 
and whether we can expect forest fires, like the ones that 
raged on our coast last month.
    The testimony we are going to hear today highlights the 
critical importance of this information. The challenge is also 
expanding services and provide accurate information to a wide 
variety of users, for both short- and long-term decision-
making. We also need to have a serious discussion about 
resources at NOAA. Existing observation and monitoring networks 
need to be updated. Computing capabilities are insufficient for 
local modeling, and information delivery needs to be improved 
to get the right information to the right people.
    These efforts won't be inexpensive, and we need to identify 
those needs now.
    Thank you again, Mr. Chairman, for holding this hearing, 
and thank you to the witnesses for appearing here. I look 
forward to learning about our progress toward a National 
Climate Service, and what obstacles remain.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good morning and thank you for holding this hearing, Mr. Chairman.
    While Congress continues to debate the right way to reduce our 
greenhouse gas emissions and limit future anthropogenic changes to our 
climate, farmers, water managers, land use planners, and other 
decision-makers are trying to plan for the impacts of climate change 
that we can expect over the next few decades. We have a lot of work to 
do to provide them with the information they need.
    NOAA has done a good job of identifying existing capabilities and 
launching the process of constructing a National Climate Service at the 
federal level. In addition, the Science Advisory Board's report, 
Options for Developing a National Climate Service, highlights the 
challenge of coordinating the unique roles of several federal agencies. 
I'm interested in learning more about how we can marry federal services 
with research universities and State climatology offices to keep the 
focus on local users.
    Existing climate information services aim to provide tools for 
seasonal and yearly planning. In South Carolina, we use this 
information to decide what crops to plant, how to manage our water 
supply, and whether we can expect forest fires like the one that raged 
on the coast last month. Mr. Fleming, your testimony highlights the 
critical importance of this information. The challenge is to expand 
these services and provide accurate information to a wide variety of 
users for both short- and long-term decision-making.
    We also need to have a serious discussion about resources at NOAA. 
Existing observation and monitoring networks need to be updated, 
computing capabilities are insufficient for local modeling, and 
information delivery needs to be improved to get the right information 
to the right people. These efforts won't be inexpensive and we need to 
identify those needs now.
    Thank you again, Mr. Chairman, and thank you to the witnesses. I 
look forward to learning about our progress to a National Climate 
Service and what obstacles remain.

    Chair Baird. I thank you, Mr. Inglis.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the development of a National Climate Service.
    Among the many challenges posed by climate change, one of the most 
important to address will be how these changes will impact our 
resources. Without workable information about the impacts of climate 
change, I am concerned our farms and industries will be unable to plan 
for the future.
    Currently, a variety of NOAA offices and programs make and 
distribute predictions about climate changes for a range of customers. 
Should Congress choose to develop a National Climate Service, the new 
program would need to be coordinated and efficient. Congress should 
work with NOAA and other stakeholders to ensure that this national 
service is quickly developed and works with the programs already in 
place. I am interested to hear from Dr. Lubchenco what she believes 
will be the most efficient means of consolidating and streamlining our 
current programs into a National Climate Service.
    It also will be important for a National Climate Service to provide 
useful, workable information to a variety of customers in different 
regions and different industries across the country. I am interested in 
hearing from the current providers of climate predictions on how a 
coordinated National Climate Service will enhance the programs 
currently in place. I would also be interested to hear their 
recommendations for streamlining the current system without diminishing 
or cutting back current programs. Finally, I am interested to hear from 
the utility companies how Congress and this subcommittee can best 
develop a program that suits your needs and continues to provide 
necessary information.
    I welcome our panel of witnesses, and I look forward to their 
testimony.

                                Panel I

    Chair Baird. It is really a pleasure now to be able to 
introduce Dr. Jane Lubchenco at her first visit to this 
committee. I am sure it will be the first of many to come, and 
I thank you very much for your time.
    New Administrators are--Administrators are always busy, but 
especially at the start of a new Administration, and we would 
very much respect your time. But I do want to take the time for 
my colleagues and for members of the audience and others to be 
aware of just how impressive the resume of our new Director of 
NOAA is.
    Dr. Jane Lubchenco, a marine ecologist and environmental 
scientist, is the ninth Administrator of NOAA. Her scientific 
expertise includes oceans, climate change, and interactions 
between the environment and human wellbeing. Raised in Denver, 
she received a B.A. in biology from Colorado College, an M.S. 
in zoology from the University of Washington, and a Ph.D. in 
ecology from Harvard University. While teaching at Harvard from 
1975 to '77 and Oregon State from '77 to 2009, she was actively 
engaged in discovery, synthesis, communication, and application 
of scientific knowledge. Dr. Lubchenco has studied marine 
ecosystems around the world, and championed the importance of 
science and its relevance to policy-making and human well-
being.
    A former President of the American Association for 
Advancement of Science, the International Council for Science, 
and the Ecological Society of America, she served ten years on 
the National Science Board, which this committee knows is 
basically the Board of Directors for NSF. From 1999 to 2009, 
she led a large four university interdisciplinary team of 
scientists, investigating the large marine ecosystems along the 
coast of Washington, Oregon, and California. She has a special 
interest in arctic ecosystems.
    Her scientific contributions include eight publications 
which are considered science citation classics. She is one of 
the most highly cited ecologists in the world. She is an 
elected member of the National Academies of Sciences, the 
American Academy of Arts and Sciences, the American 
Philosophical Society, and the Royal Society. She has received 
numerous awards, including a MacArthur Genius Fellowship. Why 
don't we ever get--no, don't answer that question. Nine 
honorary degrees, the 2002 Heinz Award in Environment, the 2005 
AAAS Award for Public Understanding of Science and Technology, 
the 2008 Zayed International Prize for the Environment. She has 
also served on the Pew Oceans Commission and the Joint Oceans 
Commission Initiative, and the Aspen Institute Arctic 
Commission. Clearly someone who is totally unqualified for the 
position. Remarkable resume, the latter was a joke.
    This is an extraordinarily well qualified, impressive 
individual. We are grateful for your time and your expertise, 
and in respect for that time, and the various demands, I have 
asked that you be solo up today, so we can move quickly through 
what you have to say and our questions, and then, we will 
recognize other panels as follows.
    So, with that, as witnesses should know, we will have five 
minutes for your spoken testimony. We have received your 
written testimony, and then, following your testimony, Dr. 
Lubchenco, we will alternate between the two sides.
    Thank you, and please begin.

 STATEMENT OF DR. JANE LUBCHENCO, UNDER SECRETARY OF COMMERCE 
FOR OCEANS AND ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND 
               ATMOSPHERIC ADMINISTRATION (NOAA)

    Dr. Lubchenco. There we go. Is that on? Thank you, Chairman 
Baird, Ranking Member Inglis. It is indeed a great pleasure for 
me to be here, and I too look forward to strong, productive, 
ongoing interactions with the Subcommittee and the Full 
Committee. So, thank you for your warm welcome.
    I am here today to discuss some of the benefits of the 
National Climate Service, and what it could provide to the 
Nation, as we work to adapt to a changing climate. I will also 
share with you our vision for how NOAA will work with other 
government agencies, the Executive Office of the President, and 
a diversity of public and private sector partners to help shape 
the National Climate Service, one that builds on existing 
capabilities, but also leverages the capacities of a range of 
federal agencies and other partners to develop new and vitally 
useful information services and delivery mechanisms.
    The Nation has already benefited from a sustained federal 
and extramural partnership and collaborations aimed at 
documenting and understanding climate change. Federal 
interagency collaborations, such as the climate change research 
efforts of the U.S. Climate Change Science Program and the U.S. 
Global Change Research Program, have produced state-of-the-art 
guidance through 21 synthesis and assessment products in the 
forthcoming ``State of Knowledge Report on Global Climate 
Change Impacts in the U.S.''
    We are indeed very proud of these achievements. Reports 
like these do an outstanding job of synthesizing existing 
scientific information. They do not, however, even begin to 
deliver all of the guidance now being sought by decision-makers 
from private and public sectors from local to international 
levels. To fill this void, a number of efforts have arisen to 
provide some climate services, and you will hear about many of 
those today.
    Each of these is important, but collectively, they are 
insufficient to meet the growing demand. More work and better 
integrated mechanisms are needed to provide usable, credible, 
salient information on an ongoing basis. In particular, more 
work is needed to understand users' needs, and to deliver 
climate relevant information at the appropriate scale in a 
fashion that is both true to the scientific knowledge, but 
also, sensitive to users' diverse styles and needs.
    Just as the Nation's climate research efforts have required 
sustained federal agency partnerships and strong engagement of 
academic and other partners, a new effort to provide climate 
services will also require sustained federal agency 
partnerships and collaboration with climate service providers 
and end users. It is time to learn from and build on existing 
efforts, but to take them to a new level of usability and 
usefulness.
    There is unequivocal evidence that the Earth is warming. 
This warming can be seen in increases in global average surface 
air and ocean temperatures, widespread melting of snow and ice, 
rising sea levels, and changes in many other climate-related 
variables and impacts. The impacts of our changing climate are 
regionally diverse, and relevant across numerous sectors, 
including water, transportation, forestry, coasts, fisheries, 
and human health.
    These impacts are expected to grow in response to projected 
future climate change. Weather and climate have profound 
impacts on our nation's economic and social well-being. Drought 
alone is estimated to result in average annual losses of 
between $6 and $8 billion to all sectors of the economy, 
including transportation, agriculture, and energy.
    The Nation's systems and infrastructure for water, energy, 
transportation, agriculture, and other sectors, have been 
designed and built based on what we know about current local 
environmental conditions or our understanding of the recent 
past. The assumption has been that the past will be a good 
indicator of the future. In similar fashion, our approaches to 
the management and conservation of ecosystems and species have 
been based on current and recent climate conditions.
    But now, the background patterns of temperature, rainfall, 
snowfall, and more are changing. For example, in the Northeast 
U.S., the number of heaviest precipitation days, defined as the 
heaviest one percent of all precipitation events, has increased 
by a startling 58 percent since 1958. Throughout the country, 
rapid climate change is presenting new challenges for managing 
water, building in coastal zones, growing food, providing clean 
energy, and helping to keep Americans healthy.
    As a consequence, decision-makers at all levels of 
government are seeking information to help them prepare their 
communities for the impacts. In similar fashion, the private 
sector is hungry for similar information to guide their 
planning. It is increasingly clear that the Nation needs an 
objective, authoritative, and consistent source of 
consolidated, reliable, and timely climate information at the 
appropriate scale to guide decision-making. This concept of the 
National Climate Service as a single point of accountability 
has been studied by the National Academy of Sciences, external 
advisory groups, and others. Each of these reports has raised 
serious issues, and has caused our thinking about a climate 
service to evolve.
    The overarching goal of a National Climate Service would be 
to provide the essential information about climate change that 
is needed for effective decision-making. A National Climate 
Service would enable public and private sector decision-makers, 
resource managers, and the public to better anticipate, plan, 
and respond to impacts of changing climate conditions. A 
National Climate Service would build on many agencies and other 
organizations' strengths and expertise, and rely upon strong 
partnerships across all levels of government, academia, and the 
private sector.
    Because NOAA already provides many climate services and 
data, because it has recognized scientific leaders with climate 
expertise, and because it has considerable experience in 
providing a range of other services, NOAA is well positioned 
and ready to work with a range of partners to help lead the 
development of a National Climate Service.
    The scientific basis for evaluation of climate change and 
its impacts must continue to come from existing collaborative 
efforts, with the relevant leading agencies, including NOAA, 
DOE, NASA, EPA, DOI, and NSF. These agencies will provide much 
of the data, information, and knowledge that will support a 
National Climate Service. The pace and nature of changes in 
Earth's climate reinforce the need for delivering targeted 
climate services. Much work lies ahead of us. We will need to 
draw from the experience of all of our partners to support the 
development of science-based and user-driven climate services.
    NOAA will contribute to this effort by building on its 
existing capacities and partnerships and networks to deliver 
and evolving suite of climate information and services, in 
collaboration with our partners.
    We are prepared to provide the leadership in partnership 
with other federal agencies to the design and development of a 
National Climate Service. Through an interactive dialog that 
engages the breadth of climate service providers and interests, 
including providers, researchers, and users.
    I look forward to working with the Committee, the White 
House Office of Science and Technology Policy, other federal 
agencies, and our partners to further evaluate and design the 
merits of the this effort.
    Thank you very much for the opportunity to testify, and I 
am happy to answer any questions.
    [The prepared statement of Dr. Lubchenco follows:]

                  Prepared Statement of Jane Lubchenco

Introduction

    Chairman Baird, Ranking Member Inglis, and other Members of the 
Subcommittee, I am pleased to speak with you today regarding the need 
for a National Climate Service and I am honored to be here as the Under 
Secretary of Commerce for Oceans and Atmosphere and the Administrator 
of the National Oceanic and Atmospheric Administration (NOAA), one of 
the Nation's premiere science and stewardship agencies, to discuss 
NOAA's capabilities in supporting this evolving national need.
    The climate challenge before us is real. Through sustained federal 
and extramural partnerships and collaboration, the Nation has made 
significant progress in our understanding of climate change. One 
example of federal agency accomplishments realized through such 
collaborations is the climate change research efforts of the U.S. 
Global Change Research Program and the U.S. Climate Change Science 
Program. The sustained partnerships and collaborations established 
through this intergovernmental body resulted in the publication of 21 
synthesis and assessment products, and the forthcoming report on Global 
Climate Change Impacts in the United States. This report will provide a 
comprehensive survey of the state of knowledge about climate change 
impacts in the United States, and will highlight for the American 
public just how far we have come in our understanding of climate 
change. We are proud of this achievement.
    More work is needed, however, to understand users' needs and 
deliver climate-relevant information to inform decision-making. In 
2007, The National Academy of Sciences released Evaluating Progress of 
the U.S. Climate Change Science Program: Methods and Preliminary 
Results, which highlighted existing gaps in federal programs to provide 
climate change information. This report recognized that good progress 
has been made to determine many aspects of climate change however, 
``progress in synthesizing research results or supporting decision-
making and risk management has been inadequate.''
    Just as the Nation's climate research efforts require and benefit 
from interagency and academic partnerships, so too will the 
communication of climate information to users. No single agency is 
capable of providing all of the information and services needed to 
inform decision-making. To be successful, this effort too will require 
sustained federal agency partnerships and collaboration with climate 
service providers and end-users.
    Today, I am here to discuss with you some of the benefits that a 
National Climate Service could provide as the Nation works to adapt to 
our changing climate. I will also share with you our vision for how 
NOAA will work with the several other relevant government agencies, the 
Executive Office of the President, and a diversity of public and 
private sector partners, to help shape a national effort that builds on 
existing capabilities and leverage the capabilities of other federal 
agencies to develop new information, services and delivery mechanisms 
to realize the potential of such a Service.

THE EARTH'S CLIMATE IS CHANGING

    There is unequivocal evidence that the Earth is warming. This 
warming can be seen in increases in global-average surface air and 
ocean temperatures, widespread melting of snow and ice, rising sea 
level, and changes in many other climate-related variables and 
impacts.\1\ Most of the observed increases in global temperatures since 
the mid-20th century are very likely due to human-induced emissions of 
greenhouse gases.<SUP>1
---------------------------------------------------------------------------
    </SUP>\1\ IPCC, 2007: Climate Change 2007: Synthesis Report. 
Contribution of Working Groups I, II and III to the Fourth Assessment 
Report of the Intergovernmental Panel on Climate Change [Core Writing 
Team, Pachauri, R.K. and Reisinger, A. (eds.)]. IPCC, Geneva, 
Switzerland, 104 pp.
---------------------------------------------------------------------------
    Under a broad range of non-mitigation scenarios considered by the 
Intergovernmental Panel on Climate Change, warming over this century is 
projected to be substantially larger than over the past century. 
Changes in many other components of the climate system (warming 
patterns being only one example) are also very likely to be larger than 
those observed in the present century. The prospects of such climate 
changes have profound implications for a global society, underscoring 
the need for scientific information to aid decision-makers in 
developing and evaluating options for mitigating future anthropogenic 
climate change as well as alternatives for adapting to a changing 
climate.
    Within the United States, extensive climate-related changes have 
been documented over the last century. These include increases in 
continental-average temperatures, rising sea levels in many coastal 
locations, an increased frequency of extreme heavy rainfall events, 
lengthening of the growing season, earlier snow-melt, and altered river 
flow volumes. Water is an issue in every region, but the nature of the 
potential impact varies. Drought is a serious problem in many regions, 
especially in the West and Southeast; and floods and water quality 
problems are likely to be amplified by climate change in most regions.
    For example, the amount of rain falling in the heaviest downpours 
has increased approximately 20 percent on average in the past century, 
and this trend is very likely to continue, with the largest increases 
in the wettest places. Many types of extreme weather events, such as 
heat waves and regional droughts, have become more frequent and intense 
during the past 40 to 50 years.
    As a nation, our economic and social well-being is intricately tied 
to weather and climate; this relationship produces significant social 
and economic benefits and costs. Some examples include:

        <bullet>  Coral reefs world wide are among the ecosystems of 
        highest risk of extreme degradation due to climate change. In 
        2002, Hawaii's coral reefs, when combining recreational, 
        amenity, fishery, and bio-diversity values, were estimated to 
        have direct economic benefits of $360 million/year.\2\
---------------------------------------------------------------------------
    \2\ Cesar, H., P. van Beukering, S. Pintz, and J. Dierking, 2002: 
Economic valuation of Hawaiian reefs. Cesar Environment Economics 
Consulting, Arnham, The Netherlands, 123 pp.

        <bullet>  Drought is estimated to result in average annual 
        losses to all sectors of the economy of between $6-8 
        billion.\3\<SUP>,</SUP>\4\
---------------------------------------------------------------------------
    \3\ Economic Impacts of Drought and the Benefits of NOAA's Drought 
Forecasting Services, NOAA Magazine, September 17, 2002.
    \4\ Interagency Working Group on Earth Observations, National 
Science and Technology Council Committee on Environment and Natural 
Resources. (2005) Strategic Plan for the U.S. Integrated Earth 
Observation System.

        <bullet>  Average annual damage from tornadoes, hurricanes, and 
---------------------------------------------------------------------------
        floods is $11.4 billion, of which:

                  hurricanes average $5.1 billion and 20 deaths per 
                year;

                  floods account for $5.2 billion, and average over 80 
                deaths per year, and

                  tornadoes cause $1.1 billion in damages.\5\
---------------------------------------------------------------------------
    \5\ National Center for Atmospheric Research (NCAR), Environmental 
and Societal Impacts Group, and the Atmospheric Policy Program of the 
American Meteorological Society. (2001) Extreme Weather Sourcebook 
2001: Economic and Other Societal Impacts Related to Hurricanes, 
Floods, Tornadoes, Lightning, and Other U.S. Weather Phenomena, 
National Center for Atmospheric Research, Boulder, Colo. Available only 
online at http://sciencepolicy.colorado.edu/sourcebook/data.html

    These examples of current weather and climate impacts are why the 
---------------------------------------------------------------------------
future effects of climate change matter.

HOW COULD THE NATION BENEFIT FROM A NATIONAL CLIMATE SERVICE (NCS)?

    The impacts of our changing climate are regionally diverse and 
relevant across numerous sectors, including water, energy, 
transportation, forestry, coasts, fisheries, agriculture, ecosystems, 
and human health. These impacts are anticipated to grow in response to 
projected future climate change.
    Until now, the systems and infrastructure that we as a nation have 
developed as the foundation of our water, energy, transportation, 
agriculture, and other sectors have been designed and built based on 
what we know about local environmental conditions, and our 
understanding of the past. In the same way, our approaches to the 
management and conservation of ecosystems and species have largely 
relied upon our scientific, historical understanding of those systems.
    For example, water planning and management have been based on 
historical fluctuations in records of streamflows, lake levels, 
precipitation, temperature, and water demands. All aspects of water 
management including reservoir sizing, reservoir flood operations, 
maximum urban storm water runoff amounts, and projected water demands 
have been based on these records. Because climate change will 
significantly modify aspects of the water cycle, the assumption of an 
unchanging climate is no longer appropriate for many aspects of water 
planning. To appropriately prepare their communities, decision-makers 
will need to be supported with access to the best climate information 
science can provide, and tools to apply that data to guide their 
decisions.
    Meeting the climate challenge will require an unprecedented level 
of coordination among federal agencies, along with our nongovernmental 
partners, to pull together our collective expertise to accomplish the 
goal of providing high quality climate information and services that 
are user-friendly, responsive, and relevant. A broad range of 
capabilities for providing climate information currently exists in 
federal agencies, and various other organizations. As we move forward 
we must find ways to maximize use of these capabilities, by integrating 
efforts to provide climate information and services that most 
effectively and efficiently respond to user needs.
    The Nation's need for user-driven climate services is increasing 
and the Federal Government recognizes the importance of responding to 
these increasing demands. In order to ensure climate information and 
services are available to meet current and anticipated demands, many 
scientific agencies, including NOAA, the Department of Energy (DOE), 
the Department of the Interior (DOI), the Environmental Protection 
Agency (EPA), the National Science Foundation (NSF), and the National 
Aeronautics and Space Administration (NASA), will continue climate 
research activities to provide the valuable data required to understand 
how our climate is changing. The contributions of these agencies are 
coordinated by the National Science and Technology Council through its 
Subgroup on Global Change Research.
    At a hearing this committee held in May 2007, the Western Governors 
Association stated that ``decision-makers at all levels of government 
and in the private sector need reliable and timely information to 
understand the possible impacts and corresponding vulnerabilities that 
are posed by climate change so that they can plan and respond 
accordingly.''
    Specific examples of requests for climate services include the 
following:

        <bullet>  The wind power industry has identified a need for 
        baseline data and future projections of wind measurements that 
        would aid them in long-term planning for wind energy 
        development to ensure a return on their investment.

           Corn growers have requested regional and long-term climate 
        forecasts that would help them in making decisions about when 
        and what they should grow.

        <bullet>  Federal agencies with land and water management 
        mandates, such as the Bureau of Reclamation and the U.S. Army 
        Corp of Engineers, have requested scientific information and 
        technical training on climate change impacts.

    Around the country, decision-makers at all levels of government are 
considering options for how to best prepare their communities for the 
impacts of a changing climate. As we move forward with efforts to 
mitigate and adapt to our changing climate, we will need to draw from 
the expertise of all federal agencies engaged in climate change science 
to support the development of climate services to enable decision-
making. The Nation needs an objective, authoritative, and consistent 
source of consolidated, reliable, and timely climate information to 
support decision-making.
    As I mentioned during my confirmation hearing, I believe our 
country must address the impacts of the changing climate head-on. In my 
work on the Pew Ocean Commission, I heard first-hand from businesses 
and State and local governments in communities all across this country 
about the need for reliable information and predictions about the 
impacts of climate change. From concerns about droughts and sea level 
rise to changes in the chemistry of the ocean, there is a real hunger 
for more and better information. NOAA is equipped, and ready to work 
with its partners, to provide this information.

KEY COMPONENTS OF A NATIONAL CLIMATE SERVICE

    Unlike climate services, weather services are familiar to most 
citizens. Weather services focus on the description, analysis, and 
atmospheric forecasting on very short time scales, from minutes 
extending up to a period of one week to ten days. The objective is to 
provide forecasts of continually changing weather conditions and 
warnings of severe weather events to protect life and property. The 
benefits of this service are measured in lives saved, injuries avoided, 
and reduction in property damage.\6\ For example, through NOAA's 
hurricane research to operations efforts, NOAA has improved wind speed 
estimates by 15 percent since 2004 and reduced track forecast error by 
50 percent since 1990. These hurricane forecast improvements are 
estimated to save taxpayers $640,000 per non-evacuated mile.
---------------------------------------------------------------------------
    \6\ Board on Atmospheric Sciences and Climate, National Research 
Council (2001) A Climate Services Vision: First Steps Toward the 
Future.
---------------------------------------------------------------------------
    In contrast to weather, climate refers to the longer-term 
statistical properties of the atmosphere-ocean-ice-land system. Climate 
variability and change are products of: (1) external factors, such as 
the sun; (2) complex interactions involving the different components of 
the Earth system; and (3) human-induced changes to the Earth system. 
Climate services encompass a variety of types of activities in order to 
address the range of short- to long-term variations and changes in 
climate, including those that are natural and human induced. Such 
activities are often associated with different types of users or 
decision-makers and with different types of needs and products.<SUP>6</SUP> 
Improving development and targeting delivery of climate information 
through a National Climate Service offers untold economic, public 
health and safety, and national security benefits.
    NOAA has a vision of a National Climate Service as a partnership 
that would be established with other federal agencies, various levels 
of government, and the private sector. The National Climate Service 
would provide credible and authoritative climate information and 
services to assist the Nation, and by extension the world. This would 
include policy-relevant information for decisions related to climate 
change mitigation and adaptation. This concept of developing a National 
Climate Service as a single point of accountability for providing 
climate information and services to the Nation has been studied by 
NOAA, the National Academy of Sciences,\7\ external advisory groups, 
and by Members of this committee. Each of these studies has raised 
important issues that will need to be addressed. NOAA's current vision 
for a National Climate Service has evolved as a direct result of these 
studies, as well as input and feedback from public and private sector 
partners and constituents around the Nation.
---------------------------------------------------------------------------
    \7\ National Research Council, Panel on Strategies and Methods for 
Climate-Related Decision Support, Committee on Human Dimensions of 
Global Change (2009) Informing Decision in a Changing Climate.
---------------------------------------------------------------------------
    The overarching goal of a National Climate Service would be to 
provide the essential climate change information needed for effective 
decision-making. As such, a National Climate Service must enable 
decision-makers, including resource managers, and the public to better 
anticipate, plan, and respond to impacts of changing climate 
conditions. A National Climate Service must also remain engaged in 
climate change science to maintain credibility, awareness, and 
flexibility, and to avoid insularity. In similar fashion, the National 
Climate Service must engage with a diversity of users to fully 
understand the needs and provide salient and usable information, tools, 
and expertise.
    The National Climate Service will build on many agencies' strengths 
and experience. The scientific basis for evaluation of climate change 
and climate change impacts on a global and regional level will come 
from existing collaborative efforts underway among NOAA and the other 
leading climate research agencies, including DOE, DOI, EPA, NASA, and 
NSF, in the following areas:

        <bullet>  climate observing systems and effective data 
        management and delivery systems;

        <bullet>  problem-focused research and a close coupling with 
        fundamental climate change research that establishes scientific 
        credibility of evolving products;

        <bullet>  climate modeling for predictions and projections; and

        <bullet>  local, regional, national, and international 
        assessments of climate change.

    Working with its partners, the National Climate Service will help 
support the following core climate services:

        <bullet>  ongoing, deliberate dialogue with users to understand 
        evolving needs,

        <bullet>  climate tools and other products at scales relevant 
        to support user decision-making;

        <bullet>  user outreach and capacity building; and

        <bullet>  public understanding.

    In order to build and maintain a bridge linking information and 
users, the Service will provide information to meet the key needs of 
government and society. Some of these products and services will be 
relevant for relatively short-term adaptation and mitigation decision 
support; others will be tailored to be relevant for longer-term 
choices. Some will be operational in nature; others will inform 
assessments of the state of climate research.
    The National Climate Service must have a clear set of principles 
regarding its products and services to ensure that it remains 
appropriately focused and managed in an effective way that best serves 
the Nation. NOAA envisions a successful Service guided by the following 
principles:

        <bullet>  provide balanced, credible, cutting edge scientific 
        and technical information;

        <bullet>  focus on human-caused climate change, but link human-
        caused climate change and changes in natural variability, such 
        as the frequency and duration of droughts, to meet broad user 
        needs;

        <bullet>  provide and contribute to science-based products and 
        services to minimize climate-related risks;

        <bullet>  provide predictions and projections of climate at 
        scales relevant to decision support;

        <bullet>  strengthen observations, standards, and data 
        stewardship;

        <bullet>  ensure timely assessments;

        <bullet>  improve regional and local projections of climate 
        change;

        <bullet>  inform policy options;

        <bullet>  inform decisions and management options of others;

        <bullet>  foster climate literacy and workforce development; 
        and

        <bullet>  engage a diversity of users in meaningful ways to 
        ensure their needs are being met.

    An effective response to the societal demands of a changing climate 
is well beyond the scope, authority, or mission of any one federal 
agency. NOAA commissioned an external review of the challenge of 
developing a National Climate Service. This external review recommended 
each federal agency collaboratively define its role and level of 
commitment in a National Climate Service, but made clear that there 
must be a lead federal entity. This view is further endorsed by a 
recent report by the National Research Council,\8\ which stated: 
``Because successful programs have a leader (NRC, 2005),\9\ the 
committee recommends that one agency take the lead in developing the 
climate service, although multiple agencies would have to be involved 
in its design and implementation.'' With respect to implementation, a 
more recent report by the National Research Council\10\ notes ``. . . 
that (the panel) does not recommend centralizing the initiative in a 
single agency,'' reflecting on the importance of integrating research 
and service functions across multiple agencies. NOAA agrees with these 
recommendations and is ready to meet the challenge of helping lead the 
development of a National Climate Service and working with our partners 
in its implementation to provide targeted climate information to the 
public and private sector to inform decision-making.
---------------------------------------------------------------------------
    \8\ National Research Council (2009) Restructuring Federal Climate 
Research to Meet the Challenges of Climate Change.
    \9\ National Research Council (2005) Thinking Strategically.
    \10\ National Research Council, Panel on Strategies and Methods for 
Climate-Related Decision Support, Committee on Human Dimensions of 
Global Change (2009) Informing Decision in a Changing Climate.
---------------------------------------------------------------------------
    An effective National Climate Service will rely upon strong 
partnerships within and among federal agencies, and across levels of 
government, academia and the private sector to provide the Nation with 
the science-based and user-responsive climate services it needs. This 
vision also requires that NOAA integrate its own resources and 
coordinate efforts with its partners to ensure reliable delivery of 
climate services and information.
    As I've stated earlier, no single agency can address the climate 
challenge on its own. NOAA is well positioned to provide leadership for 
a National Climate Service, based on the climate research efforts and 
experience in providing user-centric services of the collective Federal 
Government and nongovernmental partners. NOAA will continue to work 
with our interagency partners and most especially the agencies that 
participate with us as part of the U.S. Climate Change Science Program. 
These agencies will provide much of the data and information that will 
support the delivery of climate services, and include: the Departments 
of Agriculture, Defense, Energy, Health and Human Services, the 
Interior, State, and Transportation; together with the Environmental 
Protection Agency, the National Aeronautics and Space Administration, 
the National Science Foundation, the Agency for International 
Development, and the Smithsonian Institution, and overseen by the 
Office of Science and Technology Policy, the Council on Environmental 
Quality, the National Economic Council and the Office of Management and 
Budget.
    Further design of a National Climate Service must be based on an 
interactive process that engages federal agencies and individuals from 
across the spectrum of climate research, service provision, users, 
partners and stakeholders. This process must be interdisciplinary, 
user-focused, regionally-representative, and include analysis of 
strengths and gaps in capacities. A critical design consideration that 
must be addressed in these processes is the best arrangement for 
federal agencies to work in partnership to maximize delivery of climate 
services to the Nation. As such, it would be appropriate for the White 
House Office of Science and Technology Policy (OSTP) to lead an 
interagency process to analyze capacities and options. This effort 
would complement the broader interagency effort being led by the 
Council on Environmental Quality, OSTP and NOAA to prepare a federal 
adaptation strategy to help the Federal Government, along with State, 
local and private actors, increase their resilience to a changing 
climate.
    The public-private partnership that makes today's National Weather 
Service so successful provides a useful model to emulate. The Federal 
Government would not be able to fully provide critical information to 
the Nation without the private sector. We envision the government will 
develop and maintain an infrastructure of observation and information 
services on which the public (Federal, State, and local governments), 
private, and academic sectors will rely. The private sector will be 
able to use data collected by this infrastructure to create unique 
products and services tailored to the needs of their company or 
clients. We believe this cooperative relationship will lead to an 
extensive and flourishing set of climate services that will be of great 
benefit to the U.S. public and to major sectors of the U.S. economy.
    Finally, addressing the evolving climate challenge will require 
supporting decision-makers not just for a few years, but over many 
decades. The National Climate Service must be highly-responsive to 
changing user needs and able to lead based upon expert evaluation of 
new data and knowledge. The scope and nature of user interactions and 
partnerships required to support this effort will demand an 
extraordinary investment in ensuring continuous feedback and adaptive 
learning among users and providers. Similarly, products and services 
must be able to evolve, and be initiated rapidly, in response to new 
scientific information. These complex characteristics and relationships 
will necessitate ongoing assessments and evaluations of progress, 
plans, user requirements, and outcomes as a core component of an 
adaptively-managed National Climate Service.

FROM NOAA'S CURRENT CLIMATE CAPABILITIES TO A NATIONAL CLIMATE SERVICE

    There is much work to be done to fully realize a National Climate 
Service. The development of a National Climate Service will take 
leadership and sustained efforts across the Federal Government to work 
collaboratively. Through its climate research and science, NOAA is 
currently delivering climate services that generate significant social, 
economic, and environmental benefits for the Nation. These services are 
outlined below, as requested by the Committee in my letter of 
invitation, and represent some of the contributions that NOAA would 
bring to a National Climate Services.

NOAA's current climate and climate-related capabilities and mandates
    NOAA's mission is to understand and predict changes in Earth's 
environment and conserve and manage coastal and marine resources to 
meet our nation's economic, social, and environmental needs. This 
mission already encompasses the delivery of some climate services. As 
the lead federal agency responsible for delivering national weather, 
ocean, fishery, coastal, and environmental data products and services, 
and among the leaders in climate and satellite information, NOAA 
provides some of the many scientific underpinnings required for an 
effective National Climate Service.
    The breadth of NOAA's climate and climate-related capabilities 
includes:

        <bullet>  A long history of building sustained partnerships and 
        interacting with other federal agencies, the private sector, 
        all levels of government (international, national, State, 
        tribal, local), non-governmental organizations, and the public.

        <bullet>  Extensive experience in both weather and climate 
        forecasts and predictions. Weather forecasts, seasonal 
        outlooks, inter-annual to decadal predictions, and climate 
        change projections require observations, models, and scientific 
        understanding of the Earth system. NOAA has established a 
        strong and sustained capability and infrastructure in all of 
        these areas.

        <bullet>  Existing strengths in climate and earth system 
        research and modeling. NOAA maintains a range of capabilities 
        to understand and address key impacts of climate such as 
        coastal hazards, ocean acidification, droughts and floods.

        <bullet>  At an international level, NOAA along with other 
        leading climate research agencies has played a major role in 
        informing policy decisions by contributing to scientific 
        assessments including the World Meteorological Organization/
        United Nations Environment Programme Scientific Assessments of 
        Ozone Depletion and the Intergovernmental Panel on Climate 
        Change assessment reports. NOAA has served as one of the lead 
        agencies of the U.S. Climate Change Science Program (CCSP) and 
        had a primary role in its predecessor, the U.S. Global Change 
        Research Program. NOAA has led several of the CCSP synthesis 
        and assessment products, including the forthcoming report on 
        Global Climate Change Impacts in the United States.

        <bullet>  A unique breadth of mandates and experience in 
        environmental service delivery that provide a strong foundation 
        for a National Climate Service. NOAA's mandated 
        responsibilities include, for example: fisheries, endangered 
        species and marine mammal management, National Marine 
        Sanctuaries, and coastal and estuarine management. With each of 
        these mandates, NOAA managers must account for the effects of 
        climate variability and change on coastal and marine 
        ecosystems, and resources and communities, as well as adapt 
        their management practices accordingly. NOAA and its partners 
        in coastal and marine resource managers are among the vanguard 
        of users of climate information. In addition, the National 
        Weather Service has an established and credible field 
        infrastructure that currently delivers climate products daily 
        at a national, regional, and local level.

        <bullet>  NOAA contributes to sustained climate observing 
        networks comprised of a suite of operational satellites and in 
        situ networks for integrated atmospheric and oceanic 
        observations, including measurements of air and ocean 
        temperatures, greenhouse gases, aerosols, and ozone. NOAA also 
        maintains several of the Nation's permanent archives of 
        weather, climate, and oceanographic data through its data 
        centers. NOAA, along with the other leading climate research 
        agencies, provides analyses of the observed records, including 
        the Nation's climate statistics and reanalysis of observations 
        for initial conditions for climate prediction. With its wealth 
        of observational data, NOAA makes major contributions to the 
        process studies required to attribute the causes of climate 
        change.

Transitioning to a National Climate Service
    Through our existing statutory responsibilities under the National 
Climate Program Act of 1978 (15 U.S.C.  2901-2908), NOAA has a long 
history of producing climate information, delivering products and 
services, and building the capacity of others through established 
networks and partnerships at all levels.
    We expect that development of a National Climate Service will 
stimulate advancements of similar stature as those generated through 
NOAA's integrated weather services. For example, NOAA's `end to end' 
weather services have increased annual average lead times for tornadoes 
from less than four minutes in 1987 to almost 15 minutes today, and 
flash floods from less than 10 minutes in 1987 to better than 50 
minutes today. Such advancements are estimated to have contributed to 
NOAA's weather services preventing over 330 fatalities and 7800 
injuries from tornadoes, and to have resulted in health and welfare 
benefits that we estimate to be of over $3 billion between 1992 and 
2004.
    Development of a National Climate Service can benefit from NOAA's 
existing expertise, infrastructure, and capabilities in climate 
science; its extensive experience in service delivery; its 
relationships with other federal, State, and local partners; and must 
leverage the extensive experience of the other leading climate research 
agencies. NOAA's existing climate products and services include climate 
data services, climate predictions and climate change projections, 
assessments, and decision support information.
    Existing networks include interagency and other partnerships that 
comprise the National Integrated Drought Information System (NIDIS), 
National Weather Service Forecast Offices and River Forecast Centers, 
National Data Centers, Regional Integrated Science and Assessment 
projects at universities, Regional Climate Centers, State 
Climatologists, Sea Grant, the Coastal Services Center, international 
climate research institutes, NOAA Cooperative Institutes, and extension 
agents.
    Two examples illustrate NOAA's experience as a leading source of 
climate information and provide a strong indication of the agency's 
foundation for the development of climate services: (1) NOAA's 
partnership with the National Association of Home Builders and 
Department of Housing and Urban Development, and (2) its leadership of 
NIDIS.
    Partnership with the National Association of Home Builders and the 
Department of Housing and Urban Development (HUD)--NOAA performed a 
decade of research to develop an Air Freezing Index, which has now 
translated into operational use by the construction industry. Home 
builders can now construct a frost protected shallow foundation as a 
practical alternative to deeper, more-costly foundations in cold 
regions with seasonal ground freezing and the potential for frost 
heave. Construction of a frost protected shallow foundation can be 
informed by NOAA's Air Freezing Index, and incorporates strategically 
placed insulation to raise the frost depth around a building. NOAA's 
air freezing research is estimated to provide an annual savings benefit 
to U.S. homeowners of $300 million saved in new construction costs and 
energy savings of 586,000 megawatt-hours.
    National Integrated Drought Information System (NIDIS)--The growing 
impacts of drought on society led to a call by our State governors for 
drought preparedness information. NOAA's implementation of the NIDIS 
Act of 2006 is being achieved through the coordination and 
collaboration of federal, State, tribal, academic, and local 
representatives on issues including water resources, agriculture, 
ecosystem impacts, energy and coastal environments. NIDIS is working to 
provide dynamic and easily accessible drought information for the 
Nation by serving as an integrated knowledge center by identifying, 
collecting, and disseminating existing innovations at the national, 
regional, watershed, State, county, and private sector levels. NIDIS 
provides data to help decision-makers assess the risk of having too 
little water and to prepare for and mitigate the effects of drought 
(such as farmers making decisions about crops, forestry professionals 
planning ahead for the next fire season, and urban water managers 
preparing for high-demand seasons). Still in its initial phases, NIDIS 
is continually developing more robust services and regional decision 
support resources.
    While significant in their own right, these examples are only a 
snapshot of how, through a National Climate Service, NOAA can apply its 
current climate capabilities and mandates, and leverage the expertise 
and strengths of the other leading climate research agencies to address 
the growing demand for climate services. As NOAA works to define its 
role in a National Climate Service, we will continue to develop and 
expand, in partnership with the other leading climate research 
agencies, the products and services to assist a number of key social, 
economic, and environmental climate change decisions, particularly 
those at regional and national levels.
    Examples of emerging issues that a National Climate Service could 
address through collaborative and coordinated effort among federal 
agencies and other partners include:

    Mainstreaming climate change adaptation for critical 
infrastructure--Current infrastructure design criteria and construction 
codes may be inadequate for climate change and exacerbate vulnerability 
to increasing storm intensity and flooding. For example, along the U.S. 
Gulf Coast, from Houston, Texas to Mobile, Alabama, 27 percent of major 
roads, nine percent of rail lines, and 72 percent of ports in the area 
are built on land at or below four feet in elevation; a level within 
range of projections for relative sea-level rise in this region in this 
century. A National Climate Service would provide information that 
would allow the U.S. to relocate and/or secure these installments as 
well as improve planning for future infrastructure investments.
    Delivering regional and decadal climate information--Currently, 
U.S. climate modeling efforts allow us to provide information at 
centennial and continental scales. With funds from the American 
Reinvestment and Recovery Act of 2009, NOAA will be able to continue to 
increase its computing power so that its climate models can provide 
information at the decadal and regional scales, which are most relevant 
to decision-makers. It is important to recognize that the reliability 
of this information depends on more than just greater model resolution. 
Critical research efforts will be required to ensure that all essential 
processes at these new scales are represented in the models in order to 
produce reliable information. This new information coupled with 
advances in tools and expertise led by the other leading climate 
research agencies will open the door to opportunities for a National 
Climate Service to develop and work with its partners to deliver 
authoritative products and services to users at scales previously not 
possible.
    National security--Climate change has the potential to affect 
national security by reducing predictability and stability throughout 
the world, for example, through disruptions resulting from food and 
water shortage. The U.S. will also need to anticipate and plan for 
growing immigration pressures both at home and in other countries. A 
National Climate Service could help to prepare for and adapt to these 
changes by providing the observations and forecasts that can be 
utilized by agencies such as U.S. Agency for International Development 
and the Department of State to develop policies and action to mitigate 
these impacts (e.g., new agricultural practices).
    Underpinning research--Providing reliable climate information at 
the fine spatial scales relevant to human activities requires further 
and rapid progress in scientific understanding and quantitative 
predictions. NOAA, in partnership with other agencies, will enhance 
essential climate research programs to shape and inform our fundamental 
understanding of climate change, its pace, and its consequences. 
Meeting these new challenges and delivering timely, relevant, and the 
best scientifically-informed climate information and services to 
decision-makers will require a coordinated effort that builds upon and 
expands the Nation's observational, research and modeling 
infrastructure.

CONCLUDING REMARKS

    This is a time of rapid change. The pace and nature of changes in 
the Earth's climate reinforce the need for delivering targeted climate 
services at appropriate scales. We will need to draw from the expertise 
of all federal agencies to support the development of science-based and 
user-driven climate services to enable decision-making. Development of 
a National Climate Service will take leadership, sustained efforts, and 
a commitment across the Federal Government to work collaboratively.
    Much work lies ahead of us. NOAA will contribute to this effort by 
building on its existing capabilities, partnerships and networks to 
deliver an evolving suite of climate information and services, in 
collaboration with our partners. We are prepared to provide leadership, 
in partnership with other federal agencies, to the design and 
development of a National Climate Service through an interactive 
dialogue that engages the breadth of climate service interests, 
including service providers, researchers, and users.
    I look forward to working with the Office of Science and Technology 
Policy, other federal agencies, our partners, and this committee to 
further evaluate the merits of this effort.
    Thank you very much for the opportunity to testify today. I look 
forward to answering your questions.

                      Biography for Jane Lubchenco

    Dr. Jane Lubchenco, a marine ecologist and environmental scientist, 
is the ninth Administrator of NOAA. Her scientific expertise includes 
oceans, climate change, and interactions between the environment and 
human well-being. Raised in Denver, she received a B.A. degree in 
biology from Colorado College, a M.S. in zoology from the University of 
Washington and a Ph.D. in ecology from Harvard University. While 
teaching at Harvard (1975-1977) and Oregon State University (1977-
2009), she was actively engaged in discovery, synthesis, communication, 
and application of scientific knowledge.
    Dr. Lubchenco has studied marine ecosystems around the world and 
championed the importance of science and its relevance to policy-making 
and human well-being. A former President of the American Association 
for the Advancement of Science (AAAS), the International Council for 
Science and the Ecological Society of America, she served 10 years on 
the National Science Board (Board of Directors for the National Science 
Foundation). From 1999-2009 she led PISCO, a large four-university, 
interdisciplinary team of scientists investigating the large marine 
ecosystem along the coasts of Washington, Oregon and California. She 
has a special interest in Arctic ecosystems, with recent work in 
Svalbard, Greenland and the Alaskan arctic.
    Dr. Lubchenco has provided scientific input to multiple U.S. 
Administrations and Congress on climate, fisheries, marine ecosystems, 
and bio-diversity. Dr. Lubchenco served on the first National Academy 
of Sciences study on `Policy Implications of Global Warming,' providing 
advice to the George H.W. Bush Administration and Congress. In 1997 she 
briefed President Clinton and Vice President Gore and Members of 
Congress on climate change.
    Her scientific contributions are widely recognized. Eight of her 
publications are ``Science Citation Classics''; she is one of the `most 
highly cited' ecologists in the world. Dr. Lubchenco is an elected 
member of the National Academy of Sciences, the American Academy of 
Arts and Sciences, the American Philosophical Society, and the Royal 
Society. She has received numerous awards including a MacArthur 
(`genius') Fellowship, nine honorary degrees, the 2002 Heinz Award in 
the Environment, the 2005 AAAS Award for Public Understanding of 
Science and Technology and the 2008 Zayed International Prize for the 
Environment.
    Dr. Lubchenco co-founded three organizations that communicate 
scientific knowledge to the public, policy-makers, the media and 
industry: (1) The Leopold Leadership Program (teaches environmental 
scientists to be effective communicators), (2) COMPASS (the 
Communication Partnership for Science and the Sea, communicates marine 
sciences); and (3) Climate Central (a non-advocacy source of 
understandable scientific information about climate science and 
solutions). She co-chaired the Synthesis for Business and Industry of 
the Millennium Ecosystem Assessment, an international scientific 
evaluation of the consequences of environmental changes to human well-
being. She also served on the Pew Oceans Commission and the Joint 
Oceans Commission Initiative and the Aspen Institute Arctic Commission.

                               Discussion

    Chair Baird. Thank you very much, Doctor. I will recognize 
myself for five minutes.

              The Structure of a National Climate Service

    You know, when you talk about the implications of this, Mr. 
Inglis talked about fires. We look in our area, in terms of El 
Nino events, whether they or not will happen has profound 
implications for our agricultural industry, our power supply, a 
host of other, fishing, for example, in the Northwest, as you 
know better than I. So, this is really something we recognize, 
on this committee, the importance of.
    The question, then, is really what are the best ways, how 
do we best go about structuring this? Given that there are 
various aspects, as you mentioned, various aspects of what the 
data can be used for--we will hear from a panel in a minute 
about that--but also, various entities within government that 
also provide some of the pieces.
    What are your thoughts about the best way to put the pieces 
together? Do we have a coordinating body? Do we create a new 
entity? Do we draw upon the various agencies separately, or do 
we integrate them?
    What are your thoughts? And we will hear, there may be 
other thoughts later on here, but what are your ideas about 
this?
    Dr. Lubchenco. Mr. Chairman, I believe that this topic has 
actually been addressed by some of the different studies that 
have looked at this concept of National Climate Service, and 
there are some continuing themes that loop through each of 
those different reports: the need for an integrated national 
effort, number one; an effort that draws on the wealth of 
existing research information, and is tied to the ongoing 
discovery of new information; three, an effort that is 
connected to and cognizant of users' needs; and three, that 
draws--four, that draws on the wealth of experiences that 
currently exist through existing federal agencies, for example, 
within NOAA, the experiences we have had with the National 
Weather Service, but the Regional Climate Centers, the Regional 
Integrated Assessment and Service Organizations that are 
providing a wealth of existing climate services.
    So, I think, to sum that up, there are a lot of existing 
pieces in play. I believe that a single effort is needed to 
look broadly across those capacities and lessons learned, and 
to integrate them at the federal level. I would envision an 
interagency process led by the Office of Science and Technology 
Policy as the appropriate entity to really take stock of, and 
lead that designing effort. We now, I think we have gotten to 
the point where we are in agreement that something is needed, 
something that does not now exist, and the question is how to 
design that.
    Typically, in an interagency process, there is a lead 
federal agency. NOAA is willing to play that lead. We would not 
insist on that. It just seems logical, because of the wealth of 
our capacities, capabilities, and experiences. But I believe 
this really is an interagency process, but one that does not 
ignore the regions and the local experiences and capacities, 
because it really is delivery of services at the local and 
regional level that should be the focus.
    Chair Baird. I share that belief that NOAA is the best 
suited and qualified, and has the longest history of dealing 
with this, so I would certainly support that.

               Applications of a National Climate Service

    Let us talk a little bit about the applications now. How 
would you envision, obviously, for agriculture, this is 
critically important, when you look at, and downstream, for 
those of us who eat the products of agriculture, it is 
important. When we look at predictions of what might happen, 
for example, to the regional ability to grow different crops, 
or needs for irrigation or chemicals, or other factors, how do 
you envision getting the information out effectively to the 
various regions of the country, which will have different 
needs, based on crops and climate in those regions?
    Dr. Lubchenco. Mr. Chairman, our current ability to make 
reasonable forecasts about climate scale information is really 
best at the scale of the entire continent, and best at the 
scale of a century. Neither of those time or space scales is 
what we need. Our modeling capacity is getting better and 
better, and with the recent new supercomputers, we have reason 
to believe we will be able to deliver regional scale 
information, hopefully on the 20, 30, 50 year timeframe.
    So, our capacity to provide the kind of information that 
users are asking for and needing is getting better and better, 
which is why it is so timely to be designing the mechanism for 
sharing that information with users that are asking for it.
    So, relative to what trees to plant, what crops to plant, 
how to think about water management, how to think about fire 
management, how to think about building coastal cities, all of 
those will require information that is at that 20 plus time 
horizon, and more at a regional scale. So, that is where we 
need to be heading.
    Chair Baird. So, we have a combination of a challenge of 
the research necessary to refine that precision of our 
predictions, but also, then, a process of making that, those 
predictions relevant and valuable to the consumers in the 
field.
    Dr. Lubchenco. Yes, Mr. Chairman, although I think it is 
probably more appropriate to be talking about forecasts as 
opposed to predictions. Predictions implies more certainty than 
will probably be appropriate, but forecasts, much like we do 
for the weather forecast, with some uncertainty described, is 
probably what we are looking at.
    Chair Baird. Thank you. I recognize Mr. Inglis for five 
minutes.
    Mr. Inglis. Thank you, Mr. Chairman. Dr. Lubchenco, we very 
much appreciate your work at NOAA.

                     The Size of Federal Government

    And you know, I was interested in your observation that 
NOAA is well positioned to collaborate, and I can definitely 
speak to that, having been with Dr. Baird in Australia, and 
seeing employees of NOAA there. It is very impressive that NOAA 
is that extramural, I think you call it, that we are, I am also 
on Foreign Affairs as well as the Science Committee, and 
realizing the opportunity there to generate and keep, in the 
case of Australia, good will, by having our employees present 
there working on something that is very important to them, the 
Great Barrier Reef, which also is important to us in gathering 
science and information. This really is, it substantiates what 
you were saying about NOAA being well positioned to lead this 
collaboration.
    So, tell me, for folks that are concerned about creating 
new things in the Federal Government, the goal, it seems to me, 
is to create stronger, smarter, simpler, more flexible kinds of 
government agencies. How would this fit with that criteria, or 
would it just be growing larger? The concern that a lot of 
people have is we grow the Federal Government larger.
    Dr. Lubchenco. Thank you for that question. I think that it 
is likely the case that we can make better use of many of our 
current capacities, make them more efficient, make them more 
synergistic, connect, set international, federal, regional, and 
local efforts in a more efficient fashion.
    That said, what will be required, and what is already being 
asked by many users of us, will require significantly greater 
investment than currently now exists, so I think we can do some 
combination of synergies and finding efficiencies, but that 
alone will not be able to deliver the range of products and 
services that we believe would best serve the Nation.
    Mr. Inglis. So, in other words, your hope is, I suppose to 
actually get more bang for the buck, in terms of the 
expenditures, more synergistic effects. Of course, that is what 
we are looking for in the Federal Government, it seems to me, 
as we think about ways to make it stronger, simpler, more 
effective, more efficient.
    And so, I hope that that is what we can achieve here.
    Dr. Lubchenco. Congressman Inglis, could I clarify. I do 
think that that is possible, but I also think that we are 
talking about something new, as well, that there are new, there 
will be new efforts required to, in addition to the synergies 
and the efficiencies, to be delivering the services that we 
think are going to be needed.
    Mr. Inglis. Right, and of course, our challenge, as Members 
of Congress, as we encounter these new challenges, we need to 
go figure out what it is that we have already licked, and get 
rid of some of those things. You know, there are places in the 
Federal Government where agencies keep on going forever, long 
after the problem is licked.
    So, hopefully, we can do that together. We can add to 
capabilities here, but eliminate things elsewhere. Perhaps in 
NOAA, but certainly, across the Federal Government in other 
places.
    So, I have just a brief little time left, but it is a good 
way to ask the question, I suppose, with a time limit. Let us 
say you got on the elevator out here, and somebody told you 
just nonsense, that there are anthropogenic causes of climate 
change. What is your elevator answer? You have got three 
floors, you have 49 seconds to get down to the bottom. What 
would you say? I am just curious.
    Dr. Lubchenco. Regardless of what you think the causes of 
climate change are, I think the evidence is unassailable that 
there is change underway, and most people are experiencing that 
in their daily lives. The temperatures are increasing. We are 
seeing more extreme precipitation events, more floods, more 
droughts. We are seeing, as a consequence, more fires, more 
insect outbreaks. Sea level is rising, and the oceans are 
becoming more acidic, and all of those changes are well 
documented.
    Now, the challenge, relative to the topic of today's 
hearing, is how do we deal with those changes in a way that is 
most useful?
    Mr. Inglis. Great. Thank you. The elevator just got to the 
first floor.
    Chair Baird. Thank you, Mr. Inglis. I recognize Ms. Woolsey 
for five minutes.
    Ms. Woolsey. Thank you very much. Thank you, Doctor, for 
being here. We are so pleased to have a real scientist leading 
your organization, so congratulations.
    Dr. Lubchenco. Thank you, Congresswoman.
    Ms. Woolsey. It gives all of a lot of confidence that----
    Dr. Lubchenco. Thank you.

                      Monitoring Greenhouse Gases

    Ms. Woolsey.--we are going to go in the right direction. In 
your testimony, you talk about global climate change and how a 
National Climate Service can be used in mitigation and 
adaptation, and to the problem that we are creating.
    So, this leads me right up to where do you see, or where do 
you see the role of the National Climate Service in monitoring 
greenhouse gases?
    Dr. Lubchenco. Congresswoman, it really is important that 
as we think about different types of mitigation, and as we work 
toward the best way to reduce greenhouse gas emissions, we will 
need to monitor the types of, or the amounts of greenhouse 
gases that are being emitted, and that are in the atmosphere, 
and we currently do some of that. We need to be doing more of 
that, and we need to have mechanisms to be reporting that on an 
ongoing basis.
    So, I think there is absolutely a need to have that 
capacity, and----
    Ms. Woolsey. So, would that be, when you talk about, 
Congressman Inglis asked about, you know, growing our 
government, that new doesn't mean that we replace existing, so 
would this be some of the new responsibility?
    Dr. Lubchenco. We already do some monitoring of greenhouse 
gas emissions. We need to be doing that on an ongoing basis, 
and probably at greater scale, for verification purposes. So, 
that need will continue and will grow, along with the need to 
provide information that will focus more on the adaptation end 
of the climate challenges.

                         Potential New Programs

    Ms. Woolsey. So, are there any other examples you would 
like to give us of what new programs we will need, while we 
continue with our existing important NOAA programs?
    Dr. Lubchenco. Well, I think some of the other benefits of 
having something like a climate service, would be enabling 
those in the private sector who are thinking about new types of 
renewable energy sources, information that would enable them to 
do a better job of having successful businesses. Say, for 
example, that you are interested in building a wind farm. You 
would like to know not where the winds have been good for the 
last hundred years, but where they are likely to be good for 
the next hundred years, and so, that information would be 
extremely useful to you in helping to design where to place, 
where to site, you know, decide whether this is a good 
investment or not.
    So, there are many kinds of services that a climate, 
National Climate Service could provide that would help with 
creation of new jobs, new industries, and provision of clean 
energy.
    Ms. Woolsey. So, do you see a need for the oceans being 
considered in relationship to climate? Where is that going to 
come into play?
    Dr. Lubchenco. Oceans in coastal areas are being strongly 
affected by the increased greenhouse gases in the atmosphere. 
This committee has been, and the Chairman in particular, have 
been strong champions of focusing on the changing chemistry of 
the oceans. As oceans are absorbing the carbon dioxide, they 
become more acidic, and that, in turn, is affecting our 
ecosystems, especially along the West Coast, but also 
elsewhere.
    In addition to that, ocean ecosystems are responding, as a 
result of changes in temperature, changes in ocean currents, 
changes in coastal winds, and then, of course, sea level rise. 
And all of those consequences of climate change to ocean 
ecosystems are affecting the way people interact with those 
ocean ecosystems, whether they are on the land side or the 
ocean side. And as we deal with this range of changes that is 
underway, information to help guide decisions about growth in 
coastal areas, planning of where to move infrastructure, 
planning of where to move communities, where to build airports, 
where to build wind farms, wave energy facilities, all of those 
will be vastly enhanced by having more, by having information 
that we envision being able to be provided by a National 
Climate Service.
    Ms. Woolsey. Thank you very much, Mr. Chairman.
    Chair Baird. Thank you, Ms. Woolsey. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have no questions, but I did just want to say I am very 
pleased that Dr. Lubchenco has received this appointment, and I 
look forward to a lot of good work happening in NOAA in the 
future. Thank you.
    Dr. Lubchenco. Thank you, Congressman, and thank you for 
all of your efforts over the years as a strong champion of 
science.
    Mr. Ehlers. Thank you.
    Chair Baird. There has been no stronger champion over the 
years than Dr. Ehlers, and you will appreciate his expertise in 
many realms, and Dr. Ehlers, thank you.
    Mr. Rohrabacher.

                        Observing Climate Change

    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
have been a long-time fan of NOAA, and I wish you success, and 
look forward to working with you.
    Chair Baird. Dr. Lubchenco, be advised that Mr. Rohrabacher 
is an avid surfer, and so he brings us the perspective----
    Dr. Lubchenco. Excellent.
    Chair Baird.--of someone who spends a lot of time in the 
water.
    Mr. Rohrabacher. As well as scuba diver, let me note that, 
but not as avid a scuba diver as my Chairman.
    The climate change, you are referring to climate change--
were you, at any point in your career, someone who used the 
words global warming instead of climate change?
    Dr. Lubchenco. Yes, Congressman, I think most of us have 
used both of those terms.
    Mr. Rohrabacher. Why is it that you stopped using the word 
global warming and have now moved to climate change?
    Dr. Lubchenco. The words global warming, to me, imply 
something that is gradual, and something that is only about 
temperature, and the sum total of the changes that are underway 
are much more than gradual and just temperature.
    Mr. Rohrabacher. But the temperature change itself, correct 
me if I am wrong, for the last eight years, there has not been 
higher temperatures. Could that have something to do with your 
change of wording, from global warming to climate change?
    Dr. Lubchenco. No, sir. I don't believe that the change of 
wording, at least in the way that I understand the words, is 
anything other than an honest attempt to communicate better 
with the public about the range of changes that are underway.
    Mr. Rohrabacher. Well, I am sure you are always, I am in no 
way implying you ever were, or people who I disagree with have 
ever been dishonest with the public. Let me just put that on 
the record. People can have honest disagreements, but also, 
people can be wrong, and my suggestion is that there are so 
many people who are using the word global warming, and now, 
don't use it, because it hasn't been getting warmer. I think it 
is, and I am not saying this about you, but for many other 
people, I think it is that they were wrong and refused to admit 
it.
    Let me ask you, so is that correct that there has not been 
warming on the planet, generally, in the last eight years?
    Dr. Lubchenco. Congressman, I think, if, may I use an 
analogy that is on the beach, if you will? If you are standing 
on a shore that you have never been at before, and you are 
trying to decide if the tide is going in or coming out, and you 
watch eight waves come in, you can't tell whether the tide is 
ebbing or flowing. You need to look at it over a longer period 
of time.
    The same is true with climate records. Looking at an eight-
year record is insufficient to tell you if there is any 
meaningful change through time. You need a longer period of 
time to be examining whether there really is a change, whether 
it is going one way or another.
    Mr. Rohrabacher. I was assuming that the Weather Service 
and the scientists that were using the words global warming, 
had actually been studying the trends over long periods of 
time. Tell me, is the climate of this planet, someone who is an 
expert in this area, would you say the climate on the planet 
over the millions of years of our planet's history has been a 
stable climate, or someone that has been volatile?
    Dr. Lubchenco. Over millions of years, the climate has gone 
through many different cycles. We have good evidence, going 
back some 650,000 years, from ice core data, for example, that 
give us better insight into that fairly long period of time.
    And during that interval, we know that what is happening 
now is outside of the normal ranges of the climate cycle.
    Mr. Rohrabacher. But there have been major changes in the 
climate over that time period. About ice cores, does the ice 
core prove, and I have several scientists that we have put in 
the record here, major heads of major university science 
laboratories, et cetera, that have said that the idea that 
CO<INF>2</INF> introduction has caused the climate to change 
was wrong, the wrong analysis ten years ago. And they have 
studied it, and they now believe that it is warming that causes 
the CO<INF>2</INF> to go up, and not the other way around.
    Do you disagree with those scientists?
    Dr. Lubchenco. I disagree with that, and I think there has 
been resolution of that particular issue. I think it is now 
commonly accepted that increases in carbon dioxide are, in 
fact, causing both a general warming trend and increasing 
variability of the climate, and there is good evidence that 
that is happening.
    Mr. Rohrabacher. And has the CO<INF>2</INF> gone up in the 
last eight years, and we have not seen--instead, we have a 
cooling now, yet the CO<INF>2</INF> continues to go up?
    Dr. Lubchenco. Congressman, this is the same phenomenon 
that I was describing earlier. Eight years is not enough to 
detect a trend in a system that has some natural fluctuation, 
and we are seeing over the last century, significant warming 
through that time, and very significant increases in carbon 
dioxide. I think there is considerable unanimity within the 
scientific community on those points.
    Mr. Rohrabacher. I would suggest, and I have already put it 
in the record, many scientists, prominent scientists who don't 
agree with that. And my time is up. Thank you very much, Mr. 
Chairman, and thank you to the witness.

                          Ocean Acidification

    Chair Baird. Thank the Chairman, or Mr. Rohrabacher. I 
don't plan to have a whole second round, but what are we seeing 
in the area of ocean acidification, over the time period? This 
is basic chemistry. Is there anyone who would suggest that more 
CO<INF>2</INF> is in the air is going to lead to less 
acidification of the ocean and less adverse effects? You are an 
expert in that particular area. Could you enlighten us a little 
bit about that?
    Dr. Lubchenco. Mr. Chairman, this is an area where there 
really is no controversy at all. It is very straightforward 
chemistry. As you increase the amount of carbon dioxide in the 
atmosphere, the ocean absorbs it, and that makes ocean water 
more acidic is the very simple, straightforward thing.
    We know that over the last 100 years or so, the amount of 
acidity in the ocean has increased by about 30 percent, and 
that is having a very significant impact on everything from 
coral reefs to the microscopic plants in the ocean, the 
phytoplankton, on anything that has a shell or a skeleton, from 
mussels to clams to sea stars, sea urchins, oysters. And all of 
those changes that are underway are likely to continue for some 
time, because of the carbon dioxide that is in the atmosphere 
now.
    Chair Baird. Even if we were to stop additional 
CO<INF>2</INF>, we would still have continued acidification 
impacts?
    Dr. Lubchenco. We would indeed.
    Chair Baird. Unless any of my colleagues have urgent 
questions, I think we will thank the Director for her service, 
look forward to many future conversations, and working closely 
with you and your agency on developing a National Climate 
Service and legislation to support that.
    And with that, we will take a brief break. Dr. Lubchenco, 
you are excused, and thank you very much for joining us again. 
Hope to see you soon.
    Dr. Lubchenco. Thank you so much.
    Chair Baird. A very brief break, as we seat the next panel, 
and our staff puts the proper nametags in the proper place. 
Thank you again, Dr. Lubchenco, and thank my colleagues.

                                Panel II

    Our panel is now seated. We want to thank the panelists. I 
also acknowledge we have been joined by Eddie Bernice Johnson, 
as well, the gentlelady from Texas, and we will now introduce 
our second panel. I thank you for your patience, gentlemen, and 
thank you for your background and contributions today.
    Dr. Arthur DeGaetano is the Director of the Northeast 
Regional Climate Center. Dr. Eric Barron is the Director of the 
National Center for Atmospheric Research. Dr. Philip Mote is 
the Director of the Oregon Climate Change Research Institute 
and Oregon Climate Services at Oregon State University. And Mr. 
Richard Hirn is the General Counsel and Legislative Director 
for the National Weather Service Employees Organization.
    Thank you all for being here very much. We look forward to 
your comments. As mentioned earlier, each witness will have 
about five minutes to speak, and you will watch the lights, and 
they will turn yellow when you are about one minute, and we try 
to keep it as close as we can to five, and then, we will follow 
with a series of questions by panel.
    And with that, we begin by recognizing Dr. DeGaetano. Thank 
you.

STATEMENT OF DR. ARTHUR DEGAETANO, DIRECTOR, NORTHEAST REGIONAL 
               CLIMATE CENTER, CORNELL UNIVERSITY

    Dr. DeGaetano. Thank you, Chairman Baird.
    I am a professor at Cornell University and Director of the 
Northeast Regional Climate Center. The NRCC is one of six 
Regional Climate Centers that have been supported by Congress 
for nearly two decades. It is administered by NOAA.
    We provide timely, efficient, and reliable climate services 
to a wide variety of sensitive sectors within our regions. I 
hope this experience will serve as a model for climate services 
in the years to come. In the next few minutes, I will elucidate 
several key characteristics of climate services, based on the 
25 year history of the RCC program.
    As I expand on these characteristics, please try to see the 
ties between them, because just like effective climate services 
cannot be done by any one organization, the characteristics of 
climate services in general are also interwoven.
    The first characteristic is partnership and integration. 
Partnerships are critical. The Climate Centers have seen this 
in our interactions with the National Climatic Data Center, and 
with partners represented by many of my fellow witnesses. Web-
based tools developed by the RCCs facilitate climate services 
by local National Weather Service offices, State 
climatologists, and Natural Resource Conservation Service 
offices in every U.S. county. They integrate data from across 
the State, local, and other federal networks that are used by 
these partners, another key area of integration.
    Partnerships should also extend to our stakeholders. Trust-
based, active, two way dialogs between climate scientists and 
users of climate information is critical for effective climate 
services. Examples based on these feature can be relatively 
simple, but solve a substantial problem for the user. Like the 
investment banking industry's need for degree days to be 
tabulated from Friday to Thursday to match industry practices. 
Or more complex, such as ongoing applied research to develop 
climate-dependent tools for monitoring and controlling the 
spread of vectors of West Nile virus.
    Such data-driven climate decision models will become more 
and more entrenched in climate services in the coming years. It 
is not enough to just provide climate data. Users require 
climate products, and these analyses must be capable of 
interacting with other models. A robust computer 
infrastructure, that operationalizes research results and 
dynamically links data to decision tools, is a third climate 
service component. We have seen this in our interactions with 
the RISAs. The RCC computer infrastructure interfaces with 
hydrological models developed by the Climate Impact Groups at 
the University of Washington, in Chairman Baird's home state, 
providing real-time data for water management decisions.
    Responsiveness to local and regional issues is a fourth 
component. Responsiveness not only includes being there day in 
and day out to provide the types of operational products 
described previously, but it also includes the ability to react 
when unanticipated climate anomalies develop, be they 
hurricanes, droughts, or other crises indirectly related to 
climate. Just the other day, my Center provided data to help 
track the spread of the hemlock woolly adelgid, an invasive 
pest.
    Responsiveness also includes being in tune with important 
political, social, and environmental considerations within a 
region. A Climate Center example from the Northeast involves 
the influence of climate on nitrogen runoff into the upper 
Susquehanna and Chesapeake Bay. The above example also 
highlights interdisciplinarity. Having climate service partners 
affiliated with universities offers ties to disciplines outside 
the atmospheric sciences, provides a link between basic and 
applied research, and capitalizes on established affiliations 
with cooperative extension, the Land Grant college system and 
NOAA Sea grant.
    I once heard a farmer say that he deals with change every 
day, changes in technology, changes in economics, changes in 
environmental regulations. Climate is only one of the many 
changes facing agriculture and other industries. This 
highlights the final element of a National Climate Service, 
that if you are prepared to deal with adaptation to climate 
change.
    I leave this critical component for last, to make the point 
that traditional approaches to solve past climate problems, 
like I have discussed, trust-based relationships with 
stakeholders, partnership, interactive decision tools, modeled 
link with data, collaborations between climate service 
providers and researchers from other disciplines, provide the 
foundation for responding to concerns about future climate 
variations and change.
    Let me conclude by saying that the United States needs a 
comprehensive National Climate Service that has the ability to 
address the broad spectrum of climate needs facing the Nation. 
The existing core set of organizations and capabilities 
provides a useful and functional framework. To meet newer 
challenges, this incomplete infrastructure requires consistent 
and reliable support, augmentation of capabilities, and much 
better integration across a wide variety of boundaries.
    NOAA capabilities and affiliated programs, such as the 
Regional Climate Centers, will be integral and necessary 
components, but alone are not sufficient.
    Thank you for your attention.
    [The prepared statement of Dr. DeGaetano follows:]

                 Prepared Statement of Arthur DeGaetano

    Mr. Chairman and distinguished Members: Thank you for inviting me 
to testify before this subcommittee, to address the expansion of 
climate services within the National Oceanic and Atmospheric 
Administration (NOAA). I am a Professor in the Department of Earth and 
Atmospheric Sciences at Cornell University and Director of the 
Northeast Regional Climate Center (NRCC). The NRCC is one of six 
Regional Climate Centers (RCCs) that have been supported by Congress 
for nearly 25 years. Over this time the RCC Program, administered by 
NOAA, has provided basic climate services in a timely, efficient and 
reliable manner to a variety of climate sensitive sectors within their 
regions. I hope this experience will serve as a model for expanded 
climate services in the years to come, particularly with regard to the 
vital requirement that climate services be regional in nature and 
responsive to stakeholder needs, and transition to a comprehensive 
Service that can meet sector needs to respond to future uncertainty in 
a changing climate.
    The six RCCs serve all fifty states in the Nation. Through its 
history, the RCC Program has coordinated with partners in the NOAA 
National Climatic Data Center (NCDC), the NOAA National Weather Service 
(NWS), the American Association of State Climatologists (AASC), NOAA 
Cooperative Institutes and research programs, numerous State and 
federal agencies, private industries, and individual citizens to 
deliver a comprehensive suite of climate services at national, 
regional, State and local levels. This successful effort provides 
jointly developed products, services, and capabilities that enhance the 
delivery and usefulness of climate information to the American public. 
As NOAA and Congress work to help society adapt to climate change and 
variability, these collaborative efforts form a framework for data 
stewardship, climate services, climate assessment, and applied research 
geared toward helping individuals, communities, government agencies, 
and industries make informed decisions using climate information.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Strong Congressional support for the RCC program over the last two 
decades has allowed for development of trust-based relationships 
between the Centers and decision-makers from various economic sectors. 
These relationships have been fruitful for both the users as well as 
the RCCs. Decision-makers receive the data and information they need in 
a format, time-frame, and manner that is most useful for their 
application, while the RCCs capitalize on the feedback received from 
users of climate information to develop robust and efficient data 
delivery systems, drive applied research projects, and synthesize the 
climate-related applications that impact social and economic sectors 
within their regions.
    Dependable relationships with credible partners, accumulated 
climate knowledge and a robust computing infrastructure are critical 
components for effective climate services at local to national scales. 
Attempting to recreate this efficient, established, proven, and 
reliable system, would be wasteful in terms of resources and disruptive 
to a large user base that relies upon operational RCC data products 24 
hours a day. Through this testimony, I hope to elucidate several key 
characteristics of climate services based on the accumulated experience 
of the RCC program. Examples are used to illustrate existing features 
that could be incorporated into an expanded National Climate Service. 
Drawing upon their history and familiarity with user communities, the 
RCC's vision for a National Climate Service includes:

        <bullet>  Providing services based on direct interaction with 
        climate stakeholders

        <bullet>  Enhancing established climate service partnerships

        <bullet>  Distributing accurate and unbiased climate data, 
        data-products, and summary information in response to changing 
        user needs

        <bullet>  Developing decision support tools through 
        interdisciplinary applied research

        <bullet>  Educating stakeholders on emerging regional climate 
        issues

        <bullet>  Developing adaptation strategies for changing 
        environmental, technological and societal conditions

Key Components of a National Climate Service

Integration--Local to National
    In partnership with NOAA and the American Association of State 
Climatologists (AASC), the RCCs envision an integrated climate service 
structure that supports improved decisions to enhance industries, 
protect the environment, and promote public safety at State, regional 
and national levels. Through integration, national climate services 
will benefit from

        <bullet>  Access to local data sources from regional, State, 
        local and private networks

        <bullet>  Dynamic products that span time scales from 
        historical to real-time to near-term forecast to longer range 
        climate projection

        <bullet>  Local knowledge of climate impacts, climate extremes 
        and emerging issues

        <bullet>  Synchronized data values and consistent analyses

    Such a structure is already in place within the RCC regions.

        <bullet>  The Western RCC (WRCC) has teamed with the State of 
        California to integrate NOAA data with observations from a 
        variety of State, local and other federal networks. This 
        expanded data network, when linked to WRCC analysis software 
        and interpretive human expertise, informs decisions related to 
        water resources, fire risk and air quality.

        <bullet>  At all RCCs, a distributed climate data access system 
        (ACIS) enables State climate offices to respond to requests for 
        climate information from engineers, insurance companies, 
        banking institutions and energy firms using the most up-to-date 
        NOAA data and standardized processing routines.

        <bullet>  Crop disease risk models developed by the Northeast 
        RCC merge hourly NOAA data, observations from privately 
        operated weather stations and NWS gridded forecasts. NRCC data 
        systems provide a mechanism for NWS access to the private 
        climate observations.

Active Local Stakeholder Engagement
    Through decades of experience, the RCCs have learned that effective 
and meaningful climate services must be defined broadly to satisfy 
stakeholder needs. Climate services should satisfy the domain-specific 
needs of stakeholders in ways that can be directly assimilated into 
their business practices and decision strategies. Effective climate 
services should include:

        <bullet>  Two-way dialogues between climate scientists and 
        users of climate information

        <bullet>  Timely access to quality climate data, products, and 
        analyses from integrated data sources that incorporate State, 
        regional, and national data networks

        <bullet>  General and specific assessments of climate 
        conditions at pertinent spatial and temporal scales

        <bullet>  Responsiveness to new climate issues as they arise, 
        such as adaptation to climate change and variability

        <bullet>  Access to research results pertaining to basic and 
        applied climate issues

        <bullet>  Decision support tools developed for domain-specific 
        applications

    An example from the Northeastern United States epitomizes this 
strategy. Heating degree days have been used as a common measure of 
heating demand, and hence fuel usage, for decades. These data, 
available from NOAA and a variety of other sources, have typically been 
tabulated on a weekly basis from Sunday through Saturday. Through 
discussions with UBS, a nationwide investment firm, the NRCC learned 
that this definition of a week did not coincide with energy trading 
practices which operated on a Friday-Thursday time interval. The 
mismatch in summary period affected the accuracy of the forecast models 
used by the industry. By working with these companies and the NOAA 
Climate Prediction Center, the NRCC now provides these data to USB and 
other investment firms in a format that addresses their needs.

Adaptation Strategies for Climate and Environmental Change
    A core component of a National Climate Service should include the 
capacity and ability to provide data and insight on climate change 
adaptation strategies. The RCCs have been increasingly called upon for 
information related to future climate conditions. Users are more aware 
of variations in climate conditions and require information to assist 
them in managing year-to-year climate variations and adapting to 
changing climate conditions. As with traditional approaches to solve 
past problems, those that focus on climate change adaptation require 
extensive stakeholder dialogue. Furthermore, the inherent uncertainly 
of longer-term climate projections makes established trust between 
climate service providers and decision-makers an even more important 
component of climate adaptation research, outreach and service. Again 
from past experience, it is evident that these types of relationships 
can best be established at local, State and regional levels. To address 
climate change adaptation a national climate service should:

        <bullet>  Assess vulnerability to climate change impacts and 
        research appropriate strategies and plans to reduce such 
        vulnerability at local, State, regional, and national levels

        <bullet>  Develop dynamic climate information products, 
        databases, decision tools, and services for decision-makers and 
        policy-makers at multiple temporal and spatial scales

        <bullet>  Educate stakeholders about the potential 
        uncertainties in climate projections and work with decision-
        makers to determine how best to apply these projections in 
        light of uncertainty

    Users are more comfortable when tools for climate adaptation are 
derived from existing climate products and decision support systems 
available through established relationships. Most of the data, tools 
and products currently provided by the RCCs can be used or modified to 
support climate change adaptation. The climate services partners such 
as the RCCs and AASC have the expertise to help local sectors identify 
vulnerabilities in relation to climate. The key to using these tools 
effectively will be to understand how climate is changing--what might 
change, what will be the magnitude, and over what time periods. For 
example, a crop yield model used currently to project seasonal yields 
can be used to plan for adaptation to climate change by providing 
outcomes for different scenarios of temperature, precipitation, and 
other climate-related inputs in the model. New risk-management tools 
can be developed to help utilize these results for making decisions 
about adaptation. Because of the RCC understanding of many stakeholder 
needs, the RCCs help agencies determine critical climate thresholds 
that will impact a particular sector.

Innovative Environmental Data Management
    The RCCs have been in the forefront of developing operational 
climate data support systems. The Applied Climate Information System 
(ACIS) is the foundation for RCC data management and electronic 
information delivery. ACIS was developed to provide operational 
efficiency, redundant reliability, and flexibility to accommodate 
evolving information system configurations and needs. ACIS is becoming 
an effective operational component of international GEOSS activities 
through a partnership with the Northrop Grumman Corporation. The 
flexible design of ACIS provides data to web servers and services, 
automated data delivery systems, and on-demand data polling from remote 
users and user applications. The RCCs envision such a system as a key 
component of a National Climate Service. It already provides 
operational support to federal climate service providers and the 
general public through:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <bullet>  xmACIS
           An interface for NOAA partners to access RCC data products 
        and data holdings that alleviates the need to maintain and 
        update separate databases at individual local NWS offices.

        <bullet>  NOWData
           An abbreviated version of xmACIS designed for use by the 
        general public and available on each local NWS office website.

        <bullet>  ThreadEx
           A product developed in collaboration with the RCCs, NWS, 
        NCDC, and The WeatherChannel to standardize the reporting of 
        weather extremes.

        <bullet>  AgACIS
           Specially designed climate data products for use by Natural 
        Resource Conservation Service field offices in each of the 3140 
        U.S. counties.

        <bullet>  WxCoder III
           A web-based interface that allows NOAA Cooperative weather 
        observations to be entered electronically, providing timely 
        access and eliminating the need to digitize handwritten 
        observations.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    These systems deliver tens of thousands of products every month and 
provide a cost-effective method to deliver NOAA and non-NOAA climate 
data and products to the public.
    Information systems such as ACIS also provide a means for linking 
decision support tools developed through NOAA research programs such as 
the Regional Integrated Sciences and Assessments (RISA), Sector 
Applications Research Program (SARP) and Transition of Research 
Applications to Climate Services (TRACS) program to real-time 
operational climate databases. The RCCs expect that ACIS will be 
required to transition these research results into operational 
products. Such data systems will also be advantageous, as they have the 
ability to seamlessly incorporate data from disparate networks, remote-
sensing platforms and meteorological and climatological models into 
existing decision tools.

Responsiveness to Local and Regional Issues
    A national climate service must be closely attuned to regional 
issues and ready to provide nimble and appropriate responses as 
anomalous climate conditions develop or unanticipated situations arise. 
Under such circumstances, the value of a National Climate Service is 
more clearly apparent. Effectively addressing these issues requires:

        <bullet>  Local knowledge of important political, environmental 
        and social considerations

        <bullet>  Established trust-based stakeholder relationships

        <bullet>  Pre-existing tools, data and information ready for 
        rapid application

        <bullet>  A network to engage stakeholders at State and local 
        levels, such as the one that exists through the 50 State 
        climatologists, the USDA Cooperative Extension Service and NOAA 
        Sea Grant

    The regional diversity of local climate issues that need to be 
addressed by a National Climate Service is best illustrated by examples 
from each of the RCCs.

            The Midwestern RCC
    The Midwestern Regional Climate Center (MRCC) monitors the climate 
in the Nation's major corn and soybean growing region and provides 
tools for producer and agribusiness decisions. A method to produce 
county-level soil moisture measurements based on radar and 
precipitation measurements is used to produce up-to-date maps of soil 
moisture estimates in the Midwest. During the growing season, crop 
yield models provide yield estimates of corn and soybeans. Numerous 
agribusinesses, ranging from large international conglomerates such as 
Cargill, Inc. to seed companies and local producers, rely on RCC data 
and products to assess current conditions and provide guidance for 
operational decisions.

            The Southeast RCC
    The Southeast Regional Climate Center (SERCC) is taking the lead in 
exploring links between climate and health, largely because of the 
existing expertise of Center staff, the location of a major School of 
Public Health on the same campus, and the presence of the Centers for 
Disease Prevention and Control in the southeast region. At the federal 
level, RCC staff participates in an interagency working group assessing 
likely responses to public health threats posed by climate change. 
Major emerging roles for the Center are provision of information about 
climate variability and change at the local level in a form 
understandable to and usable by local, State and federal public health 
organizations, and assistance in translating the information into an 
assessment of potential health impacts.
    The SERCC is also linking the health-related work with the 
disaster-related concerns of the Department of Homeland Security. 
SERCC, along with the Southern Regional Climate Center, is involved 
with assessing the direct physical threats posed by hurricanes to the 
Atlantic and Gulf coastlands. In addition, SERCC is in a position to 
assist in the development of strategies to deal with the health 
aftermaths of a hurricane strike.

            The Southern RCC
    Since 1992, the SRCC has provided decision support to the Louisiana 
Governor's Office of Homeland Security and Emergency Preparedness 
during tropical storm and hurricane events affecting Louisiana coastal 
communities. SRCC personnel provide observational data and 
interpretation of official NOAA forecasts and warnings that help 
emergency managers make informed decisions on evacuations, emergency 
sheltering, resource staging, rescue missions, and other critical 
decisions that depend on continually changing assessments of risk. In 
the past few years, LSU has increased its support of these activities 
providing additional services that include damage and mortality 
modeling, storm surge modeling, and post-storm recovery support in 
which the SRCC plays a major role.

            The Northeast RCC
    The NRCC frequently deals with urban issues related to water 
resources and temperature extremes. It has ties to corporations ranging 
from energy providers to investment banking firms. In addition, 
agriculture is an important industry in the region. Climate related 
decisions in this sector have both economic and environmental 
implications. Coastal issues are also within the realm of the center, 
given it is bordered by both the Atlantic Ocean and Great Lakes. A 
project that syntheses these interrelated issues deals with the 
management of agricultural nitrogen. Across department collaborations 
at Cornell have resulted in the creation of Adapt-N, a web-based tool 
that links high resolution climate data derived from Cooperative 
Network observations, radar estimates and meteorological model 
initialization fields with soil nitrogen and crop yield models. Adapt-N 
provides recommendations for nitrogen application rates in maize that 
incorporate ambient weather conditions. These recommendations optimize 
corn yield, while minimizing nitrogen losses. Nitrogen runoff within 
the Upper Susquehanna River Basin and ultimately Chesapeake Bay is a 
primary concern of the NY Department of Environmental Conservation and 
the Susquehanna River Basin Commission. Farmers using the tool also 
derive an economic benefit via more efficient nitrogen use.

The Western RCC
    The WRCC addresses a broad spectrum of climate issues and user 
needs. For example, federal and State land management agencies rely on 
WRCC for data products supporting wildland fire decision-making, 
including data management of the 2,400 sites of the national Remote 
Automated Weather Station (RAWS) network, and archival of National 
Lightning Detection Network data for fire management use. WRCC has 
worked closely with the National Park Service nationwide on needs for 
and provision of weather and climate data and information for 
operations, research, and public interpretation of climate.
    Drought has been present in the West every year since 1995 as a 
serious and persistent problem. WRCC has played an influential role in 
the development and implementation of the National Integrated Drought 
Information System and its western activities. The West has warmed much 
more than the rest of the U.S. over the past 35 years; this has 
significant implications for future water supplies, most of which rely 
on snowpack. Adaptation to climate variability and change are becoming 
a major WRCC theme. This Center specializes in mountain environments, 
the source of water, timber, recreation, minerals, renewable energy, 
and tourism, all greatly affected by climate. The region is over 50 
percent public land, and WRCC interacts with numerous federal, 
regional, tribal, State and county resource management agencies to 
monitor, understand, and provide sustainable utilization of these 
shared resources. Ecosystem services and environmental health are now 
seen as vital to the western economy, and are strongly tied to climate. 
WRCC provides front-line information delivery capability for NOAA, and 
in turn knowledgeably informs and participates in development of 
improved information capabilities tailored to the unique needs of this 
diverse region.

            The High Plains RCC
    The High Plains Aquifer (Ogallala) is one of the world's largest 
aquifers. About 27 percent of the Nation's irrigated land overlies this 
aquifer and about 30 percent of the U.S. ground water used for 
irrigation comes from the High Plains Aquifer. Clients using the HPRCC 
irrigation tools can select the nearest weather stations, the crop that 
will be addressed, its maturity level, emergence date, and enter local 
precipitation from the field of interest, if available. The output 
provides an estimate of how much additional water the soil can hold and 
a projection of soil water relative to crop water stress level. The 
goal is to keep the water in the soil well above the stress level and 
to leave enough room in the soil for any rainfall anticipated from the 
forecast. Informed scheduling of irrigations reduces the number of 
irrigations and thus conserves water, reduces energy used for pumping, 
minimizes run-off, and maintains potential yields (even in semi-arid 
climates).
    The HPRCC is also engaged in climate variability and climate change 
analyses to build tools for current clients to provide assessments on 
possible climate change impacts on the Plains: future frost-free 
seasons, heat during the growing season, impacts on water use/yield and 
shifting of crop production zones.

Interdisciplinary Collaborations
    Climate is just one of many issues that decision-makers must 
consider. Thus effective climate services must have the ability to 
synthesize non-climatic influences and data sources. Interactions 
between climatic and non-climatic factors are often non-linear, 
particularly in situations where the climate and associated factors are 
changing. Economists, social scientists, communication specialists, 
innovative instruction experts, agronomists and entomologists represent 
interdisciplinary collaborations that the RCCs have fostered to address 
climate related problems. Scientists from these and other diverse 
fields are critical components of national climate services. An 
efficient means of integrating scientists is through the inclusion of 
research universities as partners in a National Climate Service. A 
National Climate Service-university relationship also benefits climate 
services in general by:

        <bullet>  Leveraging resources for research funds from federal, 
        State, and private sponsors

        <bullet>  Fostering unique interdisciplinary collaborations

        <bullet>  Providing substantial cost sharing support

        <bullet>  Establishing links to Cooperative Extension and Sea 
        Grant

    The RCCs, AASC and RISAs currently provide ties to major U.S. 
universities. Each year the RCC base funding is leveraged considerably 
through external grants and contracts. The RCC directors are on faculty 
at major research universities and they maintain active research 
programs that further the goals of national climate services in data 
quality, novel data products and climate related decision-modeling.

Concluding Remarks

    The United States needs a comprehensive National Climate Service 
that has the ability to address the broad spectrum of climate needs 
facing the Nation. These needs are spread across a wide diversity of 
disciplines and economic sectors that touch nearly every aspect of 
society. The existing core set of organizations and capabilities 
provides a useful and functional initial framework. To meet newer 
challenges, this patchy and incomplete infrastructure requires 
consistent and reliable support, augmentation of capabilities, and much 
better integration across a wide variety of boundaries. NOAA capacities 
and programs such as those we have outlined will be integral and 
necessary components but, alone are not sufficient. Climate is so 
pervasive an issue that the success of a National Climate Service, on 
the scale and broad scope that we need, can only derive from a sense of 
shared ownership of the Service among its widely scattered 
participants: federal, regional, State and local agencies and 
organizations inside and outside government. It is my opinion that this 
nation has the talent, the attitude, the motivation, and the resources 
to provide global leadership in this crucial endeavor.
    In closing, I thank the Committee for inviting me to testify today.

                     Biography for Arthur DeGaetano

    Art DeGaetano is Professor in the Department of Earth and 
Atmospheric Sciences at Cornell. He is also the Director of the 
Northeast Regional Climate Center (NRCC) and Associate Chairman of 
Earth and Atmospheric (EAS). The NRCC's mission is to enhance the use 
and dissemination of climate information to a wide variety of sectors 
in the Northeastern United States in partnership with NOAA's National 
Climatic Data Center. Art serves as an associate editor for the 
American Meteorological Society Journal of Applied Meteorology and 
Climatology. Art has been at Cornell since 1991 serving as the Center's 
Research Climatologist until 2001. Prior to his arrival at Cornell Art 
was an Assistant Professor with the Meteorology Department at the South 
Dakota School of Mines and Technology in Rapid City. He received an 
interdisciplinary Ph.D. focusing on Climatology and Horticulture from 
Rutgers University in 1989.

    Chair Baird. Thank you. Dr. Barron.

STATEMENT OF DR. ERIC J. BARRON, DIRECTOR, NATIONAL CENTER FOR 
  ATMOSPHERIC RESEARCH; CHAIR, CLIMATE SERVICES COORDINATING 
 COMMITTEE, CLIMATE WORKING GROUP, NOAA SCIENCE ADVISORY BOARD

    Dr. Barron. Chairman Baird, Ranking Member Inglis, and 
Members of the Subcommittee, thank you for inviting me to 
testify on the important topic of creating a National Climate 
Service. My name is Eric Barron, and I am the Director of the 
National Center for Atmospheric Research.
    The climate debate has changed dramatically over the last 
decade. We now know that we are going to be forced to make a 
number of decisions that are climate-related, and some mix of 
adaptation and mitigation is going to be inevitable.
    Unfortunately, our nation is not ready for those decisions. 
It lacks the capability to provide a diverse range of climate 
information that could benefit society. The simple fact of the 
matter is there is no single source of authoritative, credible, 
and useful information that will allow society to span the 
connections between climate and human health, water, energy, 
changes in severe weather, agriculture, and environmental 
stewardship.
    It is interesting, every time I talk to a natural resource 
manager, I discover that many of them just don't know where to 
go to get the information that they need, and many of them are 
particularly concerned that they need information that is 
authoritative, the very best information available, if they are 
going to make decisions that can withstand the tests of our 
society or even of litigation within our society.
    You know, consider the fact that we have dozens of climate 
models out there. Should a manager from Washington State or 
from South Carolina, California, Texas, or New York turn around 
and just pick whichever climate model they might want to use 
for a particular problem? Or would we rather have a single 
source, where you can go see the full range of predictions, and 
see with those full range of predictions, the information about 
uncertainties and their ranges, and other expert opinion?
    In other cases, we know that if we can put users, 
information, and new research together, we can actually solve 
problems. We can tailor the information to the needs of a user, 
to remarkable benefit.
    Recently, I chaired the Climate Services Coordinating 
Committee, a body within the Climate Working Group of NOAA's 
Science Advisory Board. The Committee prepared a report that 
was entitled ``Options for Developing a National Climate 
Service.'' I would like to bring the conclusions of this report 
to your attention.
    First, NOAA must play a key role in any climate service. 
This agency already contains many of the fundamental components 
of a climate service, and it has a considerable history of 
providing authoritative services to the Nation. However, in the 
panel's opinion, weather and climate within NOAA have to be 
better integrated, and research operations and users have to be 
better joined if their role is to be successful.
    Second, in addition to NOAA, there are several federal 
agencies that are positioned to contribute expertise, 
information, and resources to support a National Climate 
Service. Each federal agency needs to define collaboratively 
its role and its level of commitment to this Service, and it 
can't be optional. It needs to be persistent and consistent.
    Third, to make this work, the overall authority and 
guidance must be at the highest possible level within the 
federal system, preferably within the White House. There are 
simply too many pieces out there in too many federal agencies 
to have this work well without clear and potent leadership.
    Fourth, a National Climate Service requires a defined, 
independent budget that is large enough to influence the 
direction of the Climate Service, and ensure that we achieve 
its mission. Some of our most successful regional climate 
services are chronically underfunded, and not all parts of this 
Nation are even represented. The Service needs a budget that is 
appropriate to match societal need.
    Fifth, the Service needs to be able to connect with and 
actively engage a broad range of users. We need a nimble and 
flexible structure that empowers users, that can put industry 
at the table, that can promote interaction between users and 
the research community. Frankly, this is something that the 
Federal Government doesn't do well. Our view is that we need a 
separate consortium or nonprofit that is directly funded 
through a lead agency, and is designed specifically to promote 
this interface. We need an entity that has a single focus, no 
competing agenda, in order to connect credible climate 
information to those who need it, whether it is a city, a 
state, a climate services corporation, or a research manager.
    I believe that a National Climate Service that is 
structured well and implemented effectively will dramatically 
increase our ability to respond to these challenges. The 
potential to serve our nation, I think, is enormous if we do 
this well.
    Thank you for this opportunity, and I would be pleased to 
answer any questions when the time comes.
    [The prepared statement of Dr. Barron follows:]

                  Prepared Statement of Eric J. Barron

    Chairman Baird, Ranking Member Inglis, and Members of the 
Subcommittee: Thank you for inviting me to testify on the importance of 
creating a National Climate Service. My name is Eric Barron, and I am 
the Director of the National Center for Atmospheric Research, a 
federally-funded institute based in Boulder, Colorado, that supports 
and conducts research and scientific inquiry into our atmosphere and 
its interactions with the Sun, the oceans, the biosphere, and society. 
In all these areas, our scientists are looking closely at the role that 
humankind plays in creating climate change, increasing our ability to 
predict future changes, and assessing the impact that climate change is 
having, in turn, on us.
    I am also Chairman of the Climate Services Coordinating Committee, 
a body within the Climate Working Group of NOAA's Science Advisory 
Board which formed last year to examine options for developing a 
National Climate Service. The Committee recently prepared a report 
titled Options for Developing a National Climate Service, which I would 
like to bring to your attention as a key document and resource on this 
topic. This report is intended to provide Members of this committee, 
other Members of Congress, and the new Administration, with a solid 
foundation on which to make well-reasoned choices on the development of 
a National Climate Service. At the core of the Report, we identify four 
options for developing a National Climate Service, weigh the pros and 
cons of each option, and list key recommendations for design and 
implementation.
    I recommend that you review and take into consideration the 
findings and recommendations of Options for Developing a National 
Climate Service. It reflects the coordinated efforts, over the course 
of more than a year, of an authoritative group of climatologists, 
climate policy experts, federal policy-makers, potential users of a 
National Climate Service, and other key stakeholders. It is 
representative of a broad spectrum of interests from a range of sectors 
and backgrounds, all of which have a stake and should be taken into 
account in the integrated design of a National Climate Service.
    The outcome of our Committee's efforts--distilled in the form of 
our report--offers an informed and well-considered analysis of how to 
best approach the design and implementation of a National Climate 
Service. I hope that, as you formulate policy ideas, and especially if 
you begin to draft an authorization bill for the National Climate 
Service, you will make ample use of our report, take advantage of our 
hard work, and use the members of the Coordinating Committee as 
resources.
    Today, climate services--provided by a number federal agencies, 
universities, non-profits, and private sector firms nationally--provide 
decision-makers with information about long-term trends in the weather 
and other Earth systems. While such climate services met some of user 
demand in the past, demand for climate information and the range of 
information that is needed are rapidly growing as decision-makers are 
increasingly concerned about the consequences of global warming: How 
should my community prepare? How can my community minimize losses? How 
can we maximize gain? Planners, commissioners, policy-makers, and other 
decision-makers want to know detailed and specific information about 
how climate change will affect their state, region, community, 
industry, or utility. They need a dependable and accurate source of 
information to which to turn. They need a level of engagement with 
experts that enables them to make informed decisions. They need a 
research community that recognizes and responds to their problems. The 
lives and the well-being of their clients and constituents are at 
stake, as are economic vitality of their communities and other 
priorities like environmental stewardship and sustainability.
    The patchwork of climate services that currently exists does not 
have the capacity to meet growing needs and demands. Rather, climate 
services are disparate and disconnected by type and region, lacking 
central coordination, focus, and direction. They generally do not 
obtain data, predictions, and syntheses across a broad span of sectors 
and regions, nor do they have the resources to tackle the advanced 
computer climate modeling that is required to produce high-resolution, 
down-scale climate predictions. Currently, there is no single source of 
authoritative, credible and useful information that will allow society 
to span such important topics as the physical aspects of sea level 
rise, temperature and precipitation, the resource implications of 
failed crops, anticipating adverse human health outcomes, robust water 
supply, managing changes in ecosystems, or the social implications of 
migrations and resource competitions. In short, current climate 
services as they are presently constituted are not suited to new 
challenges or the rapidly growing demand for climate information.
    As we face the certainty of a warming planet over the next 100 
years--``unequivocal'' in the words of the U.N. Intergovernmental Panel 
on Climate Change--a National Climate Service would dramatically 
increase our ability to respond, and it's necessary to unify, 
strengthen, and optimize our nation's existing climate services. The 
purpose of the National Climate Service would be to provide the best 
possible information to the public to assist in understanding, 
anticipating, and responding to climate, climate change, and climate 
variability, and their impacts and implications. Centralized within the 
Federal Government, integrated across region and type of services, and 
supported with sufficient resources and leadership, a National Climate 
Service would be unique in its capacity to produce and deliver 
authoritative, timely, and useful information on climate change. It 
would enable decision-makers to manage climate-related risks and 
opportunities, along with other local, State, regional, tribal, 
national, and global impacts.
    A National Climate Service should:

        1)  promote active interaction among users, researchers, and 
        information providers;

        2)  be user-centric, ensuring that scientifically-based 
        information is accessible and commensurate with users' needs 
        and limitations; and

        3)  provide usable information and enable the development of 
        decision support tools through a sustained network of 
        observations, modeling, research activities, and user outreach 
        and assistance.

    Critical to the survival and success of a new National Climate 
Service are the functions of design, leadership, and funding. These are 
addressed in the key recommendations laid out in Options for Developing 
a National Climate Service, the following five of which are critical to 
implement:

Recommendation #1. Internally Reorganize at NOAA. Given NOAA's mission 
and operational capabilities, it is an agency that should play a key 
role in the establishment and implementation of a National Climate 
Service. NOAA already contains many of the fundamental components of a 
climate service and they have considerable history in providing 
services to the Nation. However, as it is currently organized, NOAA is 
not well-suited to the development of a unified climate service 
function. An internal reorganization of NOAA that allows greater 
connectivity between weather and climate functions, and between 
research, operations, and users, is a necessary step for success.

Recommendation #2. Define Role of Each Agency. There are several 
federal agencies that are positioned to contribute expertise and that 
must contribute resources to support a National Climate Service. Each 
federal agency needs to collaboratively define its role and level of 
commitment in a National Climate Service. To achieve success, each 
agency must commit a set amount of funding that is not optional and 
must commit to participation at a very high level within the agency. 
There are examples of interagency programs that have failed because 
leadership was not involved and participants did not have the authority 
to make commitments on behalf of their agency. This service is too 
important to the security and well-being of the country to risk that 
approach. We must also define a lead federal entity. There is also good 
logic for considering NOAA as the lead agency. A lead agency provides a 
greater ability to speak with an authoritative voice, and a NOAA-lead 
allows us build quickly from existing components of a climate service, 
ensure support of inherently governmental functions (observing systems, 
operational systems), and increases our ability to ensure ``one-stop 
shopping'' if weather and climate functions are integrated.

Recommendation #3. Place under High-Level Leadership. Success of a 
National Climate Service requires recognized, clear, authoritative, 
responsible leadership within the Federal System at the highest level 
possible, ideally within the White House. The importance of this cannot 
be overemphasized. The service must be interagency and involve State 
and local governments as well as the private and public sector. To make 
this work, someone with clear and obvious authority must take the lead.

Recommendation #4. Grant a Large, Dedicated Budget. A National Climate 
Service requires a defined, independent budget large enough to 
influence the direction of the Service and achieve its mission.

Recommendation #5. Establish a Federated Structure. A National Climate 
Service requires an interface best described by a federated structure 
(i.e., non-profit or federation). This point is extremely important. 
The greatest strengths of the federated or non-profit option is their 
flexibility and nimbleness (especially the non-profit option), ability 
to connect and actively engage a broader range of users and members of 
the research community, and potential to have a single focus (no 
competing agenda).

    Implementation of the recommendations outlined in the report will 
establish an efficient and effective service that promotes interactive 
partnerships among scientists, information providers, and a variety of 
users. For instance, accurate and properly-scaled predictions of long-
term trends in wind volume and sunshine levels at a research 
institution can help renewable energy companies plan where to build 
their new wind turbine farm or concentrated solar thermal plant. A 
national clearinghouse for all carbon and climate monitoring data and 
all impact analyses, based in Washington, D.C., could support policy-
making and provide an authoritative signal to Congress about how 
rapidly and deeply you should cut or mitigate greenhouse gas emissions 
to minimize losses. A civil engineer's high-resolution model of how 
streamflow will change over the long-term for a key river could help 
fisherman improve management of that river's fisheries, farmers improve 
irrigated agriculture along the river, and dam operators optimize 
hydropower production. And authoritative information on weather and 
climate parameters associated with causes of adverse health outcomes 
could help officials at the Center for Disease Control and Prevention 
and other health professionals respond to adverse health outcomes in 
advance and prepare with an appropriate level of medical community 
preparation.
    As these examples show, the benefits of a National Climate Service 
will be manifold, will extend to all parts of the economy, and will 
have implications for the everyday lives of all people of this country. 
Climate change is happening now and it is occurring at a faster rate 
than anticipated. We need a National Climate Service that will enable 
people to plan for change in a constructive, efficient manner. If we 
succeed in this endeavor, I am confident that we can avoid many of the 
adverse changes that could surely affect our society otherwise.
    Mr. Chairman and Ranking Member Inglis: Thank you again for the 
opportunity to testify before your Subcommittee regarding this very 
important program. I would be more than happy to field any questions 
you or the other Members of the Subcommittee have for me today.

                      Biography for Eric J. Barron

    Eric J. Barron, Director of the National Center for Atmospheric 
Research (NCAR), began a career in geology with an undergraduate degree 
from Florida State University (1973). After obtaining his Master's 
degree in oceanography, marine geology and geophysics from the 
University of Miami (1976), his interest turned to climate studies with 
a Cray Supercomputing Fellowship at NCAR. Upon completing his Ph.D. in 
oceanography from the University of Miami (1980), he returned to NCAR 
as a postdoctoral research fellow and then continued as a research 
scientist in the global climate modeling group. In 1986 Barron went to 
Pennsylvania State University to direct the College of Earth and 
Mineral Sciences' newly formed Earth System Science Center (ESSC), and 
was promoted to Professor of Geosciences in 1989. Under Barron's 
leadership, the growth of ESSC resulted in the establishment of the 
College of Earth and Mineral Sciences' Environment Institute, 
encompassing the ESSC and a group of other research center. Barron 
became the Director of this new institute in 1998 and earned the title 
of Distinguished Professor in 1999. In 2002 he was named Dean of the 
College of Earth and Mineral Sciences at Penn State. Prior to coming to 
NCAR in July 2008, Barron served as Dean of Jackson School of 
Geosciences at the University of Texas at Austin.
    Barron's research interests are in the areas of climatology, 
numerical modeling, and Earth history. During his career, he has worked 
diligently to promote the intersection of the geological sciences with 
the atmospheric sciences and the field of Earth system science. He 
served as Chairman of the Climate Research Committee of the National 
Research Council (NRC) from 1990 to 1996. In 1997, he was named Co-
Chairman of the Board on Atmospheric Sciences (BASC) of the NRC, and 
since 1999 he has chaired the BASC. Additional NRC panels on which 
Barron has served include the Committee on Global Change Research, the 
Assessment of NASA Post-2000 Plans, Climate Change Science, the Human 
Dimensions of Global Change, the Panel on Grand Environmental 
Challenges, and the Committee on Tools for Tracking Chemical, 
Biological, and Nuclear Releases in the Atmosphere: Implications for 
Homeland Security. In addition to serving on the National Research 
Council, Barron chaired the Science Executive Committee for NASA's 
Earth Observing System and NASA's Earth Science and Applications 
Advisory Committee (ESSAC). He has also served as Chairman of the 
USGCRP Forum on Climate Modeling, the Allocation Panel for the 
Interagency Climate Simulation Laboratory, the U.S. National Committee 
for PAGES and the NSF Earth System History Panel.
    Barron is a fellow of the American Geophysical Union, the American 
Meteorological Society, the Geological Society of America, and the 
American Association for the Advancement of Science. In 2003, he 
received the NASA Distinguished Public Service Medal.

    Chair Baird. Thank you. Dr. Mote.

   STATEMENT OF DR. PHILIP W. MOTE, DIRECTOR, OREGON CLIMATE 
 CHANGE RESEARCH INSTITUTE AND OREGON CLIMATE SERVICES, OREGON 
STATE UNIVERSITY; PROFESSOR, COLLEGE OF OCEANIC AND ATMOSPHERIC 
                            SCIENCES

    Dr. Mote. Thank you, Chairman Baird and Ranking Member 
Inglis, and Members of the Committee. I am still with the 
Climate Impacts Group at the University of Washington for a 
couple more months, in addition to my responsibilities with the 
Oregon Climate Change Research Institute. And at the University 
of Washington, I also serve as State Climatologist, and I am 
pleased that you all have Nolan Doesken, the President of the 
AASC, to speak in a few minutes.
    I have been invited here to speak on behalf of the nine 
university-based, regionally focused research teams known as 
RISAs, which Dr. DeGaetano already mentioned. RISA stands for 
Regionally Integrated Sciences and Assessments, and they are 
supported by NOAA's Climate Program Office. Most of the RISA 
teams have contributed to my oral and written testimony.
    RISAs have been providing climate services, since the first 
RISA, our own Climate Impacts Group at the University of 
Washington, was established in 1995 by Ed Miles. Indeed, our 
group, with Ed as lead author, wrote a paper on national 
climate services, published in 2006, that helped start the 
current discussion about climate services.
    Climate services provide the use-inspired climate science 
needed to support decisions that plan for and cope with climate 
variability and change. With steady progress in science, 
vigorous growth in demand for actionable climate information, 
and the urgency of coping with a changing climate, the time for 
a National Climate Service has arrived.
    Selecting from dozens of possible examples, I provide here 
a few examples of climate services that the RISAs provide, 
focusing for brevity on water resources. Early on, the 
Northwest and Pacific RISAs helped agencies like Seattle public 
utilities and Pacific Island water resource managers apply 
seasonal forecasts to estimates of water supply. Western and 
Southeastern RISAs have engaged in drought planning and 
monitoring and post-drought analysis. CLIMAS, the Southwest 
RISA, worked with State agencies in Arizona on the Arizona 
Drought Preparedness Plan. The RISA in the Carolinas developed 
a drought monitoring tool to monitor low flow triggers.
    Looking decades into the future, RISA scientists analyzed 
the effects of climate change on the small rivers that supply 
urban needs, like the Cedar River for Seattle, and on the large 
basins, the Columbia and the Colorado, for example. Such 
projections are now routinely being used in long-range planning 
by municipal and State governments, in partnership with RISAs, 
as in California, Colorado, and Washington. Western RISAs have 
worked for a number of years with the U.S. Bureau of 
Reclamation and others to understand uses of climate 
information.
    These and other examples illustrate the importance of the 
partnerships that RISAs have with NOAA offices and other 
federal agencies, Regional Climate Centers, State 
climatologists, extension, tribes, State and local governments, 
NGOs, and the private sector. Each of these partners has unique 
contributions, perspectives, and responsibilities. The RISAs, 
based at universities, emphasize user-oriented research and 
outreach.
    In a National Climate Service, user-oriented research would 
be vital, and RISAs would play a critical role. Here is an 
example of what an NCS could accomplish. Redrawing floodplain 
maps with a rigorous assessment of how climate change may be 
changing the flood risk, also known as the hundred year flood. 
Federal labs provide climate model outputs. University 
researchers run hydrologic models. Political science experts 
craft flexible policies to incorporate local concerns. RISAs 
and State climatologists and extension services engage 
emergency managers, land use planners, and so on.
    Climate services are already provided in various forms by 
the nine RISAs, by Regional Climate Centers, private 
consultants, State climatologists, and so on, but the efforts 
fall short of what is needed. For one thing, the RISA program 
needs to be expanded to serve all fifty states, plus the 
territories. And funding for the RISA program is so thinly 
stretched now that we cannot meet user demand.
    Building on the 2001 NRC report, the RISAs came up with ten 
key elements that we believe will be critical to an effective 
NCS. I have condensed it to five for brevity.
    Number one, needs of stakeholders must be foremost, and are 
best understood at the regional scale. Two, NCS must recognize 
that decision contexts need climate information and much more. 
Three, because capability must span a range of space scales, 
implementation must be national, but with strong regional and 
State components, including universities, to assist regional 
and State level decisions. Four, NCS design should be flexible 
and evolutionary, and be built around effective partnerships. 
Five, NCS success requires that an effective larger national 
and international climate science enterprise, including 
observations, exist to support it.
    The RISAs show that regional university/federal 
partnerships can make unprecedented progress in providing 
climate services, and we succeed because we are backed up by a 
world-class federal science enterprise. Climate knowledge, 
properly used and conveyed, will help Americans deal with, and 
indeed prosper, in the face of future climate variability and 
change.
    Thank you for your time.
    [The prepared statement of Dr. Mote follows:]

                  Prepared Statement of Philip W. Mote

    I have been invited here to speak on behalf of the nine university-
based, regionally-focused research teams known as RISAs. RISA stands 
for Regionally Integrated Sciences and Assessments, supported by NOAA's 
Climate Program Office. Most of the RISA teams have contributed to my 
oral and written testimony.
    RISAs have been providing climate services since the first RISA, 
our own Climate Impacts Group at the University of Washington, was 
established in 1995 by Ed Miles. Indeed, our group with Ed as lead 
author wrote a paper on national climate services in 2006 that helped 
start the current discussion about climate services.
    Climate services provide the use-inspired climate science needed to 
support decisions that plan for and cope with climate variability and 
change. With steady progress in science, vigorous growth in demand for 
actionable climate information, and the urgency of coping with a 
changing climate, the time for a national climate service has arrived.
    Selecting from dozens of possible examples, I provide here a few 
examples of climate services RISAs provide, focusing for brevity on 
water resources. Early on, the Northwest and Pacific RISAs helped 
agencies like Seattle Public Utilities and Pacific island water 
resource managers apply seasonal forecasts to estimates of water 
supply. Western and southeastern RISAs have engaged in drought planning 
and monitoring, and post-drought analysis. CLIMAS (the southwest RISA) 
worked with State agencies in Arizona on the Arizona Drought 
Preparedness Plan. The RISA in the Carolinas developed a drought 
monitoring tool to monitor low-flow triggers. Looking decades into the 
future, RISA scientists analyze the effects of climate change on small 
rivers that supply urban needs, like the Cedar River for Seattle, and 
on the large basins of the Colorado and Columbia Rivers. Such 
projections are now routinely being used in long-range planning by 
municipal and State governments in partnership with RISAs, as in 
California, Colorado, and Washington. Western RISAs have worked for a 
number of years with the U.S. Bureau of Reclamation and others to 
understand uses of climate information.
    These and other examples illustrate the importance of partnerships 
RISAs have--with NOAA offices and other federal agencies, with regional 
climate centers, State climatologists, extension, tribes, State and 
local governments, NGOs, and the private sector. Each has unique 
contributions, perspectives, and responsibilities--RISAs, based at 
universities, emphasize user-oriented research and outreach. In a 
National Climate Service, user-oriented research would be vital and 
RISAs would play a critical role. An example of what an NCS could 
accomplish: redrawing flood plain maps with a rigorous assessment of 
how climate change may be changing flood risk, a.k.a. the 100-year 
flood. Federal labs provide climate model output, university 
researchers run hydrologic models, political science experts craft 
flexible policies to incorporate local concerns, RISAs and State 
climatologists engage emergency managers, land use planners, and other 
local officials.
    Climate services are already provided in various forms by the nine 
RISAs, by regional climate centers, private consultants, State 
climatologists, extension, the National Weather Service, and others, 
but the efforts fall short of what is needed. For one thing, the RISA 
program needs to be expanded to serve all 50 states plus the 
territories. And funding for the RISA program is so thinly stretched 
that we cannot meet user demand.
    Building on a 2001 NRC report, the RISAs came up with ten key 
elements that we believe will be critical to an effective National 
Climate Services (NCS); I've condensed it to five for brevity.

        1.  Needs of stakeholders must be foremost, and are best 
        understood at the regional scale.

        2.  NCS must recognize that decision contexts need climate 
        information and much more.

        3.  Because capability must span a range of space scales, 
        implementation must be national but with strong regional and 
        State components, including universities, to assist regional 
        and State-level decisions.

        4.  NCS design should be flexible and evolutionary, and built 
        around effective partnerships.

        5.  NCS success requires that an effective larger national (and 
        international) climate science enterprise, including 
        observations, exists to support it.

    The RISAs show that regional university-federal partnerships can 
make unprecedented progress in providing climate services, and we 
succeed because we are backed up by a world-class federal science 
enterprise, a global climate observing system, data centers, and global 
and regional climate modeling. Climate knowledge, properly conveyed and 
used, will help Americans deal with, and indeed prosper, in the face of 
future climate variability and change. Thank you for allowing me and my 
colleagues to share our thoughts with your subcommittee today.

Executive Summary

    NOAA's Regional Integrated Science and Assessments (RISA) program 
consists of nine teams focused on different climatically-sensitive 
regions of the United States. These teams have developed innovative 
place-based, stakeholder-driven research, partnership, and services 
programs over the past decade, and in doing so, have created an 
effective demonstration-scale climate service for parts of the Nation. 
The experiences of the RISA programs and their successful development 
of decision support tools and other products indicate that the 
following key elements will be critical to an effective National 
Climate Services (NCS):

         1.  NCS must be stakeholder (user)--driven, and accountable to 
        stakeholders.

         2.  NSC must be based on sustained regional interactions with 
        stakeholders.

         3.  NCS must include efforts to improve climate literacy, 
        particularly at the regional scale.

         4.  Multifaceted assessment as an ongoing, iterative process, 
        is essential to NSC.

         5.  NCS must recognize that stakeholder decisions need climate 
        information in an interdisciplinary context that is much 
        broader than just climate.

         6.  NCS must be based on effective interagency partnership--no 
        agency is equipped to do it all.

         6.  Implementation of NCS must be national, but the primary 
        focus must be regional, where decisions are made.

         8.  Capability must span a range of space and time scales, 
        including both climate variability and climate change.

         9.  NCS design should be flexible and evolutionary, and be 
        built around effective federal-university partnership.

        10.  NCS success requires that an effective regional, national 
        and international climate science enterprise, including ongoing 
        observations, model simulations and diagnostics, exists to 
        support it.

    Prepared through a collaborative effort of RISA partners, this 
document reviews literature in support of the RISA approach, and 
provides several examples of RISA efforts that illustrate these ten key 
elements, focusing on water resource, wildfire, and agriculture. 
Moreover, during the past 10 years, droughts in the western and the 
southeastern U.S. have illustrated the value and utility of RISA teams 
in diagnosing and predicting droughts, and in designing drought 
mitigation and preparedness plans. Such efforts arise from the 
interdisciplinary and collaborative nature of the RISAs, and provide a 
template for NCS. Scaling up the RISA experience into an NCS poses 
organizational challenges, but offers numerous important lessons, as 
well as the promise of success.

1. Introduction

    Climate services are intended to provide the use-inspired climate 
science needed to support decision-making in society, particularly as 
it relates to anticipating, planning for, and dealing with climate 
variability and climate change. Owing to steady progress in climate 
science and vigorous growth in public demand for actionable climate 
information, the motivation for rapid expansion of climate services has 
never been greater. Climate information includes paleoclimate 
(reconstruction of past climate from proxies like tree rings); 
statistics about means and extremes from instrumental data and 
interpretations thereof; seasonal climate forecasts; projections of 
global and regional climate change; and much more. Climate services are 
already provided in various forms by the NOAA Regional Integrated 
Sciences and Assessments (RISA) program through its nine regional 
groups, by regional climate centers, private consultants, State 
climatologists, the National Weather Service, and others. This document 
describes the experiences of the RISA program for input as the Nation 
contemplates the design and implementation of a National Climate 
Service (NCS).
    Basic research in climate dynamics, as well as efforts to observe 
and predict the Earth system, have paid immense dividends in improved 
weather forecasts, seasonal climate predictions, and responses of 
global climate to external forcing like greenhouse gases or volcanic 
eruptions. Climate services connect these advances to specific decision 
environments, much the way the National Weather Service implements new 
research in an operational, decision-relevant setting. A fundamental 
aspect of this connection is a responsiveness to users' needs. It is 
this responsiveness that is at the heart of the RISA success in 
understanding how climate information is interpreted and used by a wide 
range of stakeholder decision-makers.
    The RISA program supports integrated, place-based research across a 
range of social, natural, and physical science disciplines to expand 
decision-makers' options in the face of climate change and variability 
at the regional level. RISA teams are comprised of researchers from the 
physical and natural sciences, engineering, economic, legal, and social 
sciences who work together and partner with stakeholders in a region to 
determine how climate impacts key resources and how climate information 
could aid in decision-making and planning for those stakeholders. It 
opens new conduits for the flow of information and documents innovative 
practices for providing services that can lead to improvement across 
the whole climate services enterprise. The significant RISA success in 
meeting user needs illustrates the power of regional stakeholder-driven 
interdisciplinary climate research as a complement to the more 
operational, national-scale support provided by federal agencies such 
as NOAA.
    In this document we briefly review some relevant history of climate 
services, describe key elements of climate services, provide examples 
based on the RISA experience, and offer some thoughts about 
implementing National Climate Service informed by the RISA experience.

2. RISA Teams and Background Literature

    The network of RISA teams (Figure 1) represents a significant body 
of experience and knowledge about climate services needs. Each RISA 
developed independently and defined its own approaches to meeting 
stakeholder demand. Since the first RISA was established in the Pacific 
Northwest in 1995, the network has expanded to nine teams, each of 
which has long-term relationships with users of climate information 
from a wide variety of sectors, levels of government, and regions. 
RISAs work closely with these users to identify and address needs 
including climate literacy, fundamental use-inspired and applied 
research, and development of decision-support tools.
    A critical element of the regional focus is the intense, sustained 
contact with users that is necessary to uncover, assess and refine the 
ways in which climate services can best meet user needs. These efforts 
often break new ground as they respond to the research and support 
needs of regional user groups. Some specific RISA efforts have also 
delved more deeply into cross-scale issues examining a local situation, 
a sector, or multi-jurisdictional area within a regional context. The 
efforts have generated many lessons on climate needs, as well as best 
practices in effective development and delivery of services. RISAs have 
also had success in the development and transfer of information 
prototypes, applications, service innovation, and research 
methodologies. With time, RISAs have also begun to collaborate more 
regularly with each other, as well as other regional climate science 
partners.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the meantime, a steady drum beat of published statements have 
stressed the need for a coordinated approach to climate services. In 
2001 the National Research Council issued a report called A Climate 
Services Vision: First steps toward the future (NRC, 2001). The report 
highlighted that the societal value of climate information is dependent 
upon many factors, including the:

        <bullet>  strength and nature of linkages between climate, 
        weather, and human activities;

        <bullet>  nature of uncertainties associated with forecasts;

        <bullet>  accessibility of credible and useful climate 
        information by decision-makers;

        <bullet>  ability of users and providers to identify each 
        other's needs and limitations; and

        <bullet>  ability of users to respond to useful information.

    According to the NRC report, addressing these factors requires 
research, data stewardship, product development, and education 
programs.
    The NRC report also outlines five ``guiding principles'' for the 
development of a new climate services effort:

    (1). The activities and elements of climate services should be 
user-centric--the user community is diverse, with a wide range of space 
and time scales needed. Users are becoming increasingly diverse and 
knowledgeable, with a commensurate increase in specialized needs. In 
order to address these needs, evaluation, mutual information, and 
feedback are needed to improve communication and accessibility of 
information.

    (2). If a climate service function is to improve and succeed, it 
should be supported by active research, and research is needed not just 
on the fundamentals of climate variability and change, but also on 
diffusion of knowledge and information. This requires mission-oriented 
research with active mechanisms to transfer knowledge from research to 
useful products.

    (3). Advanced information (including predictions) should be 
provided on a variety of space and time scales, and in the context of 
the historical record, in order to understand natural variability and 
climate change. Predictions should be accompanied by analysis of 
probabilities, limitations, and uncertainties. Causes and character of 
natural variability should be described. Continuous, accurate, and 
reliable historical climate observations are needed at diverse locales, 
and products need to be provided for scales from local to global.

    (4). The climate services knowledge base requires active 
stewardship: observations must be reliable, freely exchanged, and 
accessible. This requires open and free exchange of data, combining 
observations into useful, multi-purpose records, and assuring synergism 
between observations, theories, and models. All of this should be 
driven by a ``robust and easily accessible delivery system.''

    (5). Climate services require active and well-defined participation 
by government, business, and academe. Each of these players has 
important roles in providing climate services. The government should be 
motivated by ``public goods and services,'' which they describe as non-
rival and non-exclusive. These are products that are of a general 
nature, not for individuals or individual commercial operations. 
Government should also take the lead role in maintaining the official 
climate records. The private sector should use the data to meet basic 
and applied research needs of its users. Academic research 
organizations should focus on their central mission of research, 
education, and outreach. Sometimes this may include research data and 
analysis and product development in partnership with industry or 
government towards meeting these goals.
    The NRC recommendations were presented in three sections: (1) 
promoting more effective use of the Nation's weather and climate 
observation systems; (2) improving the capability to serve the climate 
information needs of the Nation; and (3) interdisciplinary studies and 
capabilities needed to address societal needs. Recommendations 1 and 2 
of the NRC report focus primarily upon the infrastructure and provision 
of routine services. While the RISAs contribute to these goals, their 
most notable successes occur in Recommendation 3, which can be 
elaborated as:

        <bullet>  Develop regional enterprises designed to expand the 
        nature and scope of climate services;

        <bullet>  Increase support for interdisciplinary climate 
        studies, applications, and education;

        <bullet>  Foster climate policy education; and

        <bullet>  Enhance the understanding of climate through public 
        education.

    The report describes a service system that ``should strive to meet 
the needs of a user community at least as diverse and complex as the 
climate system itself, ranging from the international community to 
individual users, and involving both the public and private sectors. 
Central to the scope of a climate service is the need to embrace wide 
ranges of time and space scales because decision-making occurs on all 
scales from local to global and from weeks to centuries.''
    Since 2001, several reports have highlighted the critical role that 
RISAs provide through their research and service. A 2003 forum of the 
American Meteorological Society focused on ``Improving Responses to 
Climate Predictions,'' emphasized the need for more ``science 
integrators'' (Greenfield and Fisher, 2003). Finding 5 of the forum 
notes that ``climate information is most effectively developed and 
applied through partnerships between climate information providers and 
decision-makers.'' The report also notes the importance of evaluation 
of risks and benefits as a factor encouraging use of climate forecasts.
    Miles et al. (2006) provided a perspective on climate services 
linking the international aspects of climate monitoring, research and 
modeling to regional applications of climate information. Based in 
large part on the success of the Climate Impacts Group (the Northwest 
RISA), they stressed that regional organizations were a key component 
in successful delivery of climate services within the context of an 
NCS.
    In a review of the Climate Change Science program, the National 
Research Council (2007) noted that ``discovery science and 
understanding of the climate system are proceeding well, but use of 
that knowledge to support decision-making and to manage risks and 
opportunities of climate change is proceeding slowly.'' The report 
emphasized the smaller spatial scales at which decisions are made and 
the need for improved understanding of the impact of climate changes on 
human well-being and vulnerabilities. The review called for stronger 
connections with social science researchers and a more comprehensive 
and balanced research program, including human dimensions, economics, 
adaptation, and mitigation. The report again highlights RISA as a 
positive example: ``NOAA's Regional Integrated Sciences and Assessments 
program has been effective in communicating research results to 
stakeholders in particular sectors . . . or regions, but this program 
is small and has limited reach . . . Building and maintaining 
relationships with stakeholders is not easy and requires more resources 
in the CCSP Office and participating agencies than are currently 
available. Yet a well-developed list of stakeholders, target audiences, 
and their needs is essential for educating the public and informing 
decision-making with scientifically-based CCSP products.''
    In 2007, the Western Governors' Association and Western States 
Water Council suggested that improving relationships between State 
agencies, academia and federal climate science agencies was the most 
critical action on improving State and regional response to climate 
variability and change (CDWR, 2007). RISA was again highlighted as a 
``successful step to a bridging effort between the research community 
and practitioners'' and they recommended that the program be expanded.
    The maturation and expansion of the RISA Program has contributed to 
the body of knowledge about how climate information is conveyed, 
received, and utilized by key stakeholder groups. These findings should 
be used to construct improvements in the products and services provided 
by federal agencies and State climate office services. Within the NOAA 
Climate Program Office, programs such as Transition of Research 
Applications to Climate Services and the Sector Applications Research 
Program have supported research geared toward better understanding of 
how stakeholders use climate information. These studies are often at a 
regional, State or local level, allowing each study to capitalize upon 
unique circumstances to the area. For example, the RISA-served areas of 
the country with a strong response to El Nino-Southern Oscillation 
(ENSO), namely the Pacific Islands, Northwest, California, Southwest, 
and Southeast, can make use of seasonal predictions; whereas for the 
parts of the country with lower seasonal predictability, the utility of 
seasonal forecasts may be low.
    A common theme in these reports is that rapid growth in demand for 
climate services have converged with growth in knowledge of climate and 
of human interactions, and with technological advances including 
communication networks, to pave the way for a transformation of climate 
services. They envision the emergence of a broader, organized, and 
sustained climate service that addresses multiple environmental 
challenges.

3. Essential elements of a National Climate Service

    Drawing on collaboration and shared experiences, the RISA teams 
have summarized our reflections on the essential elements of a National 
Climate Service (Table 1). These include elements that are essential 
when working with user groups, as well as implications for 
institutional design.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


3.1 A stakeholder-driven perspective
    A national climate service must prioritize stakeholder needs and 
support services based on their usefulness in addressing those needs. 
Critical climate service needs vary among regions depending on 
vulnerabilities and how planning and policy decisions consider local 
climate conditions such as drought, wildfire, snowpack depth, ice 
storms, storm frequency, the likelihood of heat waves, or the impact of 
ocean temperatures on fisheries. The climate science enterprise 
currently addresses these issues, but as the NRC report Decision-Making 
for the Environment (2005:26) points out, approaches to framing 
research questions and data analysis often mean that ``when science is 
gathered to inform environmental decisions, it is often not the right 
science.'' A user-centric approach, which is more likely to gather the 
``right science,'' affects the design of research, models, and 
observation systems to support fundamental use-inspired and applied 
research, and extends to new communication and operations standards. 
The timeliness of information availability is also critical to its 
utility--decision calendars vary by region, and climate services will 
need to be timed to provide the best information at most useful times.

3.2 Sustained, ongoing regional interactions with users
    From El Nino events in the 1980s, to global climate change today, 
stakeholder interest in climate science has grown rapidly. In order to 
provide relevant information, RISAs have demonstrated that users and 
scientists committed to innovation in this area must make a sustained 
commitment to learning from each other about climate science and about 
the equally complex sectoral decision needs--the processes, 
vulnerabilities, goals, constraints, calendars, and capabilities--that 
influence the value, utility, and availability of climate information. 
Stakeholders are seeking trusted sources to help them understand a new 
set of issues characterized by rapidly evolving science, uncertainties, 
and highly politicized controversies. Ongoing engagement is necessary 
to build and maintain the credibility required of a national climate 
service, and to respond flexibly to rapidly evolving stakeholder needs 
and capabilities.
    Implicit in making climate services stakeholder-driven, and based 
on sustained stakeholder partnerships, is the fact that the enterprise 
must be inherently regional in nature. National entities cannot succeed 
without strong regional presence and partnership. The RISA success has 
been built on the regional strengths of universities and their well-
established ability to partner in a sustained way in their regions, and 
to do so in a way that cuts across disciplinary, agency, and sectoral 
boundaries.

3.3 Broad efforts to improve climate literacy
    Many decision-makers are already hearing and heeding calls to use 
climate information as part of accountability and disclosure from 
regulators, constituents, or clients. For decision-makers to use 
climate information in an effective manner, they often must have at 
least a rudimentary understanding of the strengths, limits, and 
availability of good climate information and services. For example, 
seasonal forecasts are often expressed as shifts in probabilities, 
whereas users often reduce these forecasts to the simpler notion of 
``above average.'' Many users are in the early stages of learning about 
general climate issues, whereas others are interested in more 
sophisticated treatment of topics related to specific professional or 
occasionally personal interests. RISA experiences indicate that both 
sophisticated and casual users of climate information want to relate 
general processes (e.g., global warming or El Nino) to local/regional 
experience, expectations, and concerns, and vice versa. When users 
understand the statistical and physical reasoning of climate sciences, 
and how to evaluate the plausibility of an explanation or the validity 
of a seasonal forecast, they can make better use of climate 
information. They can also be a more active partner in driving the 
needed science and services. One of the most effective ways to improve 
society's resilience to climate variability and change is through 
greater climate literacy.

3.4 Assessment as an multifaceted, ongoing, and iterative process
    Several types of assessment are integral to a successful climate 
services. At one end of the spectrum, climate services must assess--at 
regular intervals--the state of the climate system, the state of 
climate understanding, and the range of potential climate impacts, 
risks and vulnerabilities that might occur. This is akin to the 
assessment approach employed by the Intergovernmental Panel on Climate 
Change. In addition, advances in climate science and the changing 
dynamics of socioeconomic systems require that the needs of stakeholder 
decision-makers also be assessed in an ongoing, iterative manner, just 
as the effectiveness of all climate service methodologies and 
activities must be routinely assessed and improved. These latter types 
of assessment are best implemented via social science research.
    Growing populations, shifting economic sectors, greater reliance on 
new energy sources, changing demands on water and on other critical 
resources, are but a few of the trends that will alter the character of 
known vulnerabilities and stakeholder needs. Changing patterns of 
threats and hazards, and emerging issues like re-engineering 
California's San Francisco Bay and Delta system, ocean dead-zones and 
acidification, will require regular investigation of patterns of risk 
and vulnerability to inform decision-making (Healy, Dettinger and 
Norgard, 2008; Dettinger and Culberson, 2008). For all of these 
reasons, assessment must be addressed as an iterative process, and all 
aspects of the climate service enterprise must learn from these 
assessments. Ongoing assessments at regional scales will improve 
conditions and decision-making at those scales while also, in 
composite, providing a better grounding for decisions, adaptation and 
mitigation by the Nation as a whole.

3.5 Stakeholder decisions need climate information and much more
    Decisions that could benefit from climate information typically 
also have inputs from other types of environmental and societal 
information. A National Climate Service must address critical 
interfaces of climate variability and change with societal decision-
making and adaptation across scales and sectors. For example, coastal 
communities concerned about projections of sea level rise and 
variability in frequency and intensity of storms, also need to worry 
about municipal bond ratings, availability of insurance, and impacts of 
local coastal erosion processes. Water utilities evaluating strategies 
for dealing with projected changes in drought frequency, intensity, and 
duration, must make their decisions in the context of aging 
infrastructure, projections of population growth and demand, the 
efficacy of water conservation strategies, future energy requirements, 
ecological constraints and the flexibility of regulatory frameworks. To 
meet these interdisciplinary needs, an NCS must provide services that 
are useful in the context of socioeconomic and environmental decision-
making--e.g., decision support tools--that in turn requires developing 
both (a) much closer interactions between climate science and other 
intellectual disciplines and (b) closer coordination of climate 
information with socioeconomic and environmental impact models.

3.6 Interagency partnership is essential
    The capacity to address the broad scope of activities and goals 
affected by climate is distributed across federal, State and local 
agencies where experienced staff, tools, and skill sets as well as a 
deep understanding of the policies, procedures, and regulations have 
been developed over decades. In particular, a federal-level interagency 
partnership is needed to ensure that climate services support the 
integration of appropriate climate information with non-climatic 
information, and also enable users to make decisions in cross-agency 
jurisdictional frameworks. Specialized insights into sectoral capacity, 
key institutional challenges, major regulatory issues, research needs, 
critical uncertainties, and potential interactions among climate, 
social, economic, and ecological systems is critical to successful 
adaption involving multiple complex systems and avoiding maladaptive 
choices and unexpected consequences.

3.7 Implementation must be national in scope, but regional in focus
    Ultimately, NCS should be capable of providing both regionally 
specialized products and equivalent quality services to all parts of 
the country. Brief consideration of the contrasts among the Pacific 
Islands, the small, highly variable New England States, the arid, 
rapidly growing Southwest, and the climatically vast State of Alaska, 
highlights the formidable scale of the task. The distinctive regional 
character of environmental and climate processes and science 
challenges, as well as regional-distinct vulnerabilities, decision-
making processes, adaptation issues, and the value of close engagement 
with stakeholders, all indicate that many of those services will be 
most effectively designed and delivered through a regional focus. To 
achieve equity in coverage, many regional issues will require 
regionally-explicit approaches to meet specific observation and 
research needs, or to assess the complex interactions of human and 
natural systems in a place.
    Regional texture in dominant issues, climate-sensitive sectors, 
policy context, and dominant climate processes require regionally 
specific information, not just higher spatial resolution. National 
implementation of a regionally focused climate service can ensure that 
shared regional needs (e.g., large-scale observing systems, modeling 
and basic research on continental to global-scale processes) are 
addressed in an efficient manner, and that lessons learned in one 
region can benefit another. A national scope also addresses the 
interconnectedness of climate-sensitive sectors in which information 
about drought, crop productivity, or snowfall in another region can be 
as important as local information: for example, energy supply in 
California is closely related to snowpack (and hence hydropower 
production) in the Northwest. Agricultural production in one region can 
often be optimized with information about trends throughout the 
country. In order to meet demands for climate services for national-
scale needs, regional findings must be inter-comparable and amenable to 
national-scale compilations, thus requiring national scale equivalency 
of quality and (to some extent) methods.

3.8 Capability must span a range of space and time scales
    Decision contexts often require information on a range of 
timescales in one location, for example, water supply planning can 
integrate timescales from one to forty years, or longer. The demand for 
climate services will continue to come from nested spatial and temporal 
scales in which each of the levels plays a role in increasing overall 
societal resilience, so NCS must be able to span these scales. Notably, 
RISAs have repeatedly identified decadal scale variability as an area 
of unexpected and, to date, under-addressed importance to stakeholders 
as they plan, scope and design long-term infrastructure investments and 
adaptations to climate variations and change.
    A successful climate service must also cover both climate 
variability on seasonal to centennial timescales, as well as climate 
change. Decision-makers often need information and support that 
integrates across both near-term and long-term decision scales. 
Ideally, climate services also integrate seamlessly with weather. In 
the real world, all variations in the environment, whether natural or 
human caused, have to be dealt with.

3.9 Program design should be flexible and evolutionary--universities 
        are key
    Climate service is a relatively young endeavor that requires 
greater capacity in new areas to address dynamic areas of knowledge and 
rapidly expanding--and changing--user needs. In just the past decade, 
stakeholder needs have grown much more sophisticated and have expanded 
from a focus on seasonal forecasts to an integrated interest in climate 
change projections, paleoclimate, and inter-decadal outlooks. Recent 
droughts, wildfires, levee failures, and insect outbreaks have prompted 
calls to understand the nature of these threats and to inform 
strategies to increase social, economic, and ecological resilience. 
Many such climate-related events have limited public issue-attention 
cycles and ``windows of opportunity'' when constituents, victims, and 
policy-makers are focused on addressing an event or issue. A NCS will 
need to continually prepare, anticipate, evolve, and then be quick on 
its feet to be judged successful in meeting those periods of intense, 
focused demand. Successful climate services must maintain the ability 
to translate and apply new science and to anticipate and fulfill 
evolving research and information needs. Effective climate services 
must be able to learn and change.
    The RISA program has proven the merits of using innovative and 
strong federal-university partnerships to develop and provide climate 
services. Table 2 highlights some of the key capabilities that 
universities provide, and the RISAs have demonstrated how universities 
are uniquely able to understand regional issues, build and maintain 
regional science and stakeholder partnerships, provide the needed 
interdisciplinary contexts, rapidly shift foci in response to new 
stakeholder need, educate, and work with private-sector partners. RISAs 
have also shown how university teams are ideally configured for 
interdisciplinary research, for developing prototype service 
methodologies and products, and for working with operational 
organizations (e.g., federal agencies) to transition these services 
into operations. Universities also have a long tradition of working 
with federal partners to develop national-scale observing, modeling and 
research programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


3.10 Climate services rely on a larger climate science enterprise
    In designing and implementing a national climate service, there may 
be an inclination to include all climate science activities under the 
rubric of climate services. Certainly, climate services rely on quality 
observations, modeling, and research, much of which requires vastly 
more resources than any NCS effort can provide on its own. Regionally-
focused observation, research, and modeling efforts may be sensibly 
included within climate services (and at universities), but where to 
draw the line between NCS and national or global climate science that 
supports NCS? Should global satellite observation programs be included? 
The modernization of the Historical Climate Network? The USGS stream 
gauge network? Global climate model inter-comparison efforts? The 
importance of all of these examples goes beyond just regional climate 
service, and design of a NCS needs to include mechanisms for 
determining what is within or outside NCS institutionally and 
financially. At the same time, it is critical that mechanisms be 
developed that allow the climate service to influence other elements of 
the national climate-science enterprise to ensure it is responsive to 
stakeholders and useful to the Nation. Separating NCS from other 
climate science activities recognizes the importance of these other 
activities, and allows NCS champions to identify and advocate for the 
whole breadth of climate science.

4. RISA Experiences in Climate Service

    Some examples of climate services developed by RISAs illustrate the 
ten essential elements just discussed. These examples are not intended 
to be a comprehensive catalogue of each RISA's activities, nor do they 
reflect the level of accomplishment of each RISA. Although the examples 
below emphasize the work of the mature RISAs, it is worth highlighting 
that the new RISAs also provide illustrations of the ten essential 
elements. The examples cover some of the research topics that span 
several of the RISAs--water, agriculture, and wildfire--that 
collectively serve to illustrate the ten key elements enumerated in the 
previous section.

4.1 Water
    Most RISAs have a significant focus on water because of its deep 
connections to other societal and environmental needs, like 
agriculture, energy, aquatic ecosystems, wildfire, and human health. 
Stakeholders with significant interest in water have been at the 
forefront of adoption of new applications of climate science, owing in 
part to their extensive computational and technical capacity.
    Early successes resulted from applying seasonal forecasts to water 
supply. As early as 1997 Seattle Public Utilities and several other 
stakeholders began paying attention to seasonal forecasts, and even 
applying them internally, in partnership with CIG (northwest RISA). CIG 
also issues annual ENSO-based seasonal hydrologic forecasts (Hamlet et 
al., 2002) that are now closely watched by public and private entities 
alike. Likewise, Pacific island water resource managers used ENSO 
forecasts to determine how to plan for water system conservation, with 
assistance from the Pacific RISA.
    Drought cuts across sectors in ways that no other natural 
environmental hazard does, because water is fundamental to municipal 
water supplies, public health, fire, agriculture and food production, 
ecosystems, energy production, and more (Wilhite and Buchanan-Smith, 
2005). Thanks in part to unusually prevalent western and southeastern 
U.S. droughts since 1999, several RISAs have had the opportunity to 
engage in drought planning, monitoring, and post-drought analysis. 
CLIMAS (southwest RISA) worked with State agencies in Arizona to 
construct the Arizona Drought Preparedness Plan. In the Carolinas, RISA 
scientists developed a regional drought monitoring tool used to 
determine and monitor low-flow triggers for Federal Energy Regulatory 
Commission dam relicensing processes (Carbone et al., 2007). RISA 
scientists and regional and municipal water managers in the West led to 
infusion of NOAA paleoclimatology program analyses and data into water 
resources planning and the adoption of new modeling methods for 
evaluating the sensitivity of water supply to drought (Woodhouse and 
Lukas, 2006). CIG researchers also found strikingly different 
institutional responses in Oregon and Idaho to the 2001 drought. RISAs 
worked over several years with Western Governors' Association to 
develop the framework for the National Integrated Drought Information 
System, and the newest RISA (SCIPP, the south-central RISA) has a major 
focus on drought.
    Vigorous efforts by RISA scientists to educate stakeholders about 
the emerging science of climate change have convinced many public 
agencies and businesses that climate change may pose significant 
challenges to future water supply. Indeed, work by RISA scientists and 
others show that many of the expected changes are already detectable 
(e.g., Barnett et al., 2008). Using fine regional scale observations, 
global climate model simulations, down-scaling technique, and a set of 
hydrologic models, RISA scientists have projected future streamflows on 
scales from the small watersheds supplying urban needs, to the large 
basins of the Colorado and Columbia Rivers. Such projections are now 
routinely being used in long-range planning and assessments by 
municipal and State governments in partnership with RISAs as in 
California, Colorado, and Washington. A multi-RISA project, 
``Reconciling Projections of Future Colorado River Stream Flow,'' 
compares different modeling approaches to see how well these methods 
can reproduce recent flows, as part of a larger cross-RISA effort to 
help western U.S stakeholders deal with drought and climate change.
    For water resources planning, western RISAs have worked for a 
number of years with the U.S. Bureau of Reclamation and related 
agencies to understand uses of climate information and respond to these 
needs. Early efforts included studies of the Salt River Project in 
Arizona, as well as the Aspinall Unit in Colorado (e.g., Ray, 2004). 
When the Bureau of Reclamation began considering climate change, their 
personnel were already well acquainted with RISA scientists and turned 
to them for information. As a result of a process including WWA 
(intermountain west RISA), CAP (California RISA), and CIG, long-term 
climate variability, risk of extended drought, and climate change were 
included in the National Environmental Policy Act process for 
contending with shortage on the Colorado River.

4.2 Agriculture
    The SECC (southeast RISA) has demonstrated a successful regional 
approach for climate services for the agricultural and water sectors 
with most of the Essential Elements of Climate Services presented in 
this document. With multi-agency funding and input from farmers, 
Extension Agents, and foresters, the SECC developed a climate risk 
management decision support system (http://AgroClimate.org). This 
system was transitioned to the Cooperative Extension Services, which 
now operates this system and provides education programs and climate in 
formation to all counties in four SE states. The success of this 
research-to-operational program has also been demonstrated through 
financial support provided by the USDA and by other states adapting 
AgroClimate for their agricultural stakeholders. For example the most 
recent support from USDA translated AgroClimate into Spanish to serve 
farmers who would otherwise not be able to make use of this 
information. Now that this system is in use, the RISA is developing 
similar climate information and decision support systems for water 
resources managers and coastal resource users. The SECC is focusing 
much of its research to develop information to address needs expressed 
by a wide range of stakeholders, working with Extension to reach county 
and city managers, water managers, coastal resource managers, land 
developers, public utilities, and other sectors. Many of the new 
demands for local and regional climate services are for information 
options for responding to climate change.
    Using integrated climate and social science research, CLIMAS is 
investigating the prospects for improved use of climate information by 
ranchers in the Southwest. CIG is using a crop model to evaluate 
impacts of climate change on key crops in Washington State.

4.3 Wildfire
    Wildland fires cost the United States over $1 billion annually and 
their severity is determined by several factors including climate, 
vegetation and human behavior, on timescales from weeks to decades. 
Successful climate services supporting wildland fire management and 
prediction require multi-agency coordination and multi-disciplinary 
perspectives. In anticipation of sustained dry conditions, CLIMAS, CAP, 
and SECC convened a ground-breaking 2000 workshop to bring together 
climate scientists and fire management stakeholders (Morehouse, 2000). 
After first hearing that the fire management community did not see an 
obvious need for climate information, a spirited discussion stimulated 
interest in using historical ENSO information and climate forecasts in 
pre-season fire prediction. Scientific knowledge was too new for 
operational implementation at first, so the RISA program facilitated 
sustained science-management exchanges, which led to identification of 
early adopters, potential agency partners, and better understanding of 
the insertion points for climate information in fire management 
decision-making (Corringham et al., 2008).
    In 2003, CLIMAS, the National Interagency Coordination Center's 
Predictive Services Group, and the Program for Climate, Ecosystem, and 
Fire Applications (a contributor to the CAP RISA) began developing pre-
season fire potential climate outlooks for the conterminous United 
States and Alaska through a decision support process called the 
National Seasonal Assessment Workshops (NSAW) (Garfin et al., 2003). 
Over the years this process has improved understanding of climate 
forecasts and forecast evaluation, and facilitated connections between 
NOAA science and operational entities and the fire community. RISA 
involvement and partnership has catalyzed change in (a) operational use 
of climate forecasts by this stakeholder community, and (b) climate-
fire integrated research and prediction (Brown and Kolden, 2007).
    The pre-season outlooks are used by the National Multi-Agency 
Coordinating Group in firefighting resource allocation decisions, 
including pre-positioning of resources, personnel planning, prescribed 
and wildland fire use decision-making, and fire mitigation (park 
closures and fire bans). Outlooks are now routinely used to brief the 
Secretary of Agriculture and have been successfully transferred to 
operations.
    CAP, CIG, CLIMAS, and ACCAP (Alaska's RISA) have contributed 
substantially to climate-fire research, particularly on the subject of 
climate change. CIG research demonstrated that in most western states, 
a substantial portion of the inter-annual variability and long-term 
trends in area burned can be explained by considering summer climate 
(McKenzie et al., 2004). Collaborative CAP and CLIMAS research 
elaborated the mechanisms, focusing on spring snowpack and on fire 
season length and other fire parameters (Westerling et al., 2006). CIG 
research further distinguished climate-fire relationships for different 
eco-regions (Littell et al., 2008). ACCAP researchers recently 
developed a fire forecasting tool for use by agencies in firefighting 
asset management. These results have been of great interest to forest 
ecosystem managers, insurance companies, timber companies, and others.

4.4 Reflection on key elements
    In the examples just given, a central theme is the focus on user 
needs as the driving force, as well as on assessment and partnership as 
mechanisms to identify and fulfill need. In many cases the scientists 
took the lead in contacting stakeholders and educating them about 
emerging climate science, and piqued the institutional curiosity of the 
stakeholders. Two examples are the fire season outlooks and the use of 
climate model projections by municipal utilities. Growing interaction 
provides both the climate scientists and the stakeholders with insights 
regarding new products, for example the fire season outlooks, that 
could be developed and used. Social-science research also proved 
essential in stakeholder needs assessment.
    Another theme is the success of cross-institutional interagency 
interactions. The wildfire example was explicitly multi-agency, and it 
was a multi-agency institution that ultimately made climate an integral 
part of their operational efforts. The fire season outlooks include 
USFS; an array of NOAA entities, including CPC, ESRL, and NWS; IRI, 
Scripps ECPC, Regional Climate Centers, and the CLIMAS, CAP, WWA, 
ACCAP, and SECC RISAs.
    Moreover, SECC has forged a successful partnership with USDA and 
with the State climatologists of its three constituent states, Florida, 
Georgia, and Alabama. CIG annual workshops on water resources outlooks 
likewise involve USDA, NRCS, the NOAA River Forecast Center, and a 
close partnership with Idaho Department of Water Resources. Operational 
forecasts of coho salmon returns were developed in a collaboration 
between CIG and NOAA fisheries scientists (Lawson et al., 2004), and 
because the collaboration included agency scientists the result was 
both usable and influential. These partnerships, and many others, 
provide RISA teams with the broad expertise--and best practices--needed 
to carry out their mission of meeting stakeholder needs.
    Other partnerships extend internationally. The Pacific RISA emerged 
as a demand for climate research and policy from stakeholders 
established by the Pacific ENSO Applications Climate Center, which 
serves the U.S. client jurisdictions of American Samoa, Federated 
States of Micronesia, Guam, Hawaii, Northern Mariana Islands, Marshall 
Islands, and Palau. Partnerships extend across the Pacific to the Fiji 
Met Service, New Zealand's National Institute for Water and Atmospheric 
Research, Australia's Bureau of Meteorology, and Pacific regional 
environmental and disaster management organizations. These partnerships 
ensure value and consistency of climate information, and the network 
establishes the Pacific Climate Information System (PaCIS), a regional 
climate services example.
    CLIMAS in the southwest and CIG in the Northwest also have 
partnerships in Mexico and Canada respectively. Climatic, hydrologic, 
and ecological issues cross the border and cannot be solved without 
recognizing that fact. CIG has partnered with Canadian organizations 
like the Columbia Basin Trust as it grapples with climate change, and 
helped train hydrologists at the University of Victoria's Pacific 
Climate Information Consortium. One of CLIMAS' regular stakeholder 
publications, the bilingual monthly ``Border Climate Summary/Resumen 
del Clima de la Frontera'' is co-produced with colleagues in Mexico. 
CAP, along with many other university, State, federal and NGO partners, 
is centrally involved in an ongoing biennial assessment of California's 
vulnerability and adaptive capacity to climate change. The California 
experience has demonstrated that, when defined goals are set, the State 
Government and research community is able to collaborate across 
disciplinary lines to produce useful analyses and syntheses--this 
effort that has produced scenarios-based climate evaluations in 2006 
and in 2009 (Cayan et al., 2008; Franco et al., 2008; State of 
California, 2009).
    Placing climate information in the stakeholders' interdisciplinary 
decision context is also critical. WWA is working with a number of 
municipal and other large-scale water providers, who are trying to 
understand the sensitivity of their systems and supply to climate 
change, but the looming issue is how population growth and land use 
change will affect the equation. Fluctuations in salmon populations in 
the Northwest are best understood as climatically driven within the 
context of along decline in salmon habitat extent and quality.
    The examples given above are but a small subset of the climate 
services developed by the RISAs that would not have been possible 
without the inherently regional understanding, approach and presence of 
the university-based RISAs. Education, training and literacy-building 
was also integral, as was the production of a steady flow of graduate 
students and post doctoral researchers trained to do stakeholder-
driven, interdisciplinary climate research--many now work in other 
regions, have helped spawn new RISAs, or work in government agencies. 
Clearly, both climate variability and change are needed foci, and for 
example, many stakeholders originally focused on climate variability 
and skeptical of climate change, are now actively working on climate-
change adaptation strategies.
    Lastly, much of the regional RISA success in supporting 
stakeholders would have been impossible with out federal agency 
partners, particularly in NOAA, but in other agencies as well. The RISA 
program has successfully transferred a number of programs to their 
federal operational partners, and the national science enterprise 
(e.g., the Climate Change Science Program and the U.S. Global Change 
Research Program) is integral to RISA success at the regional level.

5. Implementation Advice

    Implementing a vision for national climate services will require 
careful deliberation including all major federal and non-federal 
partners, and we can do no more here than offer some thoughts based on 
the RISA experience. Primary issues to be addressed include governance 
structure, funding, and defining roles for federal agencies and 
nonfederal partners in a way that recognizes their respective missions, 
strengths, and limitations.
    Many RISAs were involved in the first U.S. National Assessment, a 
large climate-focused interagency effort whose strengths and weaknesses 
have been discussed elsewhere (Morgan et al., 2005). The National 
Assessment included five sectorally focused activities, 17 regionally 
focused activities, and one focused on native peoples and homelands. 
Among the lessons are (1) each regionally or sectorally focused 
activity had a lead federal agency as a partner and fonder, which 
ensured an uncluttered reporting structure on the team level; (2) 
perhaps the biggest strength was that regional teams almost all had 
strong participation by stakeholders; (3) sustained funding is required 
to sustain interactions with stakeholders; and (4) the Assessment 
needed ``a budgeting mechanism which would allow greater freedom in 
allocating resources across various assessment activities'' (Morgan et 
al., 2005).
    We note several other considerations of the federal context for 
National Climate Services. Though still in its early stages, the 
National Integrated Drought Information System (NIDIS) provides a 
working example of a multi-agency partnership intended to connect 
climate science to decision-makers. Another federal context for the 
development of climate services is the re-examination of the U.S. 
Global Change Research Act of 1990 and the Climate Change Science 
Program. The National Weather Service some years ago designated a 
``climate focal point'' at each weather forecast office, someone to 
discuss seasonal forecasts. These must be augmented by experts in 
climate dynamics, global change, water resources, and so on, at other 
federal and non-federal institutions, to build a climate service.
    Clearly the governance structure and funding must be designed so 
that participants particularly the regional decision-makers in 
society--are the primary drivers of climate services enterprise, and so 
that the whole is greater than the sum of its parts. This means 
ensuring that each federal agency has sufficient new funding, working 
authority, and intellectual motivation to engage in climate service 
activities that relate to its central mission, and to collaborate with 
other federal agencies and other partners. It also means that 
mechanisms be established so that regional stakeholders have a real say 
in setting funding priorities for all aspects of the climate services 
enterprise.
    The preeminence of NOAA in climate observations, research, and 
prediction, and the differences between the role of a climate service 
and the primary tasks of the other agencies, lend weight to the 
argument that NOAA should play a lead role overall, although certainly 
other agencies should appropriately play a lead role on specific topic 
areas. For example, USFS should clearly take the lead on forest 
management and planning in order to manage the massive land-cover 
transformations that are sure to be a part of world that is undergoing 
climate change.
    Another RISA lesson is that longer-term funding mechanisms ensure 
that regional partners, for example at universities, can entrain and 
sustain the stakeholder partnerships that are needed for success. The 
current NOAA model works well, with extended period grants (i.e., five-
year once a RISA is mature and proven) competed at five-year intervals 
for each region.
    Some RISAs are working examples of multi-agency partnerships as 
well, with funding and participation by USGS, USFS, USDA and others. 
University-based scientists, agency scientists, and agency managers 
collaborate on researching and developing new climate knowledge with 
clear applications in mind, and host frequent workshops to extend the 
connections to other partners, as discussed in some of the examples 
above. Some RISA participants have joint university--agency 
appointments, formally bridging the two institutional environments and 
ensuring better communication of research results to others within the 
agency. In the province of Quebec, a RISA-like entity called Ouranos 
takes such partnership one step further: personnel from several 
universities, one federal agency, the provincial hydropower company, 
and several provincial ministries interact daily because they all work 
together in the Ouranos office. Another example of successful regional 
multi-agency partnerships involves the co-location of NOAA Sacramento 
Weather Forecast Office and California Nevada River Forecast Center 
with the California Department of Water Resources' Hydrology, Flood 
Operations Office, and the State Climatologist. Federal and State staff 
work side-by-side to produce daily river forecasts, issue flood 
bulletins, water supply forecasts, and to share and exchange data. The 
added benefit to users comes from the regional integration of various 
sources of observations, forecasts, and expertise to produce internally 
consistent information.
    Governance of a climate service should probably include a cabinet-
level council, led by the Secretary of Commerce, to ensure agency 
cooperation and coordination at the highest level. A second, working-
level council involving all participating federal agencies and key non-
federal partners would oversee the climate services efforts in greater 
detail. Participation by non-federal partners would be crucial, since 
much of the on-the-ground connection to decision-makers happens in the 
RISAs, the regional climate centers, State climatologists, and private 
sector experts.
    Finally, we note that the Climate Working Group of NOAA's Science 
Advisory Board recommended considering four structural options for a 
national climate service:

        1.  Create a national climate service federation that would 
        determine how to deliver climate services to the Nation;

        2.  Create a non-profit corporation with federal sponsorship;

        3.  Create a national climate service with NOAA as the lead 
        agency with specifically defined partners; and

        4.  Expand and improve weather services into weather and 
        climate services within NOAA.

    An assessment of these four options is underway by NOAA and its 
partners.

6. Conclusions and outlook

    The RISA teams have successfully built knowledge-action networks to 
provide useful climate information, connecting the climate research 
enterprise with real-life situations where the outputs of that 
enterprise can materially improve the lives of Americans. These 
successes have required very modest investment and have had large 
payback to the Nation.
    The RISA teams also see huge gaps that a mature and well-designed 
National Climate Service could fill. One obvious gap is purely 
geographic: only about half the land area of the Nation is actually 
served by RISAs. Another gap is the fact that when a product or 
decision support tool is developed through RISA research, there is 
generally no obvious mechanism to provide a transition to an 
operational environment, as was done with the fire season outlooks.
    Three emerging issues need the kind of effort that only an NCS 
could provide. In all three of these cases, basic research can be 
connected to stakeholder needs through RISA efforts and/or a national-
scale sectoral research program--that is, the stakeholder demand 
already exists. The first is the need for vigorous research on decadal-
scale predictions with a goal of providing outlooks with skill 
demonstrated from hindcasts and with uncertainties properly 
characterized; such outlooks would help fill an oft-stated need of 
stakeholders. These predictions would be useful for a variety of 
decisions, but are not yet produced either by the seasonal forecasting 
entities like NCEP nor by the climate change simulations of IPCC.
    The second emerging issue concerns sea level rise, which is already 
a great concern for coastal communities from Alaska to the Pacific 
Islands to the Carolinas. Stakeholders want probabilistic guidance 
about sea level rise on a very fine spatial scale, overlaid on planned 
or existing infrastructure, beach slopes, inland estuaries, wetlands, 
and river deltas. Meeting these demands will require a concerted effort 
among ice sheet researchers, coastal oceanographers, wetlands 
scientists, and social scientists, to name a few. As a stopgap, a few 
RISAs have attempted to provide such guidance (e.g., Cayan et al., 
2007, Mote et al., 2008) but without the full complement of needed 
expertise.
    The third is a crosscutting issue, the issue of climate adaptation. 
Vigorous research in social sciences including economics, policy, and 
law, are needed in conjunction with climate and natural science 
research to provide tools and processes for building adaptive capacity, 
especially at the local to regional level. A significant step in this 
direction was the creation of a Guidebook for local, regional, and 
State governments (Snover et al., 2007), a joint effort of CIG and 
staff from King County (which includes Seattle), Washington, and all 
the RISAs are already in jeopardy of being overwhelmed by stakeholder 
demand for help in adapting to climate change (in addition to climate 
variability). Adaptation science and application must also be an 
integral part of the decision-making currently underway on alternative 
energy deployment and climate change mitigation--for example, regional 
adaption needs for land and water resources should be factored in as 
early as possible, and before costly mistakes are made.
    The RISA experience also highlights the central role that 
universities must play in NCS. Universities have a tradition of trusted 
regional stakeholder partnerships, as well as the interdisciplinary 
expertise--including social science, ecosystem science, law, and 
economics--required to meet stakeholder climate-related needs. 
Universities have a proven ability to build and sustain interagency 
partnerships. Universities excel in most forms of education and 
training. Universities also have proven innovation, entrepreneurship, 
technology transfer and capability for partnership with the private 
sector.
    RISAs have become a resource in their respective regions for 
dealing with climate variability and change in practical ways. When 
drought or climate change or sea level rise became a central issue for 
Bureau of Reclamation, U.S. Fish and Wildlife Service, U.S. Forest 
Service, and State governments in Alaska, Washington, Idaho, 
California, Florida, and elsewhere, these stakeholders turned to RISAs 
for technical, intellectual, and policy assistance.
    A well-funded, carefully designed, and properly governed NCS will 
meet the rapidly growing needs for applied climate information, drawing 
together partners from federal agencies, academic partners, private 
sector, State climatologists, and other experts. The experiences in the 
RISA program offer many useful lessons in the design of an NCS.

7. References Cited

Barnett, T.P., D.W. Pierce, H.G. Hidalgo, C. Bonfils, B.D. Santer, T. 
        Das, G. Bala, A.W. Wood, T. Nozawa, A.A. Mirin, D.R. Cayan, and 
        M.D. Dettinger, 2008: Combining a regional hydrologic and 
        global climate model implies that human-caused CO<INF>2</INF> 
        emissions have already greatly changed river flows and snow 
        pack in the western United States. Science 319 (5866), 1080. 
        [DOI: 10.1126/science.1 152538]

Brown, T. and C. Kolden, 2007. The Science of Fire: New technologies at 
        the Desert Research Institute make a difference in wildland 
        fire management. Wildland Firefighter 9:28-29.

California Department of Water Resources, 2007: Proceedings of the May 
        2007 Climate Change Research Needs Workshop. Sacramento, CA: 
        California Department of Water Resources.

California Department of Energy 2009: DRAFT 2009 Climate Action Team 
        Biennial Report to the Governor and Legislature http://
        www.energy.ca.gov/2009publications/CAT-1000-2009-003/CAT-1000-
        2009-003-D.PDF

Carbone, G.J., J. Rhee, H. Mizzell, and R. Boyles, 2008. A regional-
        scale drought monitor for the Carolinas. Bull. Amer. Meteorol. 
        Soc. 89(1):20-28.

Cayan, DR., P.D. Bromirski, K. Hayhoe, M. Tyree, M.D. Dettiinger, and 
        R.E. Flick, 2007: Climate change projections of sea level 
        extremes along the California coast. Climatic Change, 10.1007/
        s10584-007-9376-7.

Cayan, D.R., A.L. Luers, G. Franco, M. Hanemann, B. Croes and E. Vine, 
        2008: Overview of the California climate change scenarios 
        project. Climatic Change, 87, (Suppl 1):S1-S6, doi:10.1007/
        s10584007-9352-2.

Corringham, T., A.L. Westerling and B. Morehouse, 2008: Exploring Use 
        of Climate Information in Wildland Fire Management: A Decision 
        Calendar Study. Journal of Forestry, 106(2):71-77.

Dettinger, M.D., and S. Culberson, 2008: Internalizing climate change--
        Scientific resource management and the climate change 
        challenges. San Francisco Estuary and Watershed Science, 6(2), 
        Article 6

Franco, G., D. Cayan, A. Luers, M. Hanemann and B. Croes, 2008: Linking 
        climate change science with policy in California. Climatic 
        Change, 87, (Suppl 1):S7-S20, doi:10.1007/s10584-007-9359-8.

Garfin, G.M., Wordell T., Brown T., Ochoa R., and Morehouse B. 2003. 
        National Seasonal Assessment Workshop Final Report, February 
        25-28, 2003, Mesa Arizona. Tucson, AZ: Institute for the Study 
        of Planet Earth, Univ. of Arizona, 24 pp.

Greenfield, R.S. and G.M. Fisher, 2003. Improving Responses to Climate 
        Predictions: An Introduction. Bull. Amer. Meteorol. Soc. 
        84(12):1685-1685.

Hamlet, A.F., D. Huppert, and D.P. Lettenmaier. 2002. Economic value of 
        long-lead streamflow forecasts for Columbia River hydropower. 
        ASCE Journal of Water Resources Planning and Management 
        128(2):91-101.

Healey, M., M. Dettinger and R. Norgaard, 2008: State of the science 
        for the Bay-Delta system--Summary for policy-makers and the 
        public: CALFED Science Program Report, 19 pp.

McKenzie, D., Z. Gedalof, D. Peterson, and P. Mote, 2004: Climatic 
        Change, Wildfire, and Conservation. Conservation Biology 
        18(4):890-902.

Miles. E.L., A.K. Snover, L.C. Whitely Binder, E.S. Sarachik, P.W. 
        Mote, and N. Mantua, 2006: An approach to designing a national 
        climate service. Proceedings of the National Academy of 
        Sciences, 103, 19616-19623.

Morehouse, B., 2000. The Implications of La Nina and El Nino for Fire 
        Management. Tucson, AZ: Institute for the Study of Planet 
        Earth, The University of Arizona, 45 pp.

Morgan, M.G., R. Cantor, W.C. Clark, A. Fisher, H.D. Jacoby, A.C. 
        Janetos, A.P. Kinzig, J. Melillo, R.B. Street, and T.J. 
        Wilbanks, 2005: Learning from the U.S. National Assessment of 
        Climate Change Impacts. Environ. Sci. Technol., 39, 23, 9023-
        9032, 10.1021/ es05O865i

Mote, P.W., A. Petersen, S. Reeder, H. Shipman, and L.C. Whitely 
        Binder, 2008. Sea Level Rise Scenarios for Washington State. 
        Report prepared by the Climate Impacts Group, University of 
        Washington, Seattle, and the Washington Department of Ecology.

National Research Council, 2001. A Climate Services Vision. Washington, 
        DC: National Academy Press. 96 pp.

National Research Council, 2005. Decision-Making for the Environment. 
        Washington, DC: National Academy Press. 296 pp.

Ray, A.J. 2004, Linking climate to multi-purpose reservoir management: 
        Adaptive capacity and needs for climate information in the 
        Gunnison Basin, Colorado. Dissertation, University of Colorado 
        Dept. of Geography, 328 pp.

Snover, A.K., L.C. Whitely Binder, J. Lopez, E. Willmott, J.E. Kay, D. 
        Howell, and J. Simmonds. 2007. Preparing for Climate Change: A 
        Guidebook for Local, Regional, and State Governments. In 
        association with and published by ICLEI-Local Governments for 
        Sustainability, Oakland, CA.

Wilhite, D.A. and M. Buchanan-Smith, 2005. Drought as hazard: 
        understanding the natural and social context. In D.A. Wilhite 
        (ed.), Drought and Water Crises: Science, Technology, and 
        Management Issues. Boca Raton, Taylor and Francis, pp. 3-29.

Woodhouse, C.A. and J.J. Lukas, 2006. ``Drought, tree rings, and water 
        resource management.'' Canadian Water Resources Journal 31:297-
        310.

    This document was prepared by Cheryl Anderson (Pacific), Dan Cayan 
(CAP), Mike Dettinger (CAP), Kirstin Dow (CISA), Holly Hartmann 
(CLIMAS), Jim Jones (SECC), Ed Miles (CIG), Philip Mote (CIG), Jonathan 
Overpeck (CLIMAS), Mark Shafer (SCIPP), Brad Udall (WWA), and Dan White 
(ACCAP). For contact information, please go to the RISA web site at: 
http://www.climate.noaa.gov/cpo<INF>-</INF>pa/risa/

                      Biography for Philip W. Mote

    Prof. Mote serves as Director of the Oregon Climate Change Research 
Institute and Oregon Climate Services at Oregon State University, and 
is a Full Professor in the College of Oceanic and Atmospheric Sciences. 
Until July 2009 he also works at University of Washington (UW) as a 
research scientist with the Climate Impacts Group, where since 1998 he 
has built the group's public profile through hundreds of public 
speaking events, over a thousand media interviews, deep engagement with 
the region's stakeholders, and ground-breaking research in the impacts 
of climate change on the West's mountain snow and on wildfire. He has 
published over 70 scientific articles and edited a book on climate 
modeling. He serves as State climatologist for Washington and, as 
Director of Oregon Climate Services, serves in a similar role there. He 
was a lead author of the IPCC Fourth Assessment Report; the IPCC was 
awarded the Nobel Peace Prize in 2007. In 2008 he received the UW 
Distinguished Staff Award and was named one of the region's 25 most 
influential people by Seattle Magazine. He earned a Ph.D. in 
atmospheric sciences from UW and a BA in physics from Harvard.

    Chair Baird. Thank you. Mr. Hirn.

     STATEMENT OF MR. RICHARD J. HIRN, GENERAL COUNSEL AND 
   LEGISLATIVE DIRECTOR, NATIONAL WEATHER SERVICE EMPLOYEES 
                          ORGANIZATION

    Mr. Hirn. Chairman Baird, Ranking Member Inglis, and 
Members of the Subcommittee, thank you for offering the 
National Weather Service Employees Organization the opportunity 
to present its views on options for developing a National 
Climate Service.
    It is our view that the creation of a National Climate 
Service as a separate line office within NOAA is unnecessary, 
because it would duplicate the historic and current mission, 
program, and services of the National Weather Service, and will 
inevitably result in a reduction of resources for the Weather 
Service.
    Today, nearly 1,000 employees of the Weather Service are 
performing climate service work as a key element of their jobs. 
The NWS already operates the surface and upper air observing 
systems that are the basis of the Nation's climate record. It 
conducts applied climate prediction research, and issues an 
extensive array of climate forecasts and outlooks. Moreover, 
the entire Weather Service has integrated climate into its 
current weather forecast and warning activities. Therefore, the 
new National Climate Service should be created as an entity 
within the National Weather Service, or the National Weather 
Service should be re-chartered as the National Weather and 
Climate Service, which in fact, is a better descriptor of its 
current mission.
    Much of what a National Climate Service would do is already 
being done by the Weather Service's Climate Prediction Center 
in Camp Springs, Maryland. The CPC performs global climate 
modeling, engages in applied climate research, issues 
predictions of climate variability, and assessments of the 
origins of major climatic anomalies.
    Among its many climate products are the Atlantic and 
Eastern Pacific Hurricane Outlooks, the Seasonal Drought 
Outlooks disseminated by the National Integrated Drought 
Information System, and El Nino and La Nina Climate Forecast. 
The CPC even provides climate forecasts that assist the USAID 
with famine relief in Africa, Southeast Asia, South and Latin 
America, and Afghanistan.
    Climate services are also fully integrated within the 
National Weather Service field organization and forecasting 
offices across the country, from acquiring national climatic 
data to producing and disseminating climate predictions. There 
is a Climate Service Program at each Weather Service regional 
office. Each of the Weather Service's 122 forecast offices 
issues a variety of climate products several times a day, and 
manages the government's Climate Monitoring Network. The data 
provided by this network is used for the management of water 
resources, prediction of crop yields, and the study of climate 
variability.
    A number of the findings and recommendations contained in 
the Science Advisory Board's recent report on options for a 
climate service lead to the conclusion that a National Climate 
Service should be embedded within the Weather Service. First 
amongst the SAB's recommendations was that: ``An internal 
reorganization of NOAA that enables greater connectivity of 
weather and climate functions is a necessary step for 
success.'' Therefore, rather than standing up the National 
Climate Service as a separate new agency, NOAA should 
consolidate the disparate climate programs in other NOAA line 
offices with the climate service programs already provided by 
the National Weather Service. The SAB also concluded that: 
``From every practical standpoint, this option is the simplest 
to implement.'' In other words, we already have a shovel-ready 
National Climate Service.
    The alternative, which has been proposed by NOAA, is to 
sever weather from climate by some arbitrary temporal 
distinction between the two, or worse yet, duplicating services 
and programs already delivered by the Weather Service. Not only 
would this be a waste of resources, but there would be no 
authoritative voice in climate matters.
    As the SAB noted in its findings: ``The greatest strength 
of a combined Weather and Climate Service are an ability to 
speak with an authoritative voice, build quickly from existing 
components of a Climate Service, and an ability to ensure one 
stop shopping if weather and climate functions are 
integrated.''
    Finally, it is not possible to transfer the ongoing climate 
services performed by the NWS into another line agency, since 
they are so functionally integrated with the day to day 
operations of the Weather Service, and are widely dispersed 
among over 150 NWS offices. Prediction of the climate cannot be 
severed from prediction of the weather.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hirn follows:]

                 Prepared Statement of Richard J. Hirn

    Chairman Baird, Ranking Member Inglis, and Members of the 
Subcommittee. Thank you for offering the National Weather Service 
Employees Organization the opportunity to present its views on the 
options for developing a National Climate Service. As you may be aware, 
NWSEO represents not only the forecasters and technicians at the 
National Weather Service, but employees throughout NOAA, including 
employees at OAR and NESDIS.
    It is our view, and that of many in National Weather Service 
management, that the creation of a National Climate Service as a 
separate line office within NOAA would be an unnecessary expense 
because it would duplicate the historic and current mission, programs 
and services of the National Weather Service, and will inevitably 
result in a reduction of resources for the NWS.
    Today, nearly 1,000 employees of the National Weather Service are 
performing Climate Service work as a key element of their jobs. The NWS 
already operates surface and upper air observing systems, monitors 
climate variability in real time over a broad range of time scales, 
conducts applied climate prediction research, and issues an extensive 
array of climate products and information, including climate forecasts 
and outlooks. Moreover, the entire National Weather Service workforce 
has climate integrated into its current weather forecast and warnings 
activities. NWS Director Jack Hayes has said that the NWS is ``at the 
forefront of climate service delivery to this nation'' and ``is 
critical to . . . advancing NOAA's mission goal for a National Climate 
Service.''
    Therefore, the new National Climate Service should be created as an 
entity within the National Weather Service, or the NWS should be re-
chartered as the ``National Weather and Climate Service,'' which is in 
fact a better descriptor of its current mission.

The NWS is already the Nation's ``National Climate Service''

    According to National Weather Service Policy Directive 10-10, 
issued by NWS Director Jack Hayes on January 29, 2008:

         Provision of climate services, in particular the monitoring of 
        variations in climate and climate forecasting, is essential to 
        mitigate the loss of life and property and to enhance the 
        national economy. The NWS is the federal agency charged with 
        delivering these services to the U.S., its territories, and, as 
        appropriate, its interests abroad.

         http://www.weather.gov/directives/010/010.htm

    Much of what a National Climate Service would do is already being 
done by the Climate Prediction Center (CPC) in Camp Springs, Maryland 
which is part of the National Weather Service. The CPC performs global 
climate modeling, issues predictions of climate variability, and 
assessments of the origins of major climate anomalies. Among its many 
climate products are the Atlantic and Eastern Pacific hurricane 
outlooks; the seasonal drought outlooks disseminated by the National 
Integrated Drought Information System; and El Nino/La Nina climate 
forecasts. In January alone, over 30 million visitors obtained climate 
forecasts from the CPC's website.
    The International Weather and Climate Monitoring Project at the CPC 
provides climate forecasts that assist the USAID with famine relief in 
Africa, Southeast Asia, South and Latin American and Afghanistan. The 
CPC's Africa Desk works with the governments of over 30 countries in 
sub-Sahara Africa by providing climate monitoring and predictions. The 
CPC trains twelve meteorologists a year from Africa in climatology 
during a four month residency program.
    The CPC provides climate forecasts out to thirteen months, and with 
modest additional resources, it could produce climate outlooks covering 
decadal time frames. The CPC engages in applied climate research; makes 
assessments of climate variability and climate anomalies; and provides 
services to other federal agencies such as the Departments of 
Agriculture and Energy, FEMA and the EPA, as well as foreign 
governments, academia, and private sector agricultural, energy, 
construction, insurance, and leisure industries.
    Climate services are also fully integrated within the NWS' field 
organization and forecasting offices across the Nation, from acquiring 
national climatic data to producing and disseminating climate 
predictions.
    The NWS Organic Act of 1890 charges the NWS with the responsibility 
for ``the taking of such meteorological observations as may be 
necessary to establish and record the climatic conditions of the United 
States.'' The Nation's official climate record is based largely on 
observations from the NWS' Cooperative Observer Program. The COOP 
program consists of 11,400 observation stations that report daily 
minimum and maximum temperatures, precipitation, snowfall, snow depth 
or hydrological data. This network, along with about 1,000 Automated 
Surface Observation Stations, forms the Federal Government's weather 
and climate monitoring network. The data provided by this network is 
used for real time forecasting, management of water resources, 
prediction of crop yields, and the study of climate variability.
    There is a ``Climate Services Program'' at each NWS Regional 
Office. For example, the NWS Alaska Region's Climate Services Program 
centers around a number of indicators of climate change in Alaska and 
the Arctic: sea ice melt and retreat; glacier melt; warming 
temperatures; thawing permafrost with loss of infrastructure; 
precipitation pattern shifts, coastal erosion and flooding; ecosystem 
shifts; and potential health epidemics. The Alaska Region's Climate 
Services Program is addressing observations, monitoring, and 
assessments with its partners and collaborators to provide new climate 
products for a changing climate and is making this information 
available to local and regional decision-makers and the general public. 
As part of this effort, the NWS Alaska Region has partnered with the 
Alaska Center for Climate Assessment and Policy to provide monthly 
Alaska weather and climate highlights on a web site.
    The NWS Central Region's Climate Services Program covers 
agriculture, bio-energy, and drought impacts and planning. It 
disseminates information, including climate change, weather/climate 
data, water and drought planning information, through many entities, 
including extension services, State climate offices, various academic 
institutions, and other decision-makers.
    Each of the 122 Weather Forecast Offices routinely issues climate 
products, including the ``Supplementary Climate Data Report'' every six 
hours, ``Daily Climate Report'' two or three times a day for several 
locations, a ``Monthly Climatological Report'' and National Drought 
Information Statements.
    The Science Advisory Board's Report noted that the ``NWS field 
offices are highly visible points-of-contact for a wide range of 
[climate] information requests.'' The National Weather Service has 
published a comprehensive plan or ``Operations Document'' for 
``Regional and Local Climate Service Delivery'' (November 2007) which 
charges the staff at the Forecast Offices and other local NWS offices 
with the responsibility for outreach and education in each office's 
area of responsibility on climate products, data and information. 
http://www.weather.gov/om/csd/graphics/content/about/Ops2.pdf One of 
the forecasters at each WFO serves as a ``Climate Services Focal 
Point,'' but other Forecast Office staff members respond to public 
climate information inquiries as well. Forecast Offices conduct 
workshops targeted to local audiences (media, agriculture sector, 
energy and weather risk management industries) to educate customers on 
the potential uses and availability of climate resources and to gather 
feedback on climate products and services. Local Forecast Offices are 
also charged with establishing and maintaining partnerships with other 
members of the climate community in the local area, including the 
Regional Integrated Science and Assessments (RISAs), universities, 
State Climate Offices and the Regional Climate Centers. Forecast Office 
staff are also charged with conducting climate analyses at scales 
important to local customers. Attached to this testimony is a sample 
page from the Tampa Forecast Office's web site which illustrates some 
of the kinds of climatic information disseminated by local Forecast 
Offices.
    In addition, the ``Observational Program Leader'' (OPL) and the 
Hydrometeorological Technicians at each Forecast Office manage the 
Cooperative Observer Program--a prime element in recording the Nation's 
climate. The OPLs are charged with maintaining the climate 
observational equipment while also recruiting and training the 
thousands of observers who comprise the ``citizen corps'' of NWS 
climate observers. Each office maintains the Automated Surface 
Observation Systems in the WFO's area of responsibility. Twice a day, 
specially trained and certified staff at 70 Forecast Offices launch 
instrumented weather balloon packages to collect current atmospheric 
data critical to atmospheric predictive modeling and to establish the 
earth's climate profile up through the stratosphere.
    The Anchorage Weather Forecast Office Sea Ice Desk performs Sea Ice 
analysis, Sea Surface temperature analysis, and Sea Ice Forecasts for 
the North Pacific/Bering Sea and portions of the Arctic Ocean. The 
changes in Sea Ice coverage shown by these analyses are an important 
indicator of climate change.
    The 18 smaller Weather Service Offices in Alaska and Pacific 
Regions also launch and collect data from instrumented weather balloons 
and respond to public climate information inquiries. Some also daily 
issue climate products such as the Supplementary Climate Data Report 
and Daily Climate Report. Four WSOs in Alaska take sea-ice and sea 
surface temperature observations. The duration of open waters is very 
important to determining Arctic sea ice climate change.
    The 13 NWS River Forecast Centers collect and archive hydrological, 
snowfall, snowpack depth and rainfall data. Some offices have collected 
over 100 years of historical data. The River Forecast Centers are also 
responsible for Flood Climatology and Flood Frequency Program data 
collection and archiving vital for FEMA and flood insurance. The Alaska 
RFC collects and archives river and lake freeze-up dates and ice 
thickness measurements, which are important indicators of climate 
change in the region where climate change is now occurring the fastest.
    The Climate Services Division at the NWS headquarters acts as the 
portal for NOAA information on climate change and variability, oversees 
the NWS's operational climate services programs, identifies user 
requirements for climate data and products, and develops training on 
climate services for NWS field staff.
    Other federal agencies, such as the Department of Agriculture, use 
the aforementioned NWS generated climate data, products and services to 
administer and oversee nearly $1 billion in pasture, rangeland, and 
forage insurance products. State and Federal Wildland Fire agencies use 
NWS climate forecasts for wildland fire planning purposes.

NWSEO agrees with many of the Recommendations and Findings of the NOAA 
                    Science Advisory Board

    A number of the findings and recommendations contained in the NOAA 
Science Advisory Board's report, ``Options for Developing A National 
Climate Service'' (February 2009), lead to the conclusion that the 
National Climate Service must be embedded in the National Weather 
Service. In evaluating the question of whether the National Weather 
Service should serve as the platform for a National Climate Service, 
the NOAA Science Advisory Board concluded that, ``from every practical 
standpoint, this option is the simplest to implement.'' Therefore, 
rather than standing-up the National Climate Service as a separate line 
office, NOAA should quickly consolidate the disparate climate programs 
in other NOAA line offices with the climate service programs already 
provided by the National Weather Service.
    First among the SAB Report's recommendations is that an ``internal 
reorganization of NOAA that enables greater connectivity of weather and 
climate functions is a necessary step for success.'' Also among the 
Report's findings is that ``the current NOAA organization is not well-
suited to the development of a unified climate services function. 
Greater connectivity between weather and climate functions . . . is 
required.'' The SAB ``tiger team'' that studied the National Weather 
Service recommended that three NOAA data centers (the National Climate 
Data Center, National Oceanographic Data Center and National 
Geophysical Data Center) be transferred from NESDIS to the NWS as part 
of a new ``National Weather and Climate Service'' to more fully 
integrate climate services in one agency. Consolidation of these data 
centers with the climate programs of the NWS would link the new Weather 
and Climate Service to the Regional Climate Centers and State 
Climatologists because of their existing ties to the NCDC. As the SAB 
``Tiger Team'' explained, ``[t]his organization simplifies the seamless 
distribution of information ranging from past history through present 
conditions to weather forecasts and forecasts of inter-seasonal to 
inter-annual.'' As noted earlier, with additional resources, the 
Climate Prediction Center can extend it predictions and assessments to 
the decadal time frame.
    The SAB also concluded that ``greater connectivity between . . . 
research, operations and users is required.'' Therefore, NWSEO suggests 
that the Climate Program Office in NOAA's Office of Oceanic and 
Atmospheric Research also be transferred to the NWS. The CPO is already 
co-located with NWS headquarters in Silver Spring, MD. At a minimum, 
consideration should also be given to transferring the Climate 
Observations Division of OAR's Climate Program Office to the new 
Weather and Climate Service. This Division has three operational 
observing programs--Ocean Climate Observation, Arctic Research Program 
and Atmospheric Climate Observations. This would link these real-time 
weather and climate observation programs with the observation programs 
now maintained by the NWS, as well as the new observation network (the 
``Climate Reference Network'') being spun-up by the NCDC.
    The alternative--which has been proposed by NOAA leadership--is to 
sever weather from climate by some arbitrary temporal distinction 
between the two; or, worse yet, to duplicate services and programs 
already delivered by the National Weather Service. Not only would this 
be a waste of resources, but there would be no authoritative voice on 
climate matters. As the SAB noted in its findings, ``the greatest 
strength of a . . . combined weather and climate service are an ability 
to speak with an authoritative voice, build quickly from existing 
components of a climate service . . . and an ability to ensure `one-
stop shopping' if weather and climate functions are integrated.''
    Further, it is not possible to transfer the ongoing climate 
services performed by the National Weather Service to another line 
agency, since they are so functionally integrated with the day-to-day 
operations of the National Weather Service and are widely dispersed 
through among over 150 NWS offices. Moreover, prediction of the climate 
cannot be severed from prediction of the weather. Today's climate 
prediction will eventually become tomorrow's weather forecast; and come 
tomorrow, today's weather will be part of our climate history.
    The SAB ``Tiger Team'' that studied the option of creating a new, 
not-for-profit National Climate Service noted that this option would 
create ``potential competition with NWS offices'' and would not be able 
to speak with an authoritative voice like the NWS. The Report failed to 
address the question of what would become of the climate services 
already performed by the National Weather Service--an issue which NOAA 
has also ignored in the development of its proposal to create the 
National Climate Service as a new line agency elsewhere in NOAA. We 
have, however, heard from NWS management that there are already 
proposals to transfer personnel and funding (specifically the personnel 
and funding that relate to the Historical Climatology Network) from the 
National Weather Service to NCDC as part of a plan to evolve NCDC into 
the new National Climate Service.
    In short, the Nation already has a ``shovel-ready'' Climate 
Service. With some additional resources, the National Weather Service 
can augment the panoply of climate services that it already provides in 
order to meet the Nation's evolving needs for climate analysis and 
prediction. Thank you, Mr. Chairman, for allowing us to share our views 
with the Subcommittee on this important issue.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for Richard J. Hirn

    Richard J. Hirn is an attorney whose practice focuses on labor, 
civil rights, constitutional and administrative law and litigation. Mr. 
Hirn's cases have pioneered unique theories in constitutional law, 
employment discrimination, labor relations and other legal matters 
having public impact. For example, he litigated the first case of 
Hawaiian national origin discrimination, Kahakua et al v. Friday. This 
case was the subject of a special report on All Things Considered, 
broadcast on National Public Radio, and was the subject of an article 
in the centennial issue of The Yale Law Journal, ``Voices of America: 
Anti-discrimination Law and the Jurisprudence for the Last 
Reconstruction.'' Mr. Hirn has been responsible for significantly 
expanding the collective bargaining rights of federal employees and 
their unions. Mr. Hirn represented the Fort Stewart Association of 
Educators before the Supreme Court, which ruled that Congress intended 
for federal agencies to bargain over wages unless salaries were 
specifically set by law. As a result of this unanimous Supreme Court 
decision, Fort Stewart Schools v. FLRA, 495 U.S. 641 (1990), wage 
negotiations became routine in a number of federal agencies.
    Representative clients include national labor unions in both the 
private and public sectors, including the Nation's two largest teacher 
unions, federal employee unions, and those in the maritime and 
transportation industries. As part of his Washington, D.C. based 
practice, he has represented numerous labor organizations before 
Congress and federal agencies.
    Among the unions that Mr. Hirn represents is the National Weather 
Service Employees Organization. He has served as General Counsel of 
NWSEO since 1981 and has represented the organization in federal courts 
throughout the country, in collective bargaining and in labor 
arbitrations and has been quoted as its official spokesperson in New 
York Times, Washington Post, USA Today and other major daily 
newspapers; and interviewed on NBC's Dateline and on National Public 
Radio. Over the years, Mr. Hirn has visited scores of NWS and NOAA 
offices from San Juan, Puerto Rico to Lihue, Hawaii and Kodiak, Alaska. 
Since 2004, Mr. Hirn has also served as NWSEO's Legislative Director, 
and has testified before subcommittees of the House Science and 
Appropriations Committees on NWSEO's behalf.
    Mr. Hirn was a member of the Obama Campaign's Labor, Employment and 
Worklife Policy Committee. He served as an elected Delegate to the 2004 
Democratic National Convention as well as an Alternate Delegate to the 
1972 Democratic National Convention.
    Prior to entering private practice, Mr. Hirn was an attorney for 
the National Labor Relations Board. He was awarded a Juris Doctor 
degree by American University in 1979 and a B.A. in Political Science 
by Haverford College in 1976.

                               Discussion

    Chair Baird. Thank you, Mr. Hirn. Very interesting and 
thought provoking testimony. I should mention we have also been 
joined by Mr. Tonko. Thank you very much for joining us.

                    Successes of Climate Forecasting

    I will recognize myself for five minutes. Let me start by 
just getting a sense of what it is we have to offer here, in 
terms of accuracy and benefits. When someone comes and says 
okay, I need a climate forecast, and I thought Dr. Barron, your 
testimony was very eloquent, you know, and you listed the 
various reasons for doing it: human health, food security, 
disaster preparedness, energy, basically every aspect of our 
life is in some way going to be influenced by this, is 
influenced by it. The question is how we are able to prepare 
for that.
    Give us some examples of where someone has, an entity has 
come and said give us a climate forecast, and that climate 
forecast has been given, and it has been beneficial 
economically, or in human health, et cetera. Have we got some 
success stories?
    Dr. Mote. Well, the RISAs have a number, sorry, the RISAs 
have a number of such success stories. One example was actually 
a partnership among several of the Western RISAs to cooperate 
with several federal agencies, to come up with a seasonal 
wildfire outlook. There are climatic aspects to wildfire risk, 
and this helps position resources, and this effort has been 
going on for a number of years. I have mentioned water 
resources. Energy is another one. There are linkages up and 
down the West Coast on energy supply. With hydropower, we know 
what the fuel availability is several months in advance, just 
based on the snow on the ground, but using a seasonal forecast, 
we can expect shifts in the probabilities of that fuel even 
several months in advance of that.
    I could give you many other examples.
    Chair Baird. That is a good start. Dr. Barron.
    Dr. Barron. I was going to add, for example, that major 
cities in the United States, notably New York City and Chicago, 
both have developed climate plans that are influencing their 
decisions about infrastructure renewal, because that 
infrastructure is required to exist for many, many decades, 
as----
    Chair Baird. If I built something that may one day be below 
sea level, and you need it to be above sea level, that is----
    Dr. Barron. Right, for which the water resource will 
change, as another example.
    Chair Baird. Excellent points.
    Dr. DeGaetano. Mr. Chairman, can I----
    Chair Baird. Please.
    Dr. DeGaetano.--on that? In New York, we are also looking 
at extreme rainfall, like Dr. Lubchenco mentioned earlier. We 
are not looking at just the big rainfall events, but kind of 
relating those to what we--from water or runoff in any of our 
cities. It is that the stakeholders actually base their 
decisions on, and providing them data based on the trends we 
have seen in the past years.
    Chair Baird. So, you are giving them predictions, this is 
what we think is likely to happen the next 10, 20, 50 years.
    Dr. DeGaetano. Correct. The Administrator also alluded to 
that in her discussion, that the state-of-the-art, as far as 
climate modeling, is not enough to make those projections 
accurately out into the future. So, in that case, we do have to 
rely upon the trend that we have seen, to give some uncertainty 
in how to do it, if you are looking to build infrastructure 
that has a lifetime of 50 years, you don't want to go into that 
decision blindly, based on just some static record----
    Chair Baird. Right.
    Dr. DeGaetano.--that is assumed to be stationary.

                More on Structuring the Climate Service

    Chair Baird. Let us go into, then, this issue of, if we 
acknowledge that there can be benefits from this, let us talk a 
little bit about possible structures for this. We have heard 
Mr. Hirn suggest that maybe, they would, he would assert, his 
organization would assert that the Weather Service is basically 
already providing this. It needs to be possibly given that 
title and acknowledgment. Others have said there needs to be a 
separate or coordinating entity, that coordinates the various 
elements, perhaps Weather Service with the RISAs, et cetera.
    What are the pros and cons of the different models, and I 
am going to leave that somewhat open, and Dr. Barron, I thought 
you were suggesting, you acknowledged a high level, possibly, I 
don't know if you said OSTP, but it sort of came to my mind, 
and Dr. Lubchenco had mentioned it. But then, it sounded like 
you talked about a nonprofit third entity, and let us talk 
about the pros and cons of that.
    Dr. Barron, talk about that first, and then, if somebody 
wants to respond to Mr. Hirn's suggestion, pros and cons of 
that, and vice versa.
    Dr. Barron. Okay. So, I really think that we need many 
facets. No, one of the things that came out of the option 
report is none of those options were perfect. So, for instance, 
you may be able to stand up something quickly in NOAA, but how 
does NOAA partner with all of those other federal agencies? 
That requires something that is quite different, in order to 
ensure that everybody is participating.
    We have seen a lot of examples where we have created 
something like a National Carbon Program, but then, if one 
agency, because of other competing missions, doesn't involve 
themselves in it, it starts to fall apart, and it is no longer 
even close to what it is that you had set up. So, it cannot 
just be adding climate to weather. I think that is a rather 
different topic. So, that is one element of it there, to have 
that integration at a federal level, and I think, as high up in 
the structure as possible, and OSTP certainly makes sense.
    But I think there is this other sense that we have a lot of 
users that cross all these boundaries that we are talking 
about. So, should every city have to redo the research 
themselves? Or if you are sitting there looking at oil rigs 
offshore, in many, many different states, can they all sit 
there at the table and work together, and generate the research 
that works on that? Or if you are looking at hurricane 
forecasting, do you have that capability? You wouldn't want to 
regionalize that.
    And so, I think there was a sense among the options 
committee that an entity, a nonprofit, a facility, a center 
that promoted this, in terms of research and connecting to 
users was something that is important. There are many users out 
there that have a sense of what they want. And if you throw the 
data over the transom, they will go grab it. There are many, 
many other users who haven't realized the potential here yet. 
They are beginning to think about something. It is in three or 
four different places. They need some capability to integrate 
that. So, my feeling is this isn't a single story here that we 
have to facilitate.
    Chair Baird. So, we are not necessarily one, the style that 
we are asking for, what is the one climate prediction, but what 
is the source one goes to to gather the multitude of 
perspective?
    Dr. Barron. And where do you go for help.
    Chair Baird. Yeah. Mr. Hirn.
    Mr. Hirn. Well, I have some concerns about this nonprofit 
federation that is outside the government. I question, of how 
much oversight that this committee and other Congressional 
committees would be able to give to that. I fear that that is 
just going to become a source of earmarking or maybe a source 
of pet projects, as time goes by, and would rather see it being 
done by a federal agency that is responsive to the public and 
the Congress.
    I note that in Dr. Lubchenco's written testimony, and 
certain public statements she has made, she has talked about 
making it, using the National Weather Service as a model of 
private and public partnership for this National Climate 
Service. NOAA has not yet answered to anyone, and nor to the 
employees of the Weather Service, why would you use the 
National Weather Service as a model for this, rather than just 
continue to use the Weather Service for actually carrying it 
out, much as they do today?
    Chair Baird. I recognize Mr. Inglis for five minutes.

                How Existing Climate Offices Coordinate

    Mr. Inglis. Thank you, Mr. Chairman. I am still wondering 
about the, whether we are creating an overlap here, and 
whether, how to make this most efficient.
    And as I understand it, I really am sort of unclear, so 
maybe you can help me understand the difference between what 
the work of the RISAs and the Regional Climate Centers, and the 
State climate offices. They work together, but they don't 
provide the same services. So, I wonder, are all three needed, 
or how much duplication is there between those three, the 
RISAs, the Regional Climate Centers, and the State climate 
offices?
    Dr. DeGaetano. Can I respond, Mr. Inglis? I was actually 
going to respond the same way to the previous question. What 
are the problems with having a large federal entity, be it a 
nonprofit or the Weather Service, kind of a place to go, is 
that the other side of climate services is the other way 
around. It has to be active. What we have seen in any number of 
years, in a lot of cases, like Dr. Barron said, you can't just 
throw the data over the transom and have people come to them. 
But you actually have to actively go out and seek out these 
people and talk to them. A good example is, I work with West 
Nile virus. You know, it was us going out and speaking to the 
people from New York City who control the mosquito population, 
public health officials, where we got the understanding of what 
were the climate issues in this problem.
    It is very hard to do that from one place, be it regional, 
be it national. When you get down to the State level, or even 
the local-er levels than that, that is where those trust-based 
relationships are. You can think of the Service as almost like 
a funnel, where that information comes up, those ideas are 
generated, but when the Service becomes operational, when data 
go out, when models are developed, you have to make sure that 
these are all being based on the same data, the same models, 
the same ideas. That is where the regional comes into play.
    You can think of it almost as the airline system, where 
perhaps the regional area is the hubs, and the State 
climatologists are the individual airports, and maybe the 
National Weather Service or some federal entity is the 
overarching company. The climate services work very much in the 
same way.
    Dr. Mote. If I could respond as well. The Western RISAs all 
have very good relationships with the Western Regional Climate 
Center, and I think we have sort of worked out a division of 
labor, that there is very little overlap.
    Mr. Inglis. And what is that division of labor? How does 
that work?
    Dr. Mote. I would say, and Dr. DeGaetano can correct me if 
I am wrong, but I would say that the Regional Climate Centers 
are best at understanding the climate data, the observations 
for the region. They typically do not, at least the Western 
Regional Climate Center doesn't do a lot of work, say, with 
global climate model output scenarios of future climate. The 
same is true of the Weather Service. Their climate focal points 
are not trained in dealing with some of these longer timescale 
issues.
    The RISAs, based at universities, are focused on 
innovation, publishing research papers, coming up with new 
ideas, not so much operational. So, we have developed things 
that we have handed off to, for example, the River Forecast 
Centers within the Weather Service, or the Water and Climate 
Center, within the U.S. Department of Agriculture's Natural 
Resources Conservation Service.
    Now, the State climatologists are best at having those 
relationships with individual entities within their states, and 
your State Climatologist, Hope Mizzell, is an excellent State 
Climatologist. She has developed a lot of great products for 
the State of South Carolina. Those are things that are 
supported by the Southeast Regional Climate Center, and 
informed by what is needed locally. So, the State 
climatologists are really listening locally.
    A lot of this is not about, as Dr. Barron said, we don't 
just generate climate knowledge and throw it over the transom. 
We are actively listening to what people need, and responding.
    Mr. Inglis. Anybody else want--Dr. Barron.
    Dr. Barron. Well, I just want to point out that despite all 
these different components, it is still not good enough, and 
one of the reasons why it is not good enough is because these 
teams are small enough that they have to focus on particular 
areas. And therefore, they can't address the broad range of 
users. And it is very hard to cross from place to place.
    So, what I see, as one of the really good examples is, in 
the '50s, we discovered that with computers, we could predict 
the weather, and we are getting pretty good at it, to the point 
where we close schools and do things in advance of a particular 
storm. If you take the human health community, they almost 
always react to the number of cases that came in the door. It 
is very rarely a forecaster prediction. Yet, so many different 
parts of human health are now tied to environmental conditions. 
But if you can predict environmental conditions, you can begin 
to predict adverse human health outcomes, and save an enormous 
amount of money.
    Do I put that in a state? Do I put that in a region? It 
requires something that is quite different from that particular 
component, if we are all of the sudden going to realize the 
fact that out 15 years, we will be doing human health forecasts 
just like we do pollen alerts and air quality and weather 
forecasts.
    But we don't have anything in place that allows those 
communities of users to intersect with this environmental 
prediction, climate modeling, weather forecasting groups, just 
as an example.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chair Baird. Thank you. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chair Baird. I should mention we have been joined by Ms. 
Edwards as well. Thank you for joining.
    Ms. Woolsey. Thank you, Mr. Chairman. I would like to leave 
some time for the rest of the panel to respond to the 
Chairman's question, but before I do that, I would like to make 
a comment.

     International Cooperation and Disseminating Real Time Climate 
                              Information

    Wouldn't it be something if climate change became news like 
weather is now, because we actually, with the National Weather 
Service, kind of conceive what is coming, and why it happened, 
and when it is going to happen? I think it would be very good, 
because then, the people of this country would see it as news, 
and not just as something that happened to them, that they have 
no control over.
    And I just think this is all getting, leading us in the 
right direction, and I know that Chairman Baird wanted, you 
know, more, I thought that some of you wanted to answer, 
respond to Chairman Baird's question, his open question about 
why we need to do this, and what is a better way.
    And as you are answering it, if you could, for me, talk 
about if there is opportunity for international cooperation in 
our get along here. So, I am doing part of your job for you. I 
am yielding to finish your question.
    Chair Baird. I appreciate that, actually. I would have 
appreciated more time, but in deference to my colleagues, I 
gave back some, but thank you, Ms. Woolsey.
    Mr. Hirn. Ms. Woolsey, I recently had a visit to the 
Climate Prediction Center in Camp Springs, I believe in 
Congresswoman Edwards' district. I visited what they call the 
Africa Desk there, which I was extraordinarily impressed. They 
do climate forecasting for Africa and other Third World, areas 
of the Third World, helping them with their drought 
predictions. But what I thought was most remarkable was I met a 
number of meteorologists from Malawi and elsewhere in Africa. 
The Weather Service brings 12 meteorologists a year from Africa 
for a four month residency at the Climate Prediction Center, 
and teaches them, trains them in climatology, to go back and 
work on drought prediction, things like that.
    Ms. Woolsey. Well, that is very interesting, and that is, 
and let us get up to the doctors here, who didn't get to answer 
the Chairman, and maybe we will have time to talk some more 
about those people, the Africans that came.
    Dr. DeGaetano. I think there is tremendous opportunity for 
that, and the thing that we need to look at is exactly getting 
down to the regional scale, not looking at these broad global 
problems, but actually bringing data in, and projections, or 
even looking at data down to the regional levels, and starting 
to interact with stakeholders.
    It may not be that we can make a prediction or a forecast 
on what the climate will be like in 2100, but to bring people 
along to see the types of things that they have to start 
concerning about. To make them more resilient to the types of 
climate variations we see today will only make it stronger in 
the future, when the modeling and capabilities are able to come 
around to make those projections at regional levels.
    Ms. Woolsey. Dr. Barron.
    Dr. Barron. You know, I think the ground is so fertile, to 
make, to do so many things that are beneficial, or to at least 
have reasoned answers for particular actions. And you can look 
at one example after another. We are watching the Rocky 
Mountains being ravaged by the pine bark beetle, the first time 
that I know of, you know, leave only a footprint, take only a 
picture, we have used pesticides, insecticides in Rocky 
Mountain National Park, as an example.
    So, now, when we watch these trees go away, do you live it? 
Do you plant the same tree again? Do you plant a different 
species, a more resistant species? This is a decision we are 
going to have to make one way or another. It would be nice to 
be able to integrate climate in there.
    If you look at hurricane forecasting, everybody is talking 
about our hurricanes becoming more intense, or not intense. 
Climate models actually don't simulate hurricanes. They don't 
simulate hurricanes, because we don't have the power to get the 
climate models down to a resolution to simulate them. It is so 
important for so many coastal states. If we can embed weather 
forecast models in climate models, as part of a regional 
emphasis on climate, something we are not doing today, we will 
actually be at the point where we are simulating hurricanes out 
decades in a row.
    Sea ice is melting around Alaska. We are watching native 
village peoples have to be moved. How many times would you like 
to move them? Do you sit there and decide in advance to move 
them slowly? Do you do it in one particular lump, as the sea 
ice is gone, and the waves start pounding the coast, and in the 
buildings go? It seems to me it would be nice, and it is a 
relatively small investment, when you consider the costs of 
moving infrastructure, to sit there and try to do this in some 
particular intelligent manner.
    The Colorado River Compact was one that was negotiated 
based on a time period of rather abundant rainfall. Will we 
have to look at this again, and wouldn't we rather do that, 
instead of looking at a limited record, with some larger 
understanding of climate change?
    So, I think it is just an enormous, enormous potential, if 
we can start connecting climate to society.
    Ms. Woolsey. Okay.
    Chair Baird. Thank you, Ms. Woolsey. I appreciate you 
following that line of questioning. Having grown up and studies 
in the Colorado River basin, the entire basin ravaged for years 
by political infighting that grew out of having, as I 
understand it, divvied up the water in a fairly record high 
water year, and so, promising water that didn't, then, later 
exist, and it has been really years and years and years of 
litigation and conflict and inadequate water supply.
    I will recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Mr. Chairman. Dr. Barron, you touched 
upon this in your most recent response, but I represent a 
District that has many communities along a historic waterway.

                   Responding to Climate Information

    The advantages of a system that is optimum, as you would 
define it, be it State, regional, and national in design, how 
can we emphasize prevention, to avoid certain flooding, and 
then, how can we respond in mitigation terms? What would you 
envision to be the modeling out there that would enable 
communities to better avoid floods, and then, to better respond 
to floods? How would that infrastructure work? Because it seems 
to be a repeated pattern, with the extremes of climate change, 
that more and more communities are impacted by flooding of 
rivers, and intracoastal waterways.
    Dr. Barron. Yes. I gave the example in human health, to 
think broadly and cross regions, but I think an example that 
you have just selected, it points to how important it is to 
have a community of scientists to interface with that are local 
and regional, because so many of those examples are examples by 
which the way you build infrastructure makes an enormous amount 
of difference, in terms of your vulnerability. And I think that 
this whole notion of building resilience into communities, by 
understanding this, makes an enormous amount of difference.
    So, this is where this system needs to couple that on a 
global scale and a regional scale, and understanding how the 
system might change through global models, and coupling those 
with weather forecast models. But taking yourself right down to 
that local and regional level, because all of these problems, 
when you come right down to it, are local. But we are now being 
affected by local decisions as well as global decisions.
    Mr. Tonko. I was just going to ask if anyone else has a 
response.
    Dr. Mote. I would like to emphasize that in addition to 
better modeling to characterize the physical system, which both 
I and Dr. Barron emphasized earlier, we need vigorous social 
science research to understand how decisions are made, the 
decision context, how to provide information that is actually 
useful, and will be used to make better decisions. And this is 
a component of this whole enterprise, that is, and I say this 
as a physical scientist, degree in physics. This is a part of 
this that is greatly neglected in the current climate science 
enterprise.
    Dr. DeGaetano. If I may.
    Mr. Tonko. Yes, please.
    Dr. DeGaetano. Actually, your question was pretty timely, 
because Monday, I'll be traveling to Norrie Point, which is 
either in your District, or just south of your District, to 
address that very issue.
    We are working with DEC and a number of entities within New 
York State, to look how sea level rise will manifest itself up 
the Hudson River, to look at infrastructure along the river, to 
look at different control mechanisms that might be put in place 
between, up the river, a true interdisciplinary effort between 
hydrologists, social scientists, through the Rising Waters 
Program, which is out of the Hudson River Estuary Commission.
    So, those types of things are things that you know, any of 
our organizations are involved with, and are starting to work 
with now.

                     The Model Coordinating Agency

    Mr. Tonko. So, the model that best coordinates all of that 
would look like what? Is there, who brings all the agencies, 
obviously have to have input here together, and then, how is it 
connected to the local planning or response effort?
    Dr. DeGaetano. I am probably not the best one to say who 
brings all the agencies together, but I think this is a good 
example of how the system needs to work. For instance, you need 
the local knowledge and expertise to know what is going on on 
the Hudson. You need the local expertise to do the modeling of 
what is going to happen in the Hudson River basin. The basin, 
the hydrology is very different than other river basins, so you 
can't just take some river model off the shelves. So, those are 
the local components.
    On the national scale, you know, do you use my sea level 
rise projection, or do you use somebody else's? There, you need 
the coordinating efforts to make sure the data, either the 
observed data or the projections that go into these types of 
things, are consistent, that those types of things that come 
into play are there, that authoritative voice to say that this 
sea level rise projection, or this suite of sea level rise 
projects, manifest themselves his way on the Hudson River, and 
has this implication.
    Mr. Tonko. Thank you.
    Chair Baird. Thank you, Mr. Tonko. Dr. Mote, I appreciate 
your observation about social science. As my colleagues know, I 
am a social scientist. And I was down at AOML a couple years 
ago, and they were talking about the need for more 
supercomputing to predict hurricanes, but someone pointed out 
that even if we, the basic, we looked pretty good at Katrina, 
but you know, magnitude, timing, location, pretty accurate. But 
even if we had to the date, the moment, the magnitude, 50 
percent of the people still wouldn't evacuate, and that is a 
social science problem, so I appreciate your raising it.
    Ms. Edwards is recognized for five minutes.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the panelists. I am sorry I actually missed Dr. 
Lubchenco, because I had a chance to spend some time with her 
out at NOAA, to learn in a lot more detail about the work that 
is going on there, both in weather forecasting, but also, the 
range of work that the Agency already does in climate, and was 
really impressed by the work going on at that facility and the 
others around the country.

                    Suggestions for Changes at NOAA

    My question, really, for Dr. Barron is to ask you, given 
what may be deficiencies or inadequacies in, you know, the 
current wide range of climate activity going on across the 
spectrum of the Federal Government and the private and academic 
sector, if NOAA were to retain the role of, or gain the role 
of, essentially the federal kind of coordinator of Climate 
Service activities, what do you think would be the essential 
thing that needs to change within NOAA, to be able to take on 
this activity? And I am also curious to know what you think 
NOAA's strengths are, in being able to gain that 
responsibility?
    Dr. Barron. Okay. In many ways, I think NOAA is the natural 
lead, as I said, because of both their current effort in 
providing services, and because they have pieces here that they 
fund, National Climate Data Center, the RISAs, and those 
activities.
    The reason why our group said it is not enough is because, 
I will give you just one example, and that is that if you go 
around the table, and I had a meeting with OSTP, in which 40 
people representing 15 agencies were there, resource managers, 
they were asked the question what do you need first? And they 
all said regional climate predictions. Those become essential, 
because they get closer to the decisions.
    Now, we don't have the computer power to do a very high 
resolution global climate model, but we have the capability to 
imbed weather models within climate models, and then provide, 
with that global model input, a weather forecast 30 years out, 
40 years out, not stating the day, but those conditions would 
yield this type of weather. And we could simulate things like 
hurricanes.
    So, we know we are going to have to couple those 
capabilities, and within NOAA, these are quite separate. So, we 
have to find a way to have the conversation occur within NOAA 
that helps promote synergism between the modeling components. 
That is one example.
    The other example I think we see is that that connection to 
users is now being done through a RISA, or providing data that 
is sitting out there, that a private company can grab, and we 
are going to move into a climate mode where private companies 
are going to want to grab that data, but there is also an 
enormous number of things by which that whole community hasn't 
had decades of weather forecasts to be able to say, oh, I am 
interested in that. That will affect what I want to do in this 
particular----
    Ms. Edwards. Let me just interrupt you, because I think 
those things may be true, but it seems to me and others, you 
know, have an opportunity to comment on this, that some of that 
is also a resource question, and a need to coordinate 
information and data, and so, it is not so much about where the 
house is, but what the pieces need to be, you know, what is the 
structure.
    And I look at, for example, on Weather Service, and 
thinking only in my lifetime, the evolution of how we have come 
on Weather Service, where we have been able to get down to that 
regional level, where people, if you talk to them in 
communities, I mean, maybe it is not such a bad idea that they 
think that their local weatherperson is the weather predictor. 
That is just because the information has been made usable and 
accessible, and so, I don't know that there is anything that is 
an institutional barrier within NOAA, that would not enable us 
to thoughtfully figure out a way to bring that under a house, 
so that our weather and our climate predictions and forecasts 
are connected.
    And I wonder, in my limited time left, if there are others 
on the panel who have a response to that?
    Dr. Mote. Well, if I might, it really needs to be all about 
the users, so it is not just about providing information, and 
there are many other agencies that are responsive to the users. 
And so, it really goes beyond the NOAA. I agree with Dr. 
Barron. There needs to be a really high level, a multi-agency 
partnership.
    Ms. Edwards. Mr. Chairman, I will yield, and I will just 
say, just in closing, that it does seem to me that as we go 
forward, for this Congress to provide the kind of oversight 
that we need to, it will be very complicated, I think, for us, 
reaching over several different stretches of the Federal 
Government, to figure out who is on first.
    Chair Baird. I appreciate that, and I think, gentlemen, you 
are probably getting a sense from the Committee, we recognize 
fully, and I think your testimony, and that of Dr. Lubchenco, 
has really illustrated the need and the value for this 
information. I think there is an appreciation on the part of 
the Committee Members that, based on your testimony, that it 
needs to be better integrated, better distributed, better 
coordinated, et cetera, that there are multiple different 
entities within the government that are now doing parts of 
this.
    I think, though, what we are all struggling with a little 
bit, I think, this is in line with Ms. Woolsey's question, Ms. 
Edwards' as well, is how does it all fit together? If you, and 
the bottom line for us is, if we write a bill, which we intend 
to, to create some form of climate service, what should that 
look like? Where do the pieces fit together? How is it 
coordinated?
    And we have another panel. I think you are, Dr. Mote and 
others have talked about the importance of users. We will move 
very shortly to the next panel, but I would invite you to do 
this. So often in these Committee hearings, and it is true 
throughout the Congress, what happens is we ask you for your 
testimony. We ask questions, and then, we don't see you again 
for a really long time, if ever. And you don't necessarily 
always get to follow up with input about what the other, what 
other panelists suggested. So, I would invite you to give us 
followup testimony, if you will, based on, if you feel the need 
to further elucidate the questions we asked you, or to respond 
to what a colleague on the panel may have said. Say, here is, 
you know, so-and-so said this. This is where I agree, this is 
where I disagree, here is an alternative synthesis or 
divergence.
    Please do that for us, and if you can do it in a very 
timely manner, that would be most appreciated, because my hunch 
is you have all spent a lifetime working on this. We have read 
the testimony. We have had this discussion. We want to do 
something right. We want to follow the dictum of do no harm. We 
believe something needs to be done.
    So, if you can follow up in that fashion, it would be most 
appreciated. And unless anyone has any burning issues for this 
panel, and we may submit to you, it is customary at the end of 
these hearings to say the record will be open for two weeks, we 
may also follow up and say some more honing in points on, ideas 
on this.
    [The information submitted by Dr. DeGaetano follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chair Baird. With that, I want to thank our witnesses for a 
very informative and thought provoking discussion, and for your 
many years of service, all of you, in your respective roles, on 
an ongoing basis, that have helped serve the country and this 
Congress and constituents.
    We will adjourn this, recess, not recess, we will excuse 
this panel, and invite the next panel up. Take a very, very 
brief break while the names are switched around by our capable 
staff.

                               Panel III

    Thank you again. Be seated, and we will begin very, very 
shortly with our third panel. I appreciate your patience. I 
think it is a very constructive structure we have here, I hope, 
with the folks who provide some of the information, and some of 
the recipients and utilizers, and people who apply that. And 
that is the main focus of panel three, and let me introduce 
that panel.
    Dr. Michael Strobel is the Director of the National Water 
and Climate Center for the United States Department of 
Agriculture. Mr. Paul Fleming, the Manager of the Climate and 
Sustainability Group for the Seattle Public Utilities. Dr. 
Nolan Doesken, or Mr. Nolan Doesken. Did I say the last name 
right?
    Dr. Doesken. Doesken.
    Chair Baird. Doesken. Thank you, Dr. Doesken, the State 
Climatologist for Colorado, and a Senior Research Associate at 
Colorado State University, the alma mater of my father, by the 
way. Spent some time in Fort Collins.
    And I would now like to recognize my friend from 
California, Representative Lynn Woolsey, to introduce Mr. 
Behar.
    Ms. Woolsey. Well, Mr. Chairman, I am going to take a lot 
more time on Mr. Behar than you did on all these together. Is 
that all right?
    Chair Baird. Well, that is sort of the custom here.
    Ms. Woolsey. All right.
    Chair Baird. We introduce them, and the local folks get a 
little extra time.
    Ms. Woolsey. My guy, I work for him, so I will take better 
care of him.
    Mr. Chairman, it is my pleasure to introduce one of my 
constituents, someone I work with, work for in my District. He 
is here today to testify before our committee. His name is Mr. 
David Behar. David's career spans over 20 years in 
environmental policy and water utility management. He currently 
serves as Deputy to the Assistant General Manager, Water 
Enterprise, at the San Francisco Public Utilities Commission, 
the SFPUC.
    Mr. Behar developed the SFPUC-sponsored Water Utility 
Climate Change Summit, held in San Francisco in early 2007, and 
he currently serves as Staff Chairman of the Water Utility 
Climate Alliance. From 1991 to 1997, he served as the Executive 
Director of the Bay Institute of San Francisco, and from 1989 
to '91, he served on the staff of U.S. Senator Alan Cranston, a 
Democrat from California. In November of 2006, David was 
elected to the Board of Directors of the Marin Municipal Water 
District, a district with 200,000 customers, just north of San 
Francisco, in my District, in Marin County.
    David lives with his two children in Marin County, and I am 
pleased to welcome him here today in Washington, D.C.
    Chair Baird. Thank you, Ms. Woolsey. I appreciate that. We 
all serve all these people, whether or not we are----
    Ms. Woolsey. Oh, well.
    Chair Baird.--privileged to have you in our District, we 
are honored to have you here today.
    We will proceed in questioning, witness statements from Dr. 
Strobel and across, through the panel. With that, I will begin 
with Dr. Strobel. Thank you.

 STATEMENT OF DR. MICHAEL L. STROBEL, DIRECTOR, NATIONAL WATER 
  AND CLIMATE CENTER, NATURAL RESOURCES CONSERVATION SERVICE, 
            UNITED STATES DEPARTMENT OF AGRICULTURE

    Dr. Strobel. Good morning, Chairman Baird, Ranking Member 
Inglis, and other Members of the Subcommittee. Thank you for 
the opportunity to testify today about the climate data 
collection and analysis activities of USDA's Natural Resources 
Conservation Service. My name is Michael Strobel. I am the 
Director of NRCS' National Water and Climate Center in 
Portland, Oregon.
    NRCS has been a leader in climate services to assist 
agricultural activities and natural resource conservation since 
1935. In that year, the Soil Conservation Service, which NRCS 
was then known as, established a formal, cooperative snow 
survey and water supply forecasting program. The Snow Survey 
Program has grown in scope and in number and diversity of users 
that rely on the water supply forecast developed by NRCS.
    In addition to the Snow Survey Program, the National Water 
and Climate Center also manages the Soil Climate Analysis 
Network, or SCAN, a soil moisture and climate information 
system designed to provide data to support natural resource 
assessments and conservation activities. I will briefly discuss 
SCAN later, but I will spend the majority of my time discussing 
the Snow Survey and Water Supply Forecasting Program, how it 
works, why it is important, and who uses that information.
    Depending on the geographic location, 50 to 80 percent of 
the annual water supply in the West arrives in the form of 
snow. The NRCS' Snow Survey Program is a main source of data on 
high elevation snowpack in the West. Data on the depth and 
density of the snowpack provide critical information to 
decision-makers and water managers throughout the West. NRCS 
works hard to ensure that consistent and reliable water 
forecasts are available for a wide variety of uses throughout 
the year.
    Since 1935, the Snow Survey Program has grown into a 
network of almost 2,000 snowpack monitoring sites in 13 Western 
states, including Alaska. More than 1,200 of these sites are 
manually measured snow courses. Either an NRCS employee or an 
employee of a partner organization must visit each manual snow 
course site once a month during the snow season, and take 
snowpack measurements manually. The remaining 760 sites are 
automated snowpack telemetry, or SNOTEL, climate stations, 
which do not require monthly visits, but provide real-time 
snowpack information via Meteor Burst technology.
    In the future, we will continue to increase the percentages 
of snow survey sites that are automated. This would result in 
more accurate water supply forecasts and snowpack reports, as 
well as a decrease in the safety risks for NRCS employees and 
partners who monitor remote sites in what can be sometimes 
challenging winter conditions.
    NRCS employees use the manual snow course and automated 
SNOTEL data, as well as modeled water supply and streamflow 
volume data to develop streamflow forecasts for over 740 
locations in the West. These forecasts help reduce the 
uncertainty for users making everything from long-term 
strategic decisions regarding multi-year water supplies to 
immediate emergency response decisions in times of high 
streamflows.
    Let me give you a few concrete examples of how our 
customers use our water supply forecasts. Agricultural 
producers use our forecasts to manage drought risk, make 
cropping decisions, and determine irrigation allotments. 
Wildlife conservationists use streamflow forecasts to help 
manage habitat for threatened and endangered species. Climate 
researchers use snowpack data to develop climate change risk 
assessments for long-term water availability. Municipal 
officials use snow survey data and analysis to manage reservoir 
levels in Western towns and cities. The National Weather 
Service's River Forecast Centers depend on Snow Survey data for 
the snowpack component of their data analysis and forecasting 
systems. And recreation is a key industry in the West. Ski 
resorts, river rafting companies, and others use our data and 
forecasts to operate and manage their facilities. I hope I have 
given you a sense of the number and diversity of end users that 
rely on our Snow Survey and Water Supply Forecasting 
information.
    The National Water and Climate Center also manages SCAN, 
the Soil Climate Analysis Network, which was started as a pilot 
program in 1991. SCAN has evolved into a cooperative system 
that monitors soil moisture and other climate parameters, and 
makes the data available to users on a real-time basis. The 
system is used primarily for monitoring and mitigating the 
effects of drought and flooding. The current SCAN system 
consists of 150 stations located in 39 states across the U.S.
    In summary, NRCS' climate services produce critical data, 
forecasts, and analysis for a wide variety of public and 
private uses. Users rely on NRCS' near real-time data and 
unbiased forecasts to plan and execute short and long-term 
decisions, ranging from individual farmers planting dates to 
basin-wide water management planning.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before you today, and I would be happy to respond to any 
questions.
    [The prepareed statement of Dr. Strobel follows:]

                Prepared Statement of Michael L. Strobel

    Mr. Chairman, thank you for the opportunity to testify today about 
the USDA Natural Resources Conservation Service's climate data and 
analysis activities. My name is Michael Strobel and I am the Director 
of NRCS's National Water and Climate Center in Portland, Oregon. The 
Center directs NRCS's climate services.
    Our understanding of a climate service is an activity to inform the 
public through the production and delivery of authoritative, reliable, 
timely, and useful information about climate to enable the management 
of climate-related risks and opportunities related to impacts. Resource 
management agencies and departments, including USDA, have 
responsibilities in preparing the Nation to adapt to climate change and 
will be important clients of improved information about the climate and 
expected climate changes.
    NRCS has been a leader in climate services to assist decision-
making associated with agricultural activities and natural resource 
conservation since 1935. In that year, the Soil Conservation Service 
(as NRCS was then known) established a formal cooperative Snow Survey 
and Water Supply Forecasting (SS-WSF) Program. Since that time, the SS-
WSF has grown in scope and in the number and diversity of users that 
rely on the water supply forecasts developed by NRCS. In addition to 
the Snow Survey program, in 1991 the National Water and Climate Center 
began a pilot program that later turned into the Soil Climate Analysis 
Network (SCAN), a soil moisture and climate information system designed 
to provide data to support natural resource assessments and 
conservation activities.
    I will now discuss the Snow Survey Program and SCAN in more 
detail--how they work, why they are important, and who uses the 
information.

SNOW SURVEY and WATER SUPPLY FORECASTING

    From its beginnings in 1935, the SS-WSF Program has grown into a 
network of more than 1,200 manually-measured snow courses and over 750 
automated Snowpack Telemetry (SNOTEL) weather stations in 13 Western 
states, including Alaska. The SS-WSF Program provides water supply 
data; modeled water supply and streamflow volume data; and streamflow 
forecasts for over 760 locations in the West. SNOTEL is a reliable and 
cost effective means of collecting snowpack and other weather data 
needed to produce water supply forecasts used by water managers in the 
west from irrigators to municipalities. The data and information is 
also important in achieving the objectives of the Western Governors 
Association as noted in their report, Water Needs and Strategies for a 
Sustainable Future.
    With 50-80 percent of the water supply in the West arriving in the 
form of snow, data on the snow pack provide critical information to 
decision-makers and water managers throughout the West. The basic data 
becomes even more valuable when used in concert with partner 
organizations to provide water supply forecasting tailored to meet end-
user needs.
    Reliable information helps reduce the uncertainty in making 
critical environmental, agricultural, industrial, and municipal 
management decision regarding annual and multi-year water supplies and 
streamflows within specific watersheds and sub-basins in the western 
United States. These decisions may be long-term strategic-planning 
decisions; logistical, tactical, and operations planning decisions; 
short-term planning decisions; or immediate, emergency decisions.
    Below are examples of how customers use SS-WSF data and analyses:

        <bullet>  Reservoir management

        <bullet>  Irrigation water management

        <bullet>  Cropping decisions

        <bullet>  Crop futures forecasting

        <bullet>  Risk management related to agriculture in general and 
        agricultural finance in particular

        <bullet>  Planning and scheduling of water-related business or 
        government activities

        <bullet>  Flood damage reduction

        <bullet>  Drought risk reduction

        <bullet>  Climate change risk assessments for long-term water 
        availability

        <bullet>  Emergency response and emergency preparedness

        <bullet>  Protection of threatened and endangered species

        <bullet>  Power generation and other energy contracting and 
        management

        <bullet>  Recreation management and other recreation-related 
        decision-making

        <bullet>  Municipal and industrial water supply management

CASE STUDIES OF NRCS CLIMATE SERVICES USERS

    SS-WSF data and related reports and forecasts are made available-in 
near real time for the automated SNOTEL sites-to private industry; to 
Federal, State, and local government entities; and to private citizens 
through an extensive Internet delivery system and other distribution 
channels. Following are some examples of how these data and reports are 
used by NRCS customers.

Case Study--Agricultural Producers
    Despite the great variety of agricultural operations in the Western 
U. S., a common denominator is some degree of dependence on a diverted 
or stored water supply. In some areas, snowpack is the only significant 
water storage available. In other areas, reservoirs provide a means of 
stretching water storage into the summer and sometimes into the fall 
growing and harvesting seasons.
    In southern Idaho, producers in the Salmon Falls and Twin Falls 
irrigation tracts rely on SNOTEL data and stream forecast information 
as input in making decisions about what, when, and how much to plant. 
Irrigation district managers within this region use SS-WSF data and 
forecasts early in the season to inform their water users on the 
percentage of their full irrigation allotment they should expect to 
receive in the upcoming growing season. These irrigation allotment 
predictions are based on SS-WSF data that show (1) the probability of 
varying levels of water supply given existing snowpack, soil moisture, 
and water content; and (2) historic probabilities for additional 
snowpack and water content accumulations.
    These reports are crucial to producers who use them to make 
cropping and operation decisions well in advance of the growing season. 
Based on modeling of the typical cropping patterns in the area for a 
160-acre farm, the value of the SS-WSF data to producers in this region 
is estimated as ranging from $27 per acre in a normal year to $111 per 
acre in a water short year. Based on irrigated acres in those areas, 
the total value to producers is estimated to be as much as $21.8 
million in a water short year.

Case Study--National Weather Service River Forecast Centers
    The National Weather Service (NWS) operates River Forecast Centers 
(RFCs) covering all of the landmass of the U.S. In the mountain 
regions, the RFCs produce river flow, flood prediction, and other 
hydrologic and weather-related data products for the Western regions of 
the U.S. and part of lower British Columbia. They depend on NRCS SS-WSF 
data for the snowpack component of their data analysis and forecasting 
systems.
    The river forecasts, along with NWS flood warnings, help save lives 
and give communities time to take appropriate actions to lessen flood 
damage. SNOTEL data is used to validate and adjust the amount of snow 
and snowmelt simulated in a hydrologic model which produces more 
accurate forecasts of river flows. These daily river forecasts are also 
used during non-flood periods for recreational purposes (rafting, 
kayaking, fishing, etc.).

Case Study--Recreation Industry
    Recreation is an important industry in Western States and many 
categories of tourism and recreation are--in one way or another--
dependent on or affected by either snowpack levels, water supply 
volumes, or both. Potential commercial and private users of SS-WSF data 
include recreation associations, hunters, fishermen, boaters, skiers, 
snowmobilers, campers, tourists, and others whose recreational 
activities or travel plans might be affected by snow depths or 
streamflows.
    An outfitter operating a river rafting business in the 
Intermountain West reported that SNOTEL data had indicated that river 
conditions would render their traditional rafting equipment inoperable 
in the 2002 season--ultimately the worst season on record for rafting 
in the area. Based largely on SS-WSF information, the firm purchased 
smaller craft that would be operable in the environmental conditions 
predicted by the data. Without the advantage of streamflow projections 
prior to the beginning of the rafting season, the low water levels 
would have resulted in a year with little to no revenue. Instead, the 
decision to purchase the smaller craft resulted in a $600,000 revenue 
year.

Case Study--Denver Water Board
    Power, utility, and water companies use the SS-WSF data in their 
daily operations and long-range planning decisions. They can also use 
the data in forward contracting for purchasing and selling power in the 
wholesale market.
    The Denver Water Board uses SNOTEL real-time snowpack and water 
supply forecast information as input for their reservoir management 
decisions. If decisions were based only on the historic water supply 
averages, the Board could lose as much as $5.5 million annually in 
potential revenue due to sub-optimal transfers of water between the 
various storage reservoirs within their collection and distribution 
system.

SOIL CLIMATE ANALYSIS NETWORK

    Started as a pilot program in 1991, the Soil Climate Analysis 
Network (SCAN) has evolved into a system supported in part by NRCS and 
by various federal, State, local, tribal and university groups that 
assist in funding and field operations. SCAN monitors soil moisture and 
other climate parameters and makes the data available to users on a 
real time basis. The system is used primarily for monitoring and 
mitigating the affects of drought and flooding. The current SCAN system 
consists of 150 stations located in 39 states.
    National resource management issues for which long-term soil-
climate information is needed include:

        <bullet>  Monitoring drought development and triggering plans 
        and policies for mitigation.

        <bullet>  Predicting changes in runoff that affect flooding and 
        flood control structures.

    Here are a few examples of how SCAN data are used across the 
Nation:

        <bullet>  The Newby Farm SCAN station in Alabama helps poultry 
        farmers monitor local conditions so they can mitigate odor 
        issues when managing poultry waste.

        <bullet>  Data from 15 SCAN sites in Mississippi are used by 
        local farming communities near each site to determine when soil 
        temperature and soil moisture are optimal for planting.

    NRCS's National Water and Climate Center works closely with the 
NOAA/USDA Joint Agricultural Weather Facility (JAWF), located in USDA's 
Office of the Chief Economist. JAWF meteorologists monitor weather 
conditions and crop developments on a daily and seasonal basis, and 
prepare agricultural assessments for USDA commodity analysts and the 
Office of the Secretary of Agriculture. JAWF relies heavily on SCAN 
data for U.S. soil temperature maps which are published in the Weekly 
Weather and Crop Bulletin; temperature and precipitation data used in 
the U.S. Drought Monitor which is also released every week and followed 
closely by decision-makers; and weekly agricultural weather information 
disseminated by the USDA Stoneville Data Center to the agricultural 
community.
    The National Integrated Drought Information System (NIDIS), an 
interagency, multi-partner approach to drought monitoring, forecasting, 
and early warning led by the National Oceanic and Atmospheric 
Administration (NOAA), builds on existing systems infrastructure, data, 
and operational products from various agencies. For example, it 
incorporates data from the SNOTEL (SNOw TELemetry) network of USDA's 
NRCS.

SUMMARY

    NRCS climate services produce critical data, forecasts and analyses 
for a wide variety of public and private users. Users rely on NRCS's 
near-real time data and unbiased forecasts to plan and execute short- 
and long-term decisions ranging from individual farmers' planting dates 
to basin-wide water management planning. In the future, we hope to 
increase the percentage of Snow Survey sites that are automated. This 
would result in more accurate water supply forecasts and snow pack 
reports, as well as decrease the safety risks for NRCS employees who 
monitor remote sites in challenging weather conditions. Thank you 
again, Mr. Chairman, for the opportunity to appear before you today, 
and I would be happy to respond to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Michael L. Strobel

    Dr. Strobel received B.S. and M.S. degrees in Geology and 
Mineralogy from the Ohio State University in 1985 and 1990 and a Ph.D. 
in Geology, specializing in hydrology, from the University of North 
Dakota in 1996. From 1983 to 1988 he worked in the field of glaciology 
for the Byrd Polar Research Center and conducted field work in 
Antarctica, Greenland, Peru, and Alaska. He joined the U.S. Geological 
Survey in 1988 and served as a hydrologist in Ohio, North Dakota, South 
Dakota, North Carolina, and Nevada. He was Deputy State Director for 
the Nevada Water Science Center for almost six years. Dr. Strobel 
authored the book Water in Nevada which provides non-scientists a 
primer on basic hydrology. He served on the Board of Directors for the 
Nevada Water Resources Association and was Chief Editor of the Journal 
of the Nevada Water Resources Association. Since June, 2007, he has 
served as the Director of the National Water and Climate Center, NRCS, 
in Portland, Oregon. The Center oversees the Snow Survey and Water 
Supply Forecasting Program, which operates over 750 automated snow 
telemetry (SNOTEL) sites and 1,200 manual snow courses in 13 Western 
States, including Alaska. The Center also operates the Soil Climate 
Analysis Network (SCAN) that has stations in 39 States and U.S. 
territories. SCAN provides data at a national scale for climate 
assessment and drought mitigation.

    Chair Baird. Thank you, Dr. Strobel. I envy your work. I 
would love to spend some days up looking at snow sites from 
time to time.
    Dr. Strobel. It is a great job.
    Chair Baird. And you do great work for the Northwest. I am 
grateful for it. Thank you.
    Mr. Behar.

 STATEMENT OF MR. DAVID BEHAR, DEPUTY TO THE ASSISTANT GENERAL 
       MANAGER, SAN FRANCISCO PUBLIC UTILITIES COMMISSION

    Mr. Behar. Thank you, Mr. Chairman. Thank you, Ranking 
Member Inglis, Members of the Committee, and of course, 
Congresswoman Woolsey. Thank you very much for that 
introduction. I will go back and report to our constituents, 
who know and love and respect your work very much that you are 
on top of climate change issues, as you are, and that matter so 
much to all of us in Marin.
    I appreciate the opportunity, Mr. Chairman, to come and 
speak from a stakeholder perspective about the need for a 
National Climate Service. I have been introduced, SFPUC has 2.5 
million water customers in the Bay Area. We are the sixth 
largest municipal district in the country, and as Ms. Woolsey 
mentioned, we are also a founding member and coordinate the 
Water Utility Climate Alliance, which is a consortium of eight 
large water utilities from around the Nation, serving more than 
36 million customers. It is focused exclusively on adaptation, 
the adaptation challenges we face in the water industry.
    According to two recent EPA reports to Congress, water and 
wastewater utilities together will need to spend about $480 
billion over the next 20 years or so upgrading our systems to 
keep them in a state of good repair. The figure does not 
include responding to climate change challenges, but we know 
that all of those investments in new assets will be made as our 
climate is changing. However, as has been mentioned, many of 
today's climate change projections are so uncertain as to be 
difficult to use in planning how we purchase those assets, and 
planning how we spend those funds on our systems.
    And that is why, when it comes to climate change science, 
water utilities are looking for what WUCA members have begun to 
call actionable science. We define actionable science to mean 
``data analysis and forecasts that are sufficiently predictive, 
accepted, and understandable to support decision-making, 
including capital investment decision-making.''
    The term is intended to convey our understanding that 
perfect information on climate change is neither available 
today, nor likely to be available in the near future, but that 
over time, as the threats climate change pose to our systems 
grow more real, predicting those effects with greater certainty 
is a nondiscretionary choice that we need to make.
    Now, if actionable science is one need, accessible science 
is another need. A National Climate Service, we believe, can 
provide access to science to those of us who are assessing our 
vulnerability, in an accessible fashion. I want to agree 
strongly with Dr. Barron, who said that from a stakeholder 
perspective, it can be difficult, at times, to get the kind of 
climate information that we need to plug into our operations 
models, and begin to think about what our adaptation challenges 
actually are. I have seen from my experience at both the PUC, 
and as a Director at MMWD, how difficult it can be to access 
sound science, and to know what it is you are actually 
accessing. Even relatively sophisticated water agencies are 
having a difficult time answering the most basic questions 
related to what climate challenges we actually face in the 
long-term, which is the asset investment strategy that we have 
to think about.
    I want to also commend Dr. Barron and the Science Advisory 
Board that NOAA asked to put together its options for 
developing a National Climate Service report. The report 
identified key attributes of a National Climate Service that I 
think are worth citing for a moment.
    It said: ``The Service will achieve its mission by 
promoting active interaction among users, researchers, and 
information providers. The Service will be user-centric, by 
ensuring that scientifically based information is accessible 
and commensurate with users' needs and limitations.'' This has 
been echoed in some of the testimony so far you have heard 
today, and I want to agree wholeheartedly with that.
    In our view, a powerful and responsive National Climate 
Service should be like a wheel, with a hub, which is our 
headquarters, and spokes, which are regional centers. Like a 
wheel, without the hub, the wheels come off. At the end of the 
spokes is where we think the rubber is going to hit the road. 
At the center, we need a federal family to come together, and 
create a cohesive federal structure that supports the NCS 
mission. We want to see lessons learned from the example of the 
U.S. Climate Change Science Program, which has produced a 
tremendous amount of important research, but has, at times, 
been criticized for failing to achieve a consistent and 
transparent vision for that research, and also, for struggling, 
at times, to effectively engage the stakeholder community.
    At the spokes of the wheel, stakeholders and researchers 
alike strongly believe that the success of an NCS mission, as 
others have said today already, depends on creating a robust 
and geographically distributed regional presence. Such a 
presence would feature engaged, multi-disciplinary teams of 
physical scientists, social scientists, communication 
specialists, and modelers, that are located in the communities 
that are facing adaptation challenges. Those boots on the 
ground experts understand their region and its unique 
conditions, and are active participants in ongoing 
conversations with climate information users, folks like 
ourselves. And they aren't paratroopers, just to stretch the 
military analogy to its breaking point. They are actually part 
of the communities that they serve.
    This decentralized, user-centric approach is far from 
unprecedented in the Federal Government. Many have talked about 
the RISA program. We agree that it is a model that can be 
expanded upon, improved, even made broader, with a more 
consistent mission across the United States, and perhaps 
provide a model for that geographically distributed approach 
that we think is so essential to reflect user concerns over 
adaptation, and bringing climate science out to our 
communities.
    Thank you very much.
    [The prepared statement of Mr. Behar follows:]

                   Prepared Statement of David Behar

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear and present a stakeholder perspective regarding 
formation of a National Climate Service. My name is David Behar. I am 
the Deputy to the Assistant General Manager at the San Francisco Public 
Utilities Commission (SFPUC). The SFPUC is the sixth largest municipal 
water provider in the U.S. and manages water and power facilities that 
serve 2.5 million Bay Area residents, as well as wastewater and 
stormwater facilities in San Francisco. For the City and County of San 
Francisco, I also am helping develop a City-wide Climate Adaptation 
Plan encompassing all City departments facing climate change-related 
vulnerabilities, similar to programs underway in New York City, 
Chicago, and other cities across the U.S.
    I also serve as Staff Chairman of the Water Utility Climate 
Alliance (WUCA), a consortium of eight water utilities dedicated to 
providing leadership and collaboration on climate change issues 
affecting drinking water utilities by improving research, developing 
adaptation strategies, and creating mitigation approaches to reduce 
greenhouse gas emissions. WUCA is chaired by SFPUC General Manager Ed 
Harrington and includes some of the largest water providers in the 
Nation serving 36 million Americans. WUCA members include Denver Water, 
the Metropolitan Water District of Southern California, New York City 
Department of Environmental Protection, Portland Water Bureau, San 
Diego County Water Authority, Seattle Public Utilities and the Southern 
Nevada Water Authority. In my spare time, I serve on the Board of 
Directors of the oldest municipal water agency in California, Marin 
Municipal Water District (MMWD), a position to which I was elected in 
2006.

The Stakes for Water and Wastewater Utilities

    According to two recent EPA reports to Congress, water and 
wastewater utilities in the U.S. will need to invest some 
$480,000,000,000 over the next twenty years to keep our systems in a 
state of good repair.\1\ This figure does not include climate change 
response, but we know those investments will be made as our climate is 
changing, and the life cycle of those assets--including transmission 
lines, treatment plants, outfalls, urban drainage systems, dams--is 
measured in periods from several decades to over a century. This is the 
same timeframe for climate change projections that are commonly 
presented in the scientific literature. But many of today's climate 
projections are so uncertain as to be unusable as we weigh how best to 
spend that $480 billion. We need information on a host of climate 
parameters for which past hydrology is no longer an indication of 
future conditions. These include temperature, precipitation, changes in 
the mix of precipitation falling as rain and snow, changes in runoff 
timing, changes in demand, drought duration and frequency, extreme 
events including storms and heat waves, and sea level rise. The models 
often don't simulate important aspects of climate successfully and 
don't agree with one another in terms of the scale of expected change 
and in some cases even the direction of change. A key issue is that the 
global climate models don't produce data at the temporal and spatial 
scale that we need to make decisions--that is, at the watershed and the 
sewershed levels. Of course, compounding the difficulty is the fact 
that, in the absence of national and international agreements on 
curbing greenhouse gas emissions, we face a multitude of emissions 
scenarios as well.
---------------------------------------------------------------------------
    \1\ ``Drinking Water Infrastructure Needs Survey and Assessment: 
Third Report to Congress.'' USEPA Office of Water, 2005. ``Clean 
Watersheds Needs Survey 2004: Report to Congress.'' USEPA, January 
2008.
---------------------------------------------------------------------------
    Water utilities, and others planning a response to climate change, 
are handcuffed by uncertainty--but we're not paralyzed. The challenge 
lies in taking steps today that make sense before factoring in the 
effects of climate change, but that also create resiliency to climate 
change in whatever form that change takes in the future. These we refer 
to as ``no regrets'' strategies. For many utilities but particularly in 
the growing but arid west, aggressive water conservation strategies 
have taken center stage, as are projects that diversify supply to 
include drought-resistant sources such as recycled water and 
conjunctive use groundwater programs. In San Francisco, for example, 
due to a combination of these programs, since the 1970's we have 
reduced our consumption of Hetch Hetchy water by 27 percent while 
population increased 13 percent. In Southern California, the 
Metropolitan Water District, a WUCA member and the largest municipal 
water agency in the Nation, has developed over the past 20 years 
600,000 acre feet of conservation, 250,000 acre feet of water 
recycling, and over 100,000 acre feet of groundwater recovery and 
augmentation, while increasing local storage capacity by a factor of 
fourteen. Even as population has grown by 3.5 million, total water use 
in MWD's service area has actually declined.
    But we know such strategies alone may not allow us to escape the 
projected effects of climate change on our water systems. And because 
it can take decades to plan, fund, design, permit, and construct new or 
renewed projects, we are thinking today about our infrastructure needs 
of 2030, 2050, and beyond.

``Actionable Science''

    When it comes to climate science, water utilities are looking for 
what WUCA utilities call ``actionable science.'' We define actionable 
science as

         Data, analysis, and forecasts that are sufficiently 
        predictive, accepted, and understandable to support decision-
        making, including capital investment decision-making.

    We've come up with this term to convey our understanding that 
perfect information on climate change is neither available today nor 
likely to be available in the future, but that over time, as the 
threats climate change poses to our systems grow more real, predicting 
those effects with greater certainty is non-discretionary. We're not 
yet at a level at which climate change projections can drive climate 
change adaptation. This makes us nervous--and it's not terribly 
comforting for our ratepayers either.
    At least two things must happen from our perspective in the short-
term to provide society with some reassurance at this early but ominous 
phase of climate change adaptation planning. First, we need increased 
investment in climate science that will, as swiftly as possible, 
provide local entities of all stripes with intelligence about the 
future that is of a quality and scale that meets the definition of 
``actionable.'' Second, partnerships must be built between local and 
regional entities whose systems are vulnerable to the effects of 
climate change and the research community (including social scientists, 
economists, and legal researchers), policy-makers, and others to assist 
those entities in understanding the range of futures they face and 
provide decision support in the face of less than perfect information.

Accessible Science: The National Climate Service

    Today's hearing, on the subject of a National Climate Service, lies 
along the path, we hope, to providing ``accessible science'' to those 
who are assessing their vulnerability to climate change--and planning 
their adaptation response. These science ``users'' include water 
utilities, local governments, public health officials, parks and 
wildlife managers, coastal zone agencies, urban planners, farmers, 
homeowners, NGOs and other public and private sector interests.
    I've seen from my own personal experience both at the SFPUC and as 
a board member at MMWD how difficult it can be to access sound climate 
information. Even a sophisticated water agency has difficulty finding 
answers to the most basic questions and accessing data compatible with 
their systems models. University researchers are busy teaching and 
publishing, agency staff in Washington, D.C. are unknown to us, and 
those who we call ``users'' of climate information are often left to 
scramble haphazardly to collect tidbits of information from a 
multiplicity of sources as we seek to create resilient communities 
ready to adapt to the effects of climate change.
    We commend the Climate Working Group of NOAA's Science Advisory 
Board for its thoughtful and focused report ``Options for Developing a 
National Climate Service'' (February 26, 2009). The report identified 
``Key Attributes'' of a National Climate Service worth citing here:

         The Service will achieve its mission by promoting active 
        interaction among users, researchers, and information 
        providers. The Service will be user-centric, by ensuring that 
        scientifically-based information is accessible and commensurate 
        with users' needs and limitations. (p. 5)

    We agree.
    Several organizational options were outlined in this report and we 
concur with those who have suggested that each option contains elements 
of what a future NCS should look like.
    In our view, a powerful and responsive NCS should be like a wheel, 
with a hub (headquarters) and spokes (regional centers). To leverage 
the metaphor a bit further: without the hub, the wheels come off. And 
at the end of the spokes is where the rubber hits the road.
    An NCS, we believe, requires the support of a lead federal agency 
with budgetary authority and responsibility for critically important 
science and data management functions. It seems clear that NOAA, with 
its broad and deep expertise and responsibilities in these areas, is 
well positioned to assume this role. In addition, oversight, as well as 
coordination and cooperation between the lead and other federal 
agencies such as EPA, USGS, NASA, USDA, and others is critically 
important. We need the federal family to come together to create a 
cohesive federal structure that supports the NCS mission. Hopefully, 
lessons have been learned from the example of the U.S. Climate Change 
Science Program, which has been widely criticized for failing to 
achieve a consistent and transparent vision across the federal 
enterprise and for doing a poor job of engaging with stakeholders.
    Stakeholders and researchers alike strongly believe that the 
success of an NCS mission depends substantially on creating a robust 
and geographically distributed regional presence. Such a presence would 
feature engaged, multi-disciplinary teams of physical scientists, 
social scientists, communications specialists, and modelers in the 
communities facing adaptation challenges. These ``boots on the ground'' 
experts understand their region and its unique conditions and are 
active participants in an ongoing and iterative conversation with 
climate information users that builds a familiarity that informs both 
sides. They aren't paratroopers, either--they are a part of the 
communities they serve.
    For the user, we need an accessible go-to entity we can count on to 
help us sift through the ever-changing science, gather the raw data, 
benchmark against the experience of others, educate our publics, and 
work with us in assessing our vulnerabilities. In addition, all these 
players together will organically develop research partnerships with a 
responsive university community, bringing a ``grass-roots science'' 
approach that can complement the ``Big Science'' pursuits in the area 
of climate modeling and atmospheric and oceans science that underpin 
our understanding of global climate change. All this work should be 
part of a set of ongoing relationships, born of a shared mission that 
is at the heart of the term ``service,'' between climate scientists and 
engineers, economists and rate administrators, oceanographers and urban 
planners, elected officials and agency managers.
    These conversations are far from easy. I have attended workshop 
after workshop with climate scientists and decision-makers that are 
intended, like an arranged marriage, to create an advantageous union. 
Usually the climate scientists present their research. Then comes an 
uncomfortable silence. Usually one of the climate scientists who did 
not present makes a comment. Then we move on to the next presentation. 
At one recent workshop track I forced myself to announce that I didn't 
understand the last speaker's presentation, but it seemed important 
that at some point I do. It was like a great weight had been lifted 
from my fellow non-scientists in the room.
    The greatest advances in multi-disciplinary understanding on the 
subject of climate change simply don't happen in one-off workshops. 
They take practice. They happen over time and are based on sustained 
relationships.
    This decentralized, user-centric approach is far from unprecedented 
in the Federal Government. Closest to home, the NOAA-funded Regional 
Integrated Sciences and Assessments (RISA) program offers a notable 
demonstration model. These university-based partnerships, with very 
small but essential core funding from NOAA, have done outstanding work 
in the Southwest, Colorado Basin, Pacific Northwest, California, and 
elsewhere. They have benefited many stakeholders that have had the good 
fortune to work with them and they are today at the heart of both 
general public and stakeholder education about climate change 
adaptation effects for water utilities and others. They bring the 
multi-disciplinary conversations and a science-meets-policy-meets-
decision-making focus that we need. They are already the most useful 
spokes of our wheel.
    A project Denver Water, another of WUCA's member utilities, is 
helping lead illustrates the power of the RISA model and how its 
expansion could pay dividends across the United States. To understand 
climate science and determine potential impacts to local hydrology, the 
water providers of the Front Range urban area of Colorado are 
collaborating on a cooperative regional study in partnership with the 
local RISA, the Western Water Assessment, led by the estimable Brad 
Udall, along with the National Center for Atmospheric Research, Water 
Research Foundation and the State of Colorado. The participating water 
providers supply water to nearly two-thirds of the population of the 
State of Colorado. Working with local researchers and climate change 
experts, the local RISA helped provide educational sessions, 
documentation, direction, and access to experts to help the water users 
understand climate change science and modeling, understand and obtain 
down-scaled global climate model projections, convert the projections 
into sets of planning scenarios, and assist with setting up local 
hydrology models to convert the global climate model projections into 
projected impacts on local streamflow. Being a regional entity, the 
local RISA was familiar with the regional climate projections, 
researchers, water systems, and water utilities. A federal climate 
agency without that regional connection and approach probably would not 
have been able or available to support a regional effort like this, 
making it much more difficult for water utilities to make use of 
climate science. The Front Range cooperative effort is today leveraging 
local cooperation with local service provided by a locally-based 
federal climate science boundary organization, the RISA.
    The RISA program is not perfect, however, and expanding it 
exponentially will have to be done with care. For example, each RISA 
today has a different mission (and even a different name). Greater 
uniformity and clarity of mission within the program would make sense 
if the program model were to be expanded--while maintaining the 
flexibility of each office to respond to differing local and regional 
conditions.
    In addition, expansion of the RISA program alone won't be 
sufficient. Data management, storage, and access depend significantly 
on centralized facilities that regional adaptation programs must have 
the ability to access. In addition, local relationships with regional 
arms of federal regulatory, land management, and operational agencies 
such as USGS, EPA, Bureau of Reclamation, USDA, the Fish and Wildlife 
Service, and the Army Corps will continue, and adaptation efforts must 
account for the need to work with these agencies both in Washington and 
in the field and regional offices.
    Nonetheless, with an annual budget of the nine RISA programs at a 
mere $5 million total, their track record argues for inclusion of the 
model they have field tested in any NCS program. Add a zero (or two) to 
that budget figure, expand the geographic scope, broaden and 
rationalize the mission, and you have the basis of a vigorous regional 
element of a National Climate Service.

Conclusion

    To conclude and emphasize my most important points:

        <bullet>  Drinking water utilities will invest hundreds of 
        billions of dollars in the near-term in our assets--and those 
        investments must be informed by climate change science and 
        services delivered by an NCS;

        <bullet>  An NCS should have a user-centric mission that 
        emphasizes providing actionable, accessible science to 
        stakeholders;

        <bullet>  An NCS requires sufficient federal funding provided 
        by a lead federal entity with active participation and 
        coordination across the federal enterprise, but its most 
        important work should take place through establishment of a 
        multi-disciplinary, geographically distributed presence in the 
        communities in which adaptation must take place;

        <bullet>  The RISA program provides a model to build upon for 
        successful service delivery.

    Thank you again for the opportunity to appear today, Mr. Chairman 
and Members of the Committee, and I would be happy to answer any 
questions you may have.

APPENDIX

                     CLIMATE PRODUCTS AND SERVICES

    In response to specific questions from the Chairman regarding 
various products and services utilized by the SFPUC in our operations, 
the following was prepared by Dr. Bruce McGurk, Operations Manager, 
Hetch Hetchy Water and Power, San Francisco Public Utilities 
Commission.

Please discuss the climate services and products the San Francisco 
Public Utilities Commission utilizes; how this service is delivered; 
and if there is a price associated with this service. Please also 
discuss and provide examples of how these climate services and products 
affect operations and management decisions (and) is there a need for a 
better organization for how these services are delivered.

    The SFPUC's Hetch Hetchy Water and Power division, our up-country 
system that provides 85 percent of total water supply, depends on real-
time streamflow and reservoir elevation/storage data from USGS to 
monitor and operate our project and monitor other river systems around 
us. We pay 100 percent for 16 USGS gages (at an annual cost of 
$320,000) because cooperator co-funding at USGS has been cut 
drastically. We have re-occupied gages that USGS has cut out (Middle 
and South Forks Tuolumne River) because we need the data for current 
operations and future climate change research. The cutbacks that cause 
these and other high-elevation gages to be discontinued make it much 
more difficult to monitor runoff timing shifts and quantity, the exact 
issues that we need to know about to manage our water supply and detect 
the rate of global warming. An additional five to eight real-time 
stream and reservoir gages are operated in the Bay Area and funded 
exclusively by the SFPUC. They are used for release compliance and 
system monitoring.
    We also use a variety of products from NOAA and the National 
Weather Service. We routinely use the Climate Prediction Center's six- 
to ten- and eight- to fourteen-day forecasts, as well as the one month 
and three-month forecasts. NWS forecasters provide valuable advice with 
the Area Forecast Discussions and Zone forecasts. The NWS California-
Nevada River Forecast Center provides invaluable information with their 
Advanced Hydrologic Prediction Services and their daily modeling of 
flows into our reservoirs and others across the state. They combine 
historical and weather forecast data to show likely runoff from our 
basins for the next week to 10 days, and this is very important for 
reservoir operations. We cooperate with the CNRFC and supply them with 
climate and flow data that we collect so that they can do the best job 
possible with their models.
    We use a wide array of other climate and snowpack information 
presented by the California Data Exchange Center (CDEC) and collected 
by cooperators all across California. We depend on snow courses, snow 
sensors, and other climate data that are hosted by CDEC. Data from the 
USDA/NRCS SNOTEL sites are also included in our runoff forecast models. 
We compare our runoff forecasts with NRCS and State-generated 
forecasts.
    We have routine interaction with the NOAA Western Regional Climate 
Center in Reno, and they operate one of the sites that produces 
critical data for our runoff forecast system.
    The current branches of NOAA/NWS are not focused on providing data 
to help with climate change inquiries. They are focused on their 
monitoring and short-term forecasting missions, and as a result it can 
be hard to find appropriate information that has long enough record, 
has the necessary metadata, and is searchable. An NCS that worked with 
NWS in regional centers and provided the data and a focus for climate 
change analysis would be a big improvement. This new function would 
address the current difficulty in partitioning the routine monitoring 
and forecasting from the effort to provide climate scientists and 
adaptation planners with the specialized products that are needed to 
build models using the past data and also produce data that are 
representative of the climate in the future.

                       Biography for David Behar

    David Behar career spans over twenty years in environmental policy 
and water utility management. David currently serves as Deputy to the 
Assistant General Manager, Water Enterprise, at the San Francisco 
Public Utilities Commission. The SFPUC is the sixth largest municipal 
water provider in the U.S. and manages water and power facilities and 
operations at Hetch Hetchy, the regional system that delivers water 160 
miles to 2.5 million Bay Area residents, and water, wastewater, and 
stormwater facilities in San Francisco. He led development of the 
SFPUC-sponsored Water Utility Climate Change Summit held in San 
Francisco in early 2007 and currently serves as Staff Chairman of the 
Water Utility Climate Alliance (WUCA). Established in early 2008, WUCA 
is a coalition of eight water utilities dedicated to providing 
leadership and collaboration on climate change issues affecting 
drinking water utilities by improving research, developing adaptation 
strategies and creating mitigation approaches to reduce greenhouse gas 
emissions. WUCA is chaired by SFPUC General Manager Ed Harrington and 
includes Denver Water, the Metropolitan Water District of Southern 
California, New York City Department of Environmental Protection, 
Portland Water Bureau, San Diego County Water Authority, Seattle Public 
Utilities and the Southern Nevada Water Authority. Prior to joining the 
SFPUC, David was an environmental policy consultant whose clients 
included the Natural Resources Defense Council and the Pacific Rivers 
Council. From 1991-97 he served as Executive Director of The Bay 
Institute of San Francisco, and from 1989-91 he served on the staff of 
U.S. Senator Alan Cranston (DCA). In November 2006 he was elected to 
the Board of Directors of the Marin Municipal Water District, a 
200,000-customer water district just north of San Francisco in Marin 
County, where he lives with his two children.

    Chair Baird. Thank you, Mr. Behar. Mr. Fleming.

      STATEMENT OF MR. PAUL FLEMING, MANAGER, CLIMATE AND 
         SUSTAINABILITY GROUP, SEATTLE PUBLIC UTILITIES

    Mr. Fleming. Good morning, Chairman Baird, Ranking Member 
Inglis, and Members of the Subcommittee. Thank you for this 
opportunity to testify before your committee today. My name is 
Paul Fleming, and I am the Manager of the Climate and 
Sustainability Group at Seattle Public Utilities.
    Seattle provides reliable drinking water to 1.3 million 
people in the Greater Seattle area, and provides sewer, 
drainage, and solid waste services to Seattle residents. The 
City of Seattle has made addressing climate change a top 
priority. Our mayor, Greg Nickels, has been the leader in an 
effort to engage other mayors across the political spectrum on 
the issue of climate change, and the need to take local action.
    In addition, the City's municipally owned electric utility, 
Seattle City Light, will likely see significant impacts to the 
hydropower-based operations, as climate change affects our 
region. They both support my testimony here today.
    Seattle uses, relies on, and supports financially several 
monitoring and forecasting services provided by federal 
agencies, such as NOAA, U.S. Geological Survey, and the Natural 
Resources Conservation Service's, to inform our real-time 
decision-making and short-term planning. As Dr. Mote noted, 
Seattle has also engaged with NOAA's Regional Integrated 
Sciences and Assessment program, RISA, to assess the projected 
long-term impacts of climate change on our water supply, and we 
have used this research to develop initial adaptation options. 
Our operational and institutional capacity have benefited from 
this engagement.
    As an active user of several federal services, and as a 
partner and collaborator with numerous federal agencies, 
Seattle believes there are potentially great benefits 
associated with the creation of a National Climate Service. We 
view NOAA's RISA program as a potential model, particularly 
given its distributed geographic structure. If it were to serve 
as a potential framework for a National Climate Service, the 
RISA model, however, would need to be strengthened and expanded 
along the following lines.
    One, it would need to involve multiple federal agencies in 
the provision of services. The water sector uses the services 
of, interacts with, and is regulated by many federal agencies. 
Our interaction with the federal family would be facilitated by 
having the relevant agencies coordinating their climate change 
programs and research through a National Climate Service, and 
by viewing it as an authoritative source of climate 
information.
    Two, the National Climate Service should involve multiple 
sectors in the development and implementation of programs and 
services provided by the Service. The water sector is engaged 
on the issue of climate change. A National Climate Service 
should recognize this capacity, and view the water sector not 
just as an end user, but as a partner, as well. For example, 
industry research groups, such as the Water Research 
Foundation, should play a critical role in conducting applied 
research for the water sector.
    Three, ensure there is consistency across the distributed 
structure. A National Climate Service should have a common set 
of goals and objectives, so that the distributed branches are 
coordinated and emanate from the common trunk.
    Four, increase overall funding for a National Climate 
Service, while maintaining and expanding, if necessary, 
existing monitoring networks and forecasting services.
    Five, build upon existing partnerships that are effective 
in delivering services. For example, Seattle has partnerships 
with the U.S. Geological Survey and the Natural Resources 
Conservation Service to support the ongoing operations and 
maintenance of streamflow and snowpack monitoring 
infrastructure. This infrastructure should be expanded, and a 
National Climate Service should build off of what currently 
works.
    In addition, I would encourage a National Climate Service 
to be established in such a way that allows for an option to 
scale the services beyond the U.S. As the Federal Government 
continues to engage internationally on climate change, there is 
great potential for the U.S. to assist other countries in 
identifying the projected impacts of climate change, and 
enhance their adaptive capacity. In so doing, we may also 
address potential national security issues.
    In closing, I want to reiterate a few points. Large 
utilities in the water sector are engaged, to varying degrees, 
in furthering their capacity to understand and prepare for 
climate change. Given the operational knowledge and 
institutional capacity of the water sector, a National Climate 
Service should involve the water sector, not just as an end-
user, but as a partner.
    A National Climate Service should serve as a vehicle to 
coordinate the climate change programs of the numerous federal 
agencies that are involved in this issue.
    Thank you again for the opportunity to testify this 
morning, Mr. Chairman and Members of the Committee.
    [The prepared statement of Mr. Fleming follows:]

                   Prepared Statement of Paul Fleming

Introduction

    Good morning Chairman Baird, Ranking Member Inglis and Members of 
the Subcommittee. Thank for this opportunity to testify before your 
committee today. My name is Paul Fleming, I am the Manager of the 
Climate and Sustainability Group at Seattle Public Utilities (SPU). SPU 
provides reliable drinking water to 1.3 million people in the greater 
Seattle area, and provides sewer, drainage and solid waste services to 
Seattle residents. My position at SPU is responsible for developing 
SPU's climate adaptation and mitigation strategies, and establishing 
partnerships with other utilities and research organizations in the 
U.S. and abroad.
    SPU, like many water utilities in the US, is an active participant 
in numerous water sector climate change initiatives related to the 
management, policy and technical challenges and research needs that 
arise from the projected impacts of climate change. We are one of the 
founding members of the Water Utility Climate Alliance (WUCA), a group 
of eight urban water suppliers that collectively provide drinking water 
services to nearly 36 million people. WUCA is currently funding two 
projects: one on decision support systems for the water sector and 
another on an assessment of climate modeling. SPU is also active in the 
climate change initiatives of the Association of Metropolitan Water 
Agencies, the American Water Works Association and the International 
Water Association. SPU is currently advising both the Water Research 
Foundation and the Water Environment Research Foundation as they 
develop their climate change research agendas for the drinking water 
and clean water sectors respectively and continue their leadership 
roles in supporting emerging research. We are also reaching out to 
utilities and researchers in an effort to glean best practices from 
other parts of the world. This engagement with multiple entities 
reflects SPU's belief in the importance of climate change for the water 
sector and our commitment to continually enhance our institutional 
capacity to prepare for the implications of climate change. This depth 
of engagement, understanding and commitment is common to varying 
degrees amongst numerous large water utilities in the U.S.
    The City of Seattle has made addressing climate change a top 
priority. Our mayor, Greg Nickels, has been the leader in an effort to 
engage other mayors across the political spectrum on the issue of 
climate change and the need to take local actions. In addition, the 
City's municipally-owned electric utility, Seattle City Light, will 
likely see significant impacts to its hydropower-based operations as 
climate change affect our region. They support my testimony here today.
    Today, I will highlight some of the existing federal monitoring and 
forecasting services Seattle relies on for water supply system 
operations and planning, describe how we use these services to help 
ensure that we meet our responsibilities and policy objectives and 
describe attributes that we would like to see in a National Climate 
Service.

Seattle's use of Federal Monitoring and Forecasting Services

    Seattle's water supply is derived from two watersheds located in 
the Central Cascade Mountains in Washington State: the Cedar River and 
Tolt River Watersheds. These watersheds receive precipitation in the 
form of rain and snow. Seattle manages these watersheds, the Cedar and 
Tolt Rivers, and our mountain-based reservoirs, to achieve the 
following objectives:

        <bullet>  Water supply for people

        <bullet>  Instreamflows for aquatic species

        <bullet>  Flood management

        <bullet>  Dam safety

        <bullet>  Water quality

    Given the dynamic nature of managing our water supply system, with 
our multiple objectives, capricious weather and the need to balance 
immediate and short-term issues with longer-term planning horizons, it 
is critical that we have access to real-time monitoring and forecasting 
information. Seattle relies on several federal agency monitoring and 
forecasting services to help inform our decision-making. These services 
include, but are not limited to:

        <bullet>  U.S. Geological Survey's (USGS) stream gages

        <bullet>  Natural Resources Conservation Service's (NRCS) 
        SnoTel sites

        <bullet>  National Oceanic and Atmospheric Administration's 
        (NOAA) National Weather Service's weather observations and 
        daily and mid-range weather forecasts,

        <bullet>  NOAA's Climate Prediction Center's 30-90 day and 
        multi-seasonal climate outlooks

        <bullet>  NOAA's Remote Sensing of Snowcover

    Seattle uses these services and others for operational planning at 
multiple time scales, from day-to-day to several months out, to manage 
our rivers and reservoirs in order to meet our objectives. USGS gages 
are used to help us comply with our landmark Cedar River Habitat 
Conservation Plan and to protect salmon habitat and salmon redds on the 
Cedar River. The National Weather Service's general weather forecasts 
inform our reservoir operations and help us time releases of water. 
NRCS's SnoTel sites provide us with estimates of snowpack which we can 
use to project how much water is embedded in the snow blanketing the 
hills in our watersheds. These services are our eyes and ears on the 
ground as well as the binoculars peering over the horizon.
    These services also serve as an authoritative and credible source 
of information, which is critical for the type of collaborative 
resource management decision-making that we engage in on a regular 
basis.
    In addition to using these services, Seattle provides financial and 
in-kind support for some of them. The Tolt and Cedar River Basins are 
extensively gauged and networked, partially as a result of a 
cooperative funding arrangement between SPU, Seattle City Light and 
USGS. In 2009, SPU will contribute roughly $125,000 towards this 
arrangement. We greatly appreciate this arrangement and the excellent 
work of the Tacoma, Washington Office of the USGS. For the NRCS's 
SnoTel program, we provide in-kind surveying of the land where their 
equipment is located. We have invested in these systems and appreciate 
and depend on continued federal support for them.
    Another federal service we have used is NOAA's Regional Integrated 
Sciences and Assessment (RISA) program. In the Pacific Northwest, the 
RISA program is represented by the University of Washington Climate 
Impacts Group (UW-CIG). UW-CIG has been instrumental in helping to 
elevate the issue of climate change in the central Puget Sound region 
and Washington State. The research UW-CIG has conducted has greatly 
advanced the region's ability to understand how climate change is 
projected to affect different sectors of the region and state. Seattle 
benefited directly from engaging with the UW-CIG to conduct two studies 
within the past five years on how climate change is projected to affect 
the hydrology of the watersheds where we operate.
    The most recent study we completed involved the creation of three 
climate scenarios that were based on three Global Climate Models (GCMs) 
coupled with two emission scenarios and down-scaled to the central 
Puget Sound region. The three scenarios projected decreases in our 
water supply ranging from six percent to twenty-one percent by 2050 due 
to climate change. Given this projected range of impacts, we then 
developed initial adaptation strategies and evaluated their 
effectiveness in offsetting the reductions in supply. The first 
strategies we've evaluated were ``no-regrets'' strategies: operational 
adjustments that are low to no-cost, enhance our operational 
flexibility and which could be implemented quickly. By deploying this 
initial portfolio of strategies we estimated we could offset the 
impacts of climate change in two out of the three climate scenarios.
    This assessment also reinforced the role of water conservation as 
an essential component of our climate change strategy. Since 1984, our 
total water consumption has declined by 28 percent while population has 
grown by 26 percent. As a result, water consumption per capita is 43 
percent less than it was a year ago. This has been due to the combined 
effects of higher water rates (and a seasonal and inclining block rate 
structure), the Washington State plumbing code, over two decades of 
aggressive conservation programs, and improved system operations. We 
are also committed to saving an additional fifteen million gallons a 
day (mgd) through conservation programs over the next 20 years. By 
2030, we project that water demand will still be less than it was in 
1965 even though we'll be serving 80 percent more people.
    This engagement with the research community has strengthened 
Seattle's knowledge of the implications of climate change, stimulated 
our development of initial adaptation strategies and enhanced our 
institutional capacity. We look forward to continued interaction with 
UW-CIG, federal agencies and the research community as a whole in the 
co-production of knowledge.

A National Climate Service

    It is often noted that water utilities are on the ``front lines'' 
of, or ``first responders'' in, the battle against climate change. 
While this characterization is apt, it doesn't fully capture the 
breadth of activities the water sector pursues in operating and 
managing our systems and in identifying and preparing for the impacts 
of climate change. To continue with the martial metaphor, we're not 
just on the front lines, but we're also in the war room gleaning 
intelligence data from original research and reconnaissance we have 
conducted; we're often using satellite data to determine how much 
resources (e.g., water) we have to utilize; we're assessing threat 
levels through vulnerability assessments, developing new tools to 
counter those threats, and building alliances to share information and 
resources. The broad spectrum of strategic and tactical activities that 
the water sector is engaged in illustrate that we take the issue of 
climate change seriously and that we have the capability to do a lot of 
work. We need, however, the support of, and continued collaboration 
with, the Federal Government and welcome an integrated and user-driven 
National Climate Service that hastens our ability to identify and 
prepare for the impacts of climate change.
    As an active user of several federal services and as a partner and 
collaborator with numerous federal programs, Seattle believes there are 
potentially great benefits associated with the creation of a National 
Climate Service. Having extensive experience with NOAA's RISA program, 
we view that as a potential model, particularly given its distributed 
geographic structure. Such a structure has the potential of 
establishing strong linkages between the research community and the 
relevant sectors in a given region and creating tailored research and 
services that help to address a region's needs. If it were to serve as 
a potential framework for a NCS, the RISA model, however, would need to 
be strengthened and expanded along the following lines:

        <bullet>  Involve multiple federal agencies in the provision of 
        services. The water sector uses the services of, interacts with 
        and is regulated by several agencies. Having multiple agencies 
        involved in the NCS and viewing it as an authoritative source 
        of climate information would facilitate our interactions with 
        these agencies.

        <bullet>  Involve multiple sectors in the development and 
        implementation of programs and services provided by the NCS. As 
        I have noted before, the water sector is engaged on the issue 
        of climate change and is enhancing its capacity to understand 
        and prepare for the impacts. The NCS should recognize this 
        capacity and view the water sector not just as an end-user but 
        as a collaborator as well. This is particularly salient with 
        respect to vulnerability assessments, where a utility's tacit 
        knowledge of its system operations can ``ground truth'' the 
        assessment and identify and evaluate the effectiveness of 
        operational adjustments. Such an emphasis could also help to 
        complement the current university context for RISA program 
        delivery.

        <bullet>  Ensure there is consistency across the distributed 
        structure by establishing a common set of goals, objectives, 
        and tenets across the country so that the NCS is responsive to 
        the water sector's need for ``actionable science'' and that the 
        distributed ``branches'' of the NCS are well coordinated.

        <bullet>  Increase overall funding for an NCS while maintaining 
        and expanding, if necessary, existing monitoring networks and 
        forecasting services. These services are essential for 
        operations and planning today and will be even more critical in 
        the future.

        <bullet>  Build upon existing partnerships that are effective 
        in delivering services. As noted previously Seattle has 
        established relationships with USGS and NRCS to support the 
        ongoing operations and maintenance of streamflow and snowpack 
        monitoring infrastructure.

        <bullet>  Establish a structure that allows for an option to 
        scale the services beyond the U.S. As the Federal Government 
        continues to engage internationally on climate change, there is 
        great potential for the U.S. to assist other countries in 
        enhancing their adaptive capacity as well as learning from them 
        while also addressing potential national security issues. 
        Through appropriate agreements or perhaps as part of foreign 
        aid programs, the National Climate Service potentially could 
        provide essential monitoring services and research for areas of 
        the world that don't have access to such information.

Conclusion

    In closing, I want to reiterate a few points:

        <bullet>  Large utilities in the water sector are engaged to 
        varying degrees in furthering our understanding of the 
        implications of climate change and in preparing for the 
        challenges it creates;

        <bullet>  We welcome additional federal collaboration that 
        builds off of and expands existing monitoring and forecasting 
        services and collaborative partnerships;

        <bullet>  Given the operational knowledge and institutional 
        capacity of the water sector, a National Climate Service should 
        be based on a geographically distributed but nationally 
        coordinated structure that involves and complements the water 
        sector's tacit knowledge and experience.

    Thank you again for the opportunity to testify this morning Mr. 
Chairman and Members of the Committee.

                       Biography for Paul Fleming

    Paul Fleming is the Manager of the Climate and Sustainability Group 
for the Seattle Public Utilities (SPU). SPU provides a reliable 
drinking water supply to 1.3 million people in the Seattle metropolitan 
area and provides essential sewer, drainage and solid waste services to 
City of Seattle customers. Paul leads SPU's climate change initiatives 
and is responsible for developing and directing SPU's climate 
adaptation and mitigation strategies and research agenda as well as 
establishing collaborative partnerships with other utilities and 
research organizations in the U.S. and abroad. Paul also supervises 
SPU's green building program and is involved in SPU's sustainable 
stormwater infrastructure initiatives.
    Paul is an active participant in several national and international 
efforts focused on water and climate change. He is active in the Water 
Utility Climate Alliance, an alliance of eight U.S. urban water 
suppliers focused on adaptation, GHG mitigation and climate research, 
where he chairs the Science and Research Committee. He serves on the 
Water Research Foundation's Climate Change Strategic Initiative Expert 
Panel, where advises the Foundation on the development of a climate 
change research agenda for the drinking water sector. He is also 
advising the Water Environment Research Foundation on their development 
of a climate change research agenda for the drainage and wastewater 
sector. Paul develops and leads SPU's international collaborative 
efforts, including work with Dutch researchers on urban drainage 
climate adaptation. He is also participating in a U.S. State 
Department-funded project that is examining security, energy, water and 
climate change issues in Central Asia.
    Paul has been an invited speaker on climate change and water at 
water industry conferences and workshops in Washington State, 
Amsterdam, Atlanta, Baltimore, Colorado, Edinburgh, Toronto and Tokyo. 
Prior to his current position Paul managed SPU's State legislative 
agenda and worked on State and regional water supply and environmental 
policy issues.
    Paul is a board member of Worldchanging.com, which is a media 
organization that covers tools, models and ideas for creating a better 
future. He is also a delegate to the U.S.-Japan Leadership Program. 
Paul has a BA in Economics from Duke University and an MBA from the 
University of Washington and lives in Seattle with his wife and 
daughter.

    Chair Baird. Thank you, Mr. Fleming. Dr. Doesken.

    STATEMENT OF DR. NOLAN J. DOESKEN, PRESIDENT, AMERICAN 
      ASSOCIATION OF STATE CLIMATOLOGISTS; COLORADO STATE 
  CLIMATOLOGIST, DEPARTMENT OF ATMOSPHERIC SCIENCE, COLORADO 
                        STATE UNIVERSITY

    Dr. Doesken. I am used to extemporaneous stuff, so wish me 
luck.
    Mr. Chairman, Ranking Member Inglis, Committee Members. I 
appreciate this opportunity to represent a State perspective on 
climate services. I am the State Climatologist for Colorado, 
the current President of the American Association of State 
Climatologists, and here is a little description of what we do.
    We are experts on the climate of our own states, whether it 
is just basic temperature and precipitation patterns, 
seasonality, geographic variations, year to year variations, 
which are a really big deal, drought and other extremes, which 
are a really big deal, and historic trends, which are very 
interesting.
    Perhaps more importantly, we see how the climate affects 
the citizens of our states, their lives and their livelihoods. 
We rely on data, quality, representative observations of our 
climate system, whether it is temperature networks, humidity, 
wind, precipitation, or very important, solar energy, all of 
the elements of our climate system. And our ability to provide 
useful information to our states really relies on the presence 
of quality data.
    Whenever I travel, I see climate services in action. The 
infrastructure that we drive on, our bridges, our culverts, our 
energy distribution systems, our buildings consuming energy to 
keep comfortable inside, regardless of the variations outside, 
and how we utilize what we know about our climate to better 
adapt our infrastructure.
    We have traditionally relied on federal sources for the 
data that we use in what we do. National Weather Service 
Cooperative Observer Network, very important. Airport weather 
observations through many decades. U.S. Geological Survey 
streamflow data, NRCS, which we have heard of here today. Soil 
moisture measurements, mountain snowpack data, streamflow 
predictions. We are long-time users of NOAA data resources in 
so many ways.
    We basically believe the climate monitoring activities are 
predominantly a federal responsibility, but more so, we keep 
seeing our fellow states doing more data collection on their 
own to address their own, State-specific needs. At least half 
of us, as State climatologists, are involved in some way in our 
own data collection systems. Often, for agricultural purposes; 
also for energy, water resources, et cetera.
    Let me talk briefly about collaborations, because if you 
knew what our State budgets were, and you probably do, we can't 
function well without collaborations, rich collaborations with 
federal partners. Many of us work closely with our Regional 
Climate Centers. We know them as friends. These groups have 
helped us stream out data access and management, so we can 
focus on interpretation of information, and the delivery of 
that information.
    A few of us have the benefit of working with RISAs. I am 
one of them, in Colorado. Not all states have RISAs. Many of 
our, my fellow State climatologists, have no experience working 
with RISAs, just because they are limited in geographic extent. 
Unlike RISAs, who get to focus on specific sectors and 
decision-makers, we get to work with the whole gamut, anywhere 
from State government down to small business and individuals.
    Private companies are pretty good friends with State 
climatologists. We provide information that really helps them 
make their business decisions, and we are not viewed as 
competition.
    National Weather Service, long partners, data collection, 
and more recently, in data services. And our organizational 
structure that facilitates working with the Federal Government 
is our association, the American Association of State 
Climatologists, just as a vehicle for two way communications. 
It is a little more efficient.
    In summary, we are local experts. We work at the grassroots 
level. We are an essential branch of climate services as they 
are occurring today. We track the pulse of our climate at the 
local level, and we do so on very, with very few resources, in 
so many ways. We are trusted advisors to State and local 
government, business, individuals, and communicators of 
information to our local media. We are flexible, and we are 
responsive.
    We are largely educators; 80 percent of us are at public 
universities. Many of us teach students, mentor grad students, 
as well as aid in decision-makers. More than 60 percent of us 
are at land grant universities, and utilize the infrastructure 
and wisdom of our traditional system of extension to reach 
broad audiences.
    So, we favor the concept of a National Climate Service. We 
are ready to help.
    Thank you.
    [The prepared statement of Dr. Doesken follows:]

                 Prepared Statement of Nolan J. Doesken

    Thank you very much for this opportunity to share a State 
perspective on climate services.

Background

    Prior to 1973, each state had a State climatologist as a part of a 
long-standing climate program within the Department of Commerce, U.S. 
Weather Bureau. When that program was abolished in the early 1970s, 
states--as they were able over a period of years--established their own 
offices to carry on the functions of State-specific climate monitoring, 
research, education and service. NOAA's National Climatic Data Center 
(NCDC) was an early partner in fostering State-based climate 
activities. NOAA data, particularly temperature and precipitation data 
from the National Weather Service Cooperative Observer Network and more 
detailed Surface Airways observations, were the primary data sources at 
that time for almost all U.S. ground-based climate monitoring, research 
and service. NCDC still remains a strong partner supporting State 
efforts, facilitating access to data, and enlisting our expertise in a 
variety of ways.
    The American Association of State Climatologists (AASC) was 
established in the mid 1970s to professionally link the efforts of 
these emerging State programs, and to offer a forum for federal 
partners to more easily communicate and work with states on climate-
related issues. AASC is an effective organization for communicating 
federal-level climate services, through State Climatologists, to the 
citizens and local stakeholders that we serve, within our states. It 
has also been an appropriate forum to communicate State-level data and 
information needs back to federal agencies. While there is so much 
climate diversity across our country, and the challenges faced by 
individual states vary greatly, we share many common interests and 
concerns that are best addressed together. For example, access to 
reliable long-term climate data, best practices in data analysis, 
applied research strategies, means of identifying and assessing State 
and local climate variability and change, effective means of outreach, 
and means of engaging stakeholders and assessing the impact of our 
efforts.
    Recognizing the important role of State Climatologists, the 
National Climate Program Act of 1978 included language that requested 
federal funding for State Climate Offices to improve the consistent 
delivery of critical climate information to the citizens of the United 
States. Funds for individual State activities were never appropriated 
then. Still, State climate offices independently developed. The 
National Climate Program Act of 1978 did not directly help State 
climate service efforts, but it did lead to the eventual formation of 
Regional Climate Centers (RCCs) which have been excellent partners and 
assets to State climate services ever since.
    Currently 48 states have State Climate Offices. Some are housed 
within State agencies, but most are affiliated with State universities. 
The majority, such as my host institution, are at Land Grant 
universities. Most State Climatologists are actively involved in 
research and teaching--collectively mentoring hundreds of future 
scientists and educators each year. Many of us are well connected or 
directly a part of our State Extension programs adding further to our 
outreach effectiveness.

Activities of State Climate Offices

    State Climatologists (SCs) are experts on the climate of our 
respective states--seasonal cycles, geographic variations and year-to-
year variability. We are familiar with the climate data resources of 
our states over the period of instrumental record--typically back to 
the 1880s. Some of us have expertise in paleoclimatology which helps 
provide longer perspectives about climate variability. Nearly all SCs 
have additional areas of expertise ranging from observation systems, 
agriculture, and remote sensing, to hydrology, climate modeling and 
climate change. We enjoy helping others find the data and information 
they need to address their challenges and opportunities. We often 
operate on a ``grass roots'' level, providing personalized and 
localized climate information to a wide range of businesses, 
individuals, and organizations. We don't often have the luxury of 
focusing our efforts on the needs and climate-affected decisions of 
specific user groups. Instead, we work with diverse groups--State and 
local government, utilities, large and small businesses, engineers, 
architects, builders, consultants, attorneys, researchers, educators, 
media and many others--and we do so with a local understanding of the 
climate and an appreciation for the needs and applications of the 
customers. Rather than just providing requested data, it is customary 
to ask ``How will you be using this information?'' That simple question 
so often results in better service, greater trust, frequent 
opportunities for applied research, and better information about the 
types of data, models and other decision-making tools, monitoring 
systems, forecasts and projections needed to answer important 
questions.
    A typical day in the life of a State Climatologist may go something 
like this. We may brief State agencies in the morning, do a media 
interview at lunch, teach a class and answer a variety of climate 
information requests during the afternoon, and then give an invited 
talk to a community organization during the evening. We are typically 
passionate about our work and love sharing information with others. Our 
products, services and approach to outreach vary somewhat from state to 
state, and are customized to meet specific local needs. Products 
typically include addressing weekly or monthly climate monitoring and 
reporting (to State and federal agencies, media, etc.), drought and 
water supply monitoring, agricultural decision support, historic 
climate trend analysis, information sources and tools for engineering, 
architecture, design and related consultants, and consultation to 
emergency management and law enforcement officials and to the legal 
profession. Some State offices have actively provided climate data and 
information supporting renewable energy planning for over 30 years.
    Here are a few examples of specific State activities, showing the 
breadth of our services.

         http://www.nc-climate.ncsu.edu/

         http://www.ndsu.nodak.edu/ndsu/ndsco/

         http://climate.rutgers.edu/stateclim/

    The AASC website provides quick-click access to all State Climate 
Office web sites

         http://www.stateclimate.org/

    State Climate Offices are both users of existing federal climate 
data sources and providers of unique local data. State climate offices 
continue to rely on the National Weather Service Cooperative Network 
data because it is the best source for high-quality nationwide 
temperature and precipitation data, the only source for nationwide 
snowfall data, and the only source of relatively consistent century-
long nationwide data on the scale of individual counties. But we are 
interested in any well documented, verifiable data source to help us 
track specific elements of the climate within our states. We are 
currently partnering with NOAA to improve State-level data 
accessibility and information products for the new modernized 
Historical Climate Network (HCN-M) and the recently deployed Climate 
Reference Network (CRN).
    Driven by ever-growing demands for instantaneous weather data at a 
high-spatial density, many SCOs manage and maintain specialized 
observing networks. Best known is the Oklahoma Mesonet http://
climate.ok.gov/mesonet/ But many other State climate offices are also 
involved in aggressive data collection efforts to meet a variety of 
decision support functions. Even low tech approaches like the volunteer 
``Community Collaborative Rain, Hail and Snow network'' http://
www.cocorahs.org are helping gather important data while helping 
educate the general public about climate. The potential exists to 
integrate public and private data sources to achieve a national 
``mesonet'' to serve both instantaneous weather and longer-term climate 
service and research needs.
    Real time weather data for forecasting and operations have great 
value but are not always suitable for climate analysis and research. 
The exact location of weather stations and how well they are maintained 
make a big difference to climatologists. Therefore, State Climate 
Offices give much attention to data quality and the development of 
quality control procedures and tools. We inform NOAA regarding our 
standards and expectations for climate data and information products. 
We also work with other federal agencies involved in climate monitoring 
and research. Stream flow measurements by the USGS, mountain snow 
accumulation, snow water content and soil moisture measured by the 
USDA-Natural Resources Conservation Service, and fire weather 
conditions monitored by the U.S. Forest Service and Bureau of Land 
Management all feed in to effective climate monitoring at the State and 
local level.
    State Climatologists receive frequent requests for statewide or 
more localized information and interpretation of seasonal climate 
forecasts and climate change projections and potential impacts. Because 
of the huge scale and magnitude of these efforts, most states rely on 
the National Weather Service Climate Prediction Center for seasonal 
forecast information. For climate change projections and impacts, we 
typically turn to the resources of the Intergovernmental Panel on 
Climate Change (IPCC) and the Climate Change Science Program (CCSP) as 
well as other State and regional assessments by public and private 
entities. We then communicate this information to our more localized 
audiences adding our knowledge and local perspective.

State Climate Office relationships with existing NOAA climate service 
                    programs

    As stated earlier, the AASC has worked with NOAA's National 
Climatic Data Center from our very beginning and appreciate the support 
that has been provided to our members. We also enjoy close working 
relationships with Regional Climate Centers. Some State Climate Offices 
are co-located with RCCs. Some RCC staff have previously worked in 
State Climate Office settings and understand our needs. RCCs have 
helped State Climate Offices by reducing the need for each of our 
states to maintain our own independent climate databases for NOAA and 
other agency climate data resources. The wide variety of information 
available from the Western Regional Climate Center web site is a good 
example. http://www.wrcc.dri.edu/
    Our concerns regarding access to climate data and analysis are 
usually heard and often addressed. For example, the RCCs are currently 
developing a climate data access system specifically for State Climate 
Office needs based directly on specifications developed by our 
organization.
    National Weather Service climate service activities have, in recent 
years, become much more active and visible ranging from drought 
monitoring, to dissemination of seasonal forecasts to timely web-
accessible local climate information. Because of their public 
visibility and accessibility, the NWS is often the first stop on first-
time users' quests for climate information. Traditionally, the NWS 
major field-level role in climate service was climate data collection 
including the operation of their nationwide Cooperative Observer 
Network and airport weather data collection. This has been essential 
for basic climate monitoring and research. With data analysis support 
provided through the RCCs, NWS Forecast Offices have greatly improved 
their own local climate service potential in recent years. This has 
beneficially taken some of the load off SCOs in terms of routine 
individual climate information requests.
    AASC collaboration with Regional Integrated Sciences and Assessment 
teams (RISA) is a work in progress but with much potential for further 
enhancement. Up to this point, most states have not had RISA teams with 
which to partner. RISAs have benefited from the ability to focus on 
particular environmental applications and selected decision-makers. 
This is in marked contrast to State Climatologists who must address the 
diverse needs of all stakeholders and citizens within their states. 
Nevertheless, where RISAs have been active for several years, including 
where I work in Colorado, we are finding many and effective ways to 
partner to improve climate services, including customized climate 
education, and focused research and data product development needed to 
address the questions of specific decision-makers. A 2008 report 
sponsored by the Colorado Water Conservation Board, ``Climate Change in 
Colorado--A Synthesis to Support Water Resources Management and 
Adaptation,'' is an example example of RISA-enabled State partnerships.
    The presence and activities of the National Climate Program Office 
(NCPO), while well known at the national level, are not routinely 
evident at the individual State level. The NCPO has reached out to the 
AASC and invited our participation in several national-level planning 
and evaluation meetings (e.g., climate services; drought). We are 
represented on NOAA's Climate Working Group, their lead external 
advisory body, which evaluates and recommends future directions for all 
NOAA observing, research and outreach endeavors related to the climate 
system. Indirectly, we also benefit from the NCPO's support of RISAs 
and their sponsorship of other applied research endeavors.
    The National Integrated Drought Information System (NIDIS) is a 
relatively new program but one that may have a large impact on State 
Climate Office activities. Drought-related efforts at the State level 
are often the most time consuming and important of all of our multi-
faceted endeavors. AASC collaborations with NIDIS may have substantial 
mutual benefits. Here in Colorado, NIDIS is offering our office a lead 
role in shaping a portion of the Upper Colorado River Basin NIDIS pilot 
project with a focus on the drought early warning needs of several 
specific user groups.

The American Association of State Climatologists and the National 
                    Climate Service

    In 2008, the AASC prepared a statement expressing our interest and 
identifying our potential role in a developing and evolving National 
Climate Service. http://www.stateclimate.org/publications/
    Our Association looks favorably on the establishment of the 
National Climate Service. A well-organized National Climate Service has 
considerable potential to focus federal resources on global, national, 
State and local climate challenges. We see NOAA as a logical agency to 
lead this effort and we look forward to doing our part. We have much to 
offer and much to gain. Because we work most effectively on the State 
and local level, and have a finger on the pulse of what many decision-
makers require, the AASC can add a credible local presence and voice to 
complete an effective National Climate Service. We are counting on 
NOAA, and other federal partners needed to construct an effective 
service, to work well together and to recognize the essential and 
foundational nature of systematic climate monitoring--maintaining and 
enhancing climate observing networks that simultaneously meet many 
needs (energy, water, agriculture, transportation, commerce, public 
safety, etc.).

A concluding story

    In conclusion, I would like to tell a short personal story. Over 20 
years ago when ``Global Warming'' was first appearing regularly in the 
national press, I was invited to speak to a meeting of the ``Colorado 
Young Farmers'' organization. These farmers were mostly in their 40s at 
that time and well educated. They politely listened to the presentation 
where we showed upward trends in greenhouse gases and discussed the 
possible implications and some early climate model projections of 
warming. Then we showed graphs of 100 years of observed data over 
eastern Colorado. As dryland farmers on the Great Plains, they were 
intimately familiar with climate variability and its impacts on their 
lives and livelihoods. After the formal presentation ended and as we 
sipped hot coffee, one of the leaders of the organization came up to me 
(and I will never forget this). ``I guess we should take climate change 
seriously. When I look back at my grandpa and how he farmed I think we 
can change--we will change. We've already changed our farming practices 
so much. But this darn year-to-year variability . . . that's what kills 
us. We appreciate what you scientists are learning about climate 
change, but if you can do anything to help us deal with the big changes 
we see from year to year, we'll be very grateful.''
    With that in mind, we (the AASC) appeal to you to seriously 
consider the full range of potential benefits of a National Climate 
Service across a variety of time scales. With growing concern regarding 
climate variability and change in a vulnerable society, the needs for 
both generalized and customized climate data and information will only 
continue to grow and become more acute. Take the necessary time to 
develop the appropriate leadership structure that can incorporate the 
extensive expertise and service capabilities of other federal agencies 
and make full use of expertise and flexibility of State and university 
partners. Together, we can accomplish much.
    Thank you very much for this opportunity to share my views and 
those of many of my colleagues.

                     Biography for Nolan J. Doesken

    Nolan Doesken grew up in rural central Illinois with an early 
fascination with weather and climate that has stuck with him his entire 
life. He attended the University of Michigan receiving a Bachelors 
Degree in Meteorology and Oceanography in 1974. He returned to Illinois 
for graduate work at the University of Illinois. There he conducted 
climate research at the Illinois State Water Survey while completing a 
MS in Atmospheric Science in 1976. Nolan moved to Colorado in 1977 to 
become Assistant State Climatologist at Colorado State University. Over 
the past 32 years he has been involved in a wide variety of climate 
research and educational activities with a special focus on drought, 
precipitation measurement and analysis, and the effects of climate on 
agricultural and natural resources. He has worked with the National 
Weather Service on several projects evaluating climate data from new 
observing systems. Mr. Doesken is currently assisting the National 
Integrated Drought Information System (NIDIS) in the Upper Colorado 
River Basin pilot project. He has published many climate-related 
articles and reports including a popular book on snow: ``The Snow 
Booklet : Guide to the Science, Climatology and Measurement of Snow in 
the United States'' (1997). Nolan is just the fourth Director of the 
historic Fort Collins Weather Station with a record of continuous 
climate monitoring dating back over 120 years. He also manages the 
Colorado Agricultural Meteorological Network (CoAgMet).
    Nolan became Colorado State Climatologist in 2006. He is a long-
time member of the American Association of State Climatologists (AASC) 
and became President of that organization in 2008. Nolan was honored as 
a ``NOAA Environmental Hero'' in 2007 for his work in starting a 
nationwide volunteer program (CoCoRaHS--Community Collaborative Rain, 
Hail and Snow network) which provides climate education opportunities 
for the public while also producing an exceptional research-quality 
data set for climate monitoring and to aid weather forecasters.
    Nolan and his wife, Kathy, have a small farm near Fort Collins, 
Colorado. Nolan serves on the Board of Directors of an irrigation 
company there.

                               Discussion

    Chair Baird. Thank you, Dr. Doesken, and thanks to all the 
panel, again, for your insightful testimony today, but also, 
your service.

             More on Structuring a National Climate Service

    So, I am trying to envision the organizational chart in my 
head, which is maybe some of what we have been dealing with on 
the panel. And it is evident to me that you represent users, 
but also producers of information. It is clearly a two way 
system, where you can say our experiential data feeds back into 
the loop and vice versa.
    Does it make sense to come up with, if you had a National 
Climate entity, Service, does it make sense that you would look 
at some of the various agencies that you have described 
already, like NRCS, like USGS, like the Weather Service, like 
the RISAs, and others, doubtless, and say okay, so the National 
Climate Service, maybe those entities continue pretty much as 
they are, but the National Climate Service is the coordinating 
entity that brings their data together, and to some extent, the 
sub-agencies maybe have people with dual assignments or 
dedicated missions, so you know, they answer, sort of both 
chains.
    What about that idea? Bad idea, good idea, does it make 
sense, what is already being done, but there is the lack of a 
national coordination? What are your thoughts on that?
    Mr. Behar. I will start. I think from a stakeholder 
perspective, having that kind of one stop shopping approach 
that leverages the data and information, leverages the 
expertise that exists, and leverages the regulatory and 
operational relationships that we already have with entities 
like GS and Bureau of Reclamation, if we are in reclamation 
basin, is really important.
    It really will help to translate the climate change 
challenges to the user level. We need, ideally, a single or a 
few places that we know we can go to get the data, the 
analysis, the research assistance, and all the other inputs 
that go into, in the case of the water utility, in most cases, 
our systems operations models, so that we can then think about 
what it is we face, in terms of our water supply.
    Then, down the chain, we also probably could use some help 
from social scientists and others who are evaluating decision 
support methods that can be used in an atmosphere of 
uncertainty, which we know we'll obtain for many, many, many 
years in the future, no matter how much more money we put into 
the climate models, which we do think we should put more money 
into the climate models.
    And so from, you know, from end to end, as simple a 
structure as possible will be beneficial. It is very hard for 
users to really understand all of the different entities that 
are out there, and streamlining that would be very beneficial.
    Chair Baird. Mr. Fleming.
    Mr. Fleming. I would add that you seem to describe almost a 
matrix management approach, which I don't know if the Federal 
Government does that very well. I don't know if anyone does 
that very well, but I think fundamentally maintaining----
    Chair Baird. We won't get into credit default swaps, and we 
will be all right.
    Mr. Fleming. Ensuring that systems that are working now are 
not disrupted. So, I think, to varying degrees, you know, we 
are able to access pretty good information, really good 
information from USGS and NRCS, at least in Seattle, and I 
think Dr. Strobel would probably echo that, that that is the 
case across the Northwest and other parts of the country.
    So, National Climate Service should not disrupt those 
services that are working really well, but I believe there are 
information gaps that a National Climate Service could step 
into. So, it seems to me that you would want to have some 
service that does, provides some integrated function to it, and 
that doesn't replicate what is working now. And that is, we 
would definitely welcome coming back to you per your invitation 
to the previous panel, because I think you have an 
organizational challenge and opportunity ahead of you in 
crafting this bill.
    Chair Baird. Dr. Doesken.
    Dr. Doesken. Well, we feel very much like, I guess you 
would call us middlemen. We need a national perspective, a 
national modeling activities, national prediction skills that 
we will never have the capacity at the State level to do.
    And some customers want to be able to go right to that 
level. Other customers much prefer coming to a local level or a 
regional level. So, it seems like there is very good reasons to 
have a three tiered system, where users can enter at the level 
that they work. Exactly how all the pieces come together, I am 
not yet totally clear on, either, but leveraging the skills and 
capabilities and activities that are already involved, you got 
to start there.
    Chair Baird. And the notion we have heard, a great deal of 
today, also is that if you were, let us say you are an 
industry, or you are newly appointed to run some municipality, 
where do you go? It takes a while just to get up to steam, and 
there are places where you would like to go, and they don't 
exist yet. We don't have the datasets or, but it just takes you 
a while to figure out who you have got to talk to.

                        Interagency Coordination

    And in your experience, is the coordination across the 
various agencies sufficient, or do you find that well, I have 
to go to these folks for this, and then these folks for this, 
and get a little bit here, and then I piece it together with 
more or less degree of accuracy and certitude. How does that 
work?
    Dr. Strobel. Well, I guess I could just say that it is 
getting better. The fact, with the availability of the 
Internet, and the way that we can link on to other people's 
information and share that information, and the accessibility 
that folks have to access that information, not always just 
through our sites, but through other people's sites, and 
linking into it, has really greatly improved the collaboration 
and sharing of information, and the accessibility of that 
information.
    So, is it perfect? No. But is it getting better? Yes. I see 
very positive things happening with that.
    Chair Baird. Do you feel like a climate service entity 
within the, at the federal level would help facilitate that, or 
create new problems?
    Dr. Strobel. Our Department hasn't come out with a 
statement on this yet. I will just say that there are always 
benefits to more collaboration and more accessibility to the 
information. I mean, the more we get it out to the users, the 
better it benefits everybody.
    Chair Baird. Mr. Fleming, and then, I will recognize----
    Mr. Fleming. Seattle relies on the Internet to a large 
degree to get some of this data, particularly for the 
operational decisions, where we are looking at weather 
forecasts, to understand whether we need to make releases to 
provide flood management, or to ensure that we don't scour 
salmon rights in the rivers that we manage.
    I will also add that, you know, we have benefited immensely 
from having a RISA program in Seattle. The University of 
Washington Climate Impacts Group is a couple miles north of our 
offices, and we have been able to rely on them and work with 
them to enhance our understanding of what the implications of 
climate change mean for our water supply.
    So, to some degree, we definitely see the benefits of a 
National Climate Service, but we are operating from the 
position of having tremendous resources in our backyard.
    Chair Baird. Okay. The final thing, I would just comment 
before I yield to Mr. Inglis is that if you look historically 
at some of the great trends and changes in human history, the 
big dislocations, conflicts, it is so often climate-related, 
and that ties to demographics. And one of the things that I 
struggle with is, census data tells us we are looking at 139 
million more people in this country in the next 40 years. Very 
rarely do we make informed decisions about where people can 
live. We don't say gee, you know, if you all move to the 
desert, you might just have a water problem. And people tend to 
move there, and then expect somebody else to fix it, and 
somewhere, we have got to integrate the kind of data that you 
folks are experts in, with those kind of decisions, and we are 
miserable at doing that, actually.
    Mr. Inglis.

                         State Climate Offices

    Mr. Inglis. Thank you, Mr. Chairman. And Dr. Doesken, how 
are State climate offices typically funded? Is that by State 
appropriations, or are you getting federal money?
    Dr. Doesken. It is highly variable. And in some cases, it 
is on a State line item budget, but in many cases, it is within 
university settings. Only about six of us, I think, are in 
State government, of which South Carolina is one of those 
examples.
    So, we are all fighting our own battles in various ways, 
but again, we are typically affiliated with universities, and 
universities have found us to be great assets to the research 
efforts and the educational efforts that go on there. So, it 
makes some sense.
    Mr. Inglis. So, what we are talking about here, in creating 
a new office that would consolidate some of these things, or I 
am not sure consolidate is the right word, create new 
information. Is it, what do you see as the future of climate 
offices, the State climate offices, in that?
    Dr. Doesken. Well, trying to find the right place for us 
is, without asking for way more State or federal money, is a 
real challenge. We would like to see the service that we are 
providing funded to the level that our states need, and whether 
that is through State support, or whether it is through federal 
support, we are open either way.
    But we have a lot of flexibility when we are not a line of 
a federal agency. It gives us a lot more nimbleness on the 
local level, so we like to stay independent as much as we can, 
but would like to see additional support come to us, so we have 
more uniformity in what we are able to do nationally.
    Mr. Inglis. Do you, do climate offices, State climate 
offices ever charge for their data, or how does that work? Do 
you get fees from somebody?
    Dr. Doesken. We charge in a way that may vary from state to 
state. We definitely collect revenue when we are able to, to 
help offset some of our local expenses, and we work, utilizing 
graduate students and undergraduate students helping in our 
services, which is great training for them for the future, as 
well.
    Mr. Inglis. And you are the folks that set drought levels 
and things like that. Is that right? I mean, in South Carolina, 
for example, the State Climate Office there declares when we 
are, what level of drought, and that sort of thing.
    Dr. Doesken. We participate greatly in that process. State 
climatologists probably spend more time dealing with drought-
related issues than most any of the other factors that we get 
to work with.
    Mr. Inglis. And I guess I am maybe asking a question you 
don't know, because it is South Carolina, but does that, is 
that a call by that office, or do they work with somebody else 
to make the call about restrictions, for example, on water 
usage?
    Dr. Doesken. It is a function of State drought response 
plans, how they have been written. Usually, we are advisors to 
the process. In only some states does the State climatologist 
actually make that call.
    Mr. Inglis. That is helpful. So, do you feel that the State 
climate office's standards and expectations for climate data 
are met by NOAA and other federal entities involved in 
producing those, that data?
    Dr. Doesken. We think they are doing a pretty good job 
monitoring for federal response, and a regional response. For 
State-based responses, higher resolution information, both in 
time and in space, are often required, and the measurement of 
variables that federal programs haven't always monitored. For 
example, soil moisture, evapotranspiration, things that help us 
with the water balance a little bit more. That is why a lot of 
states have gotten into data collection, to fill in those gaps.

                  Mitigating a Duplication of Services

    Mr. Inglis. So, that is all very helpful. I think the thing 
that I might ask, just a final question. Has anybody got any 
additional thoughts about how to make sure that we don't create 
a duplicative kind of situation here in any, I mean, it has 
been sort of the common thread of questions emanating up here. 
I don't know if anybody has any further observations about 
that.
    Mr. Behar. That is one of the tough questions, and we want 
to neither duplicate what is out there, nor create or 
institutionalize a dispersed structure at the climate level, as 
distinguished from the weather or the monitoring or data level, 
where obviously, we have got dispersed data sources, and need 
to collect those, and they are collected well, by GS, although 
we pay for our GS gauges now in San Francisco, because they 
have been discontinued by GS. And National Climate Data Center, 
and other places where that data exists.
    In terms of the policy-making, the decision-making, the 
climate, decadal scale information that we are starting to 
think about needing to plan around, as are many stakeholder 
entities, the challenge is to exactly do what you posed as the 
challenge, which is to have as much of a centralized, but at 
the regional level, place for stakeholders, by the way, of 
varying sophistication, to go to.
    It is worth noting that Seattle Public Utilities is 
probably at one end of the sophistication scale, at the high 
end, in terms of tracking this information. And there are many 
others who are really struggling with where to get the climate 
information, and how to think about it, as I think Dr. Barron 
alluded to as well.
    And we really need to meet all of those needs, across the 
spectrum, and provide, as much as possible, the kind of 
research institution and planning assistance that Seattle has 
in its backyard with the SIG program that not everybody has.
    That is starting to happen. We are starting to learn from 
examples like the RISA model, which is not duplicating what is 
going on anywhere else, in our view, and that is obviously one 
of the key questions in forming an NCS that is successful.
    Mr. Inglis. Well, I would like to add this, Mr. Chairman. 
You know, it is interesting that last night, we were having our 
dinner conversation at our house, about Wikipedia, and whether 
our girls should cite it, you know, and I think that they are 
more accurate. Isn't there some story about how they are more 
accurate than Encyclopaedia Britannica or something, fewer 
mistakes or something. And it really does show the change that 
information technology has brought, and the way the government 
has to figure out a way to harness the abilities we have now, 
because it used to be that you had this office doing this, and 
that one doing that, and this other one doing that, and they 
were all funded different ways, and they all had their jobs, 
and they didn't step on each other's toes. It doesn't deliver 
what people need, and what people expect, and it is a good 
expectation, that they get from private vendors, is you can go 
to the website, and you can drill down to exactly what you 
want.
    And so, you know, get down to my farm, tell me what is the 
rainfall at my farm. It is really what we in government have to 
figure out how to deliver, if we are going to remain relevant, 
and make, put it another way, deliver the kind of quality 
services that people expect, and that they are paying for. So, 
it really is, it is a big challenge here, is to figure out how 
to get this delivered in the most cost effective, powerful way.
    It is very important work, and we thank you.
    Chair Baird. Fascinating line of questions, as always, Mr. 
Inglis. As you thought, mentioned that, I was thinking one of 
the questions, really, is so what does it look like ten years 
from now? I mean, the sort of, just as we are talking about 
predicting climate, let us predict the organizational 
structure, and what does it look like ten years from now?
    And, you know, is it an integrated body that creates the 
Google Earth, that we can scan out, so I could zoom in on a 
computerized image of any area of our country, and ultimately, 
maybe, the planet, and then, time project that out on a host of 
variables, whether it is water supply, temperature, moisture, 
ground moisture, vegetation cover.
    Now, I am guessing that somewhere, that may happen, and it 
would be incredibly convenient, and maybe with some depth of 
confidence parameters around that, but how we get there is 
really sort of the question, and I think you are onto something 
there, in terms of what will that look like.
    Any final comments, we are about to conclude, but I can see 
Dr. Doesken has got something he wants to say.
    Dr. Doesken. But even if you are there, and I can envision 
that, too, because we are so close to that in many ways, still, 
converting that information to appropriate and wise decisions 
is a whole other ballgame, and we see that all the time, where 
people say I am smothered with data. This is fantastic. What do 
I do with it?
    Chair Baird. Yeah. Yeah.
    Dr. Doesken. And that is where a service provides that, as 
well.
    Chair Baird. Mr. Fleming.
    Mr. Fleming. Just to add to that. I think that issue of 
what to do with the information is one where it needs to rely, 
or reside with the local jurisdiction responsible for making 
those decisions.
    So, in the case of Seattle, we certainly look for and look 
towards having access to that type of information, but the 
tacit knowledge that we have, for instance, of our water supply 
system, is critical for making decisions, long-term decisions 
about what is the best course of action for that system. So, I 
just wanted to kind of echo that, at least in our situation, 
having local involvement in the development of adaptation 
options and decision-making is essential.
    Chair Baird. Great. I thank our panelists, and we will just 
conclude with the observation I made for the prior panelists. 
If there are things, thoughts or ideas or suggestions that have 
been stimulated by this interaction, or issues that you feel we 
could use some further insights into, please feel free to, and 
ask to provide that information.
    As is customary, the record will stay open for two weeks 
for additional comments from Members. We are grateful for the 
Committee's, or the panelists' participation, and with that, 
this hearing stands adjourned.
    Thank you very much.
    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
